CASE NO.
IN THE SUPREME COURT OF THE UNITED
STATES
KIM DAVIS,
Petitioner

v.
DAVID ERMOLD, DAVID MOORE,
WILL SMITH, JAMES YATES,

Respondents
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
PETITION FOR WRIT OF CERTIORARI
Mathew D. Staver,
(Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Kristina J. Wenberg
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioner

i
QUESTIONS PRESENTED
The Questions Presented for this Court’s
review are:
1.
Whether the Sixth Circuit erred when,
citing Obergefell v. Hodges, it created a special
standard for a same-sex couple’s claimed temporary
burden on the constitutional right to marry, and
thereby refused to apply this Court’s tiered “direct
and substantial burden” analysis in Zablocki v.
Redhail regarding right-to-marry cases for differentsex couples.
2.
Whether the Sixth Circuit erred by
refusing to follow this Court’s repeated instruction
“not to define clearly established law at a high level
of generality,” Ashcroft v. al-Kidd, and thereby
rejecting a county clerk’s qualified immunity claim
for temporarily suspending all marriage licenses
bearing her name and authority in only one of 120
Kentucky counties in the immediate aftermath of
Obergefell,
while
Kentucky’s
comprehensive
marriage laws and forms that govern every duty of
the clerk were being re-written, and while seeking a
successful accommodation for her sincerely held
religious beliefs.

ii
PARTIES
Petitioner is Kim Davis, in her individual
capacity.
Respondents are David Ermold, David Moore,
Will Smith, and James Yates.
CORPORATE DISCLOSURE STATEMENT
Petitioner, Kim Davis, is an individual
person. Thus, Davis has no parent corporation or
publicly held stock owner.
DIRECTLY RELATED PROCEEDINGS
David Ermold; David Moore, Plaintiffs–Appellees
(17-6119), Plaintiffs–Appellees/Cross-Appellants
(17-6119 & 17-6233) v. Kim Davis, individually,
Defendant–Appellant (17-6119), Elwood Caudill,
Jr., Clerk of Rowan County, Kentucky,
Defendant–Appellant/Cross-Appellee (17-6119 &
17-6233) [and] Will Smith; James Yates,
Plaintiffs–Appellees (17-6120), Plaintiffs–
Appellees/Cross-Appellants (17-6120 & 17-6226)
v. Kim Davis, individually, Defendant–
Appellant (17-6120), Elwood Caudill, Jr., Clerk
of Rowan County, Kentucky, Defendant–
Appellant/Cross-Appellee (17-6120 & 17-6226),
Rowan County, Kentucky, Defendant–Appellee
(17-6226), Nos. 17-6119/6120/6226/6233
(6th Cir. Judgment Aug. 23, 2019)
(consolidating appeals from Ermold and Smith
E.D. Ky. cases for opinion and judgment)

iii
David Ermold and David Moore, Plaintiffs v.
Kim Davis, individually, Defendant,
No. 15-cv-000046 (pending in E.D. Ky.)
James Yates and Will Smith, Plaintiffs v.
Kim Davis, individually, Defendant,
No. 15-cv-00062 (pending in E.D. Ky.)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ..................................... i
PARTIES .................................................................. ii
CORPORATE DISCLOSURE STATEMENT ......... ii
DIRECTLY RELATED PROCEEDINGS................ ii
TABLE OF CONTENTS ......................................... iv
TABLE OF APPENDICES .................................... vii
TABLE OF CITED AUTHORITIES....................... ix
DECISIONS BELOW .............................................. 1
JURISDICTION ....................................................... 1
RELEVANT
CONSTITUTIONAL
AND
STATUTORY PROVISIONS ................................... 1
INTRODUCTION .................................................... 2
STATEMENT OF THE CASE ................................. 4
REASONS FOR GRANTING THE PETITION .... 11
THE SIXTH CIRCUIT’S OPINION
CONFLICTS WITH THIS COURT’S
ZABLOCKI DECISION AND OTHER
SIXTH
CIRCUIT
PRECEDENTS
REQUIRING A TIERED, “DIRECT AND
SUBSTANTIAL BURDEN” ANALYSIS
OF CONSTITUTIONAL RIGHT-TOMARRY CLAIMS. ....................................... 11

v
A.

Obergefell Did Not Elevate a Right
to Same-Sex Marriage Above the
Existing Fundamental Right to
Marry. ............................................... 11

B.

Under the Binding Precedent
Disregarded by the Circuit Court
Below, Kentucky’s Accommodation
of Davis’s Religious Beliefs Triggers
and Satisfies Rational Basis
Scrutiny. ............................................ 16
1.

Consideration of Binding
Precedent and the Minimal
Burden
Placed
on
Respondents Compels the
Conclusion That Rational
Basis Scrutiny Applies to
Kentucky’s Action in This
Case. ....................................... 16

2.

Kentucky’s Accommodation
of Davis’s Religious Beliefs
Was a Reasonable Means of
Advancing a Legitimate
Government Interest. ............ 22

THE SIXTH CIRCUIT’S OPINION
CONFLICTS WITH THIS COURT’S
al-KIDD DECISION AND OTHER
SUPREME
COURT
AND
SIXTH
CIRCUIT
PRECEDENTS
THAT
PROHIBIT
DEFINING
CLEARLY
ESTABLISHED RIGHTS AT A HIGH

vi
LEVEL
OF
GENERALITY
FOR
QUALIFIED IMMUNITY PURPOSES. ..... 27
CONCLUSION ....................................................... 36

vii
TABLE OF APPENDICES
APPENDIX A — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT DENYING DAVIS’S
PETITION FOR REHEARING EN BANC,
FILED OCTOBER 24, 2019 ............................ 1a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT AFFIRMING DENIAL OF
DAVIS’S MOTIONS TO DISMISS ON
QUALIFIED
IMMUNITY
GROUNDS,
FILED AUGUST 23, 2019 ................................ 3a
APPENDIX C — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY DENYING DAVIS’S MOTION
TO DISMISS ERMOLD, MOORE CLAIMS
ON QUALIFIED IMMUNITY GROUNDS,
FILED SEPTEMBER 15, 2017 ...................... 34a
APPENDIX D — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY DENYING DAVIS’S MOTION
TO DISMISS SMITH, YATES CLAIMS ON
QUALIFIED
IMMUNITY
GROUNDS,
FILED SEPTEMBER 15, 2017 ...................... 64a
APPENDIX E — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT AFFIRMING AWARD OF

viii
ATTORNEY’S
FEES
TO
MILLER
PLAINTIFFS, FILED AUGUST 23, 2019 ..... 95a
APPENDIX F — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY
DISMISSING
ERMOLD,
MOORE, SMITH, YATES CLAIMS AS
MOOT, FILED AUGUST 18, 2016 .............. 116a
APPENDIX G — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY
GRANTING
MILLER
PLAINTIFFS’
MOTION
FOR
PRELIMINARY
INJUNCTION,
FILED
AUGUST 12, 2015 ........................................ 121a
APPENDIX H — GOVERNOR BEVIN
EXECUTIVE ORDER 2015-048 RELATING
TO THE COMMONWEALTH’S MARRIAGE
LICENSE FORM, DECEMBER 22, 2015.... 164a
APPENDIX I — CNN ARTICLE, “KIM DAVIS
STANDS GROUND, BUT SAME-SEX
COUPLE GET MARRIAGE LICENSE,”
FILED JUNE 8, 2017 ................................... 168a

ix
TABLE OF CITED AUTHORITIES
Cases
Anderson v. Creighton, 483 U.S. 635 (1987) .....10,28
Ashcroft v. al-Kidd, 563 U.S. 731 (2011) ...........28,29
Campbell v. City of Springboro, 700 F.3d 779
(6th Cir. 2012) ................................................... 11
Corp. of Presiding Bishop of Church of Jesus
Christ of Latter-Day Saints v. Amos, 483 U.S.
327 (1987) .......................................................... 27
Craig v. Masterpiece Cakeshop, Inc., 370 P.3d
272 (Colo. App. 2015) ........................................ 33
Gibbs v. Lomas, 755 F.3d 529 (7th Cir. 2014)....... 12
Harlow v. Fitzgerald, 457 U.S. 800 (1982) ............ 10
Hobbie v. Unemployment Appeals Comm’n of
Fla., 480 U.S. 136 (1987) .................................. 27
Kennedy v. Cty. of Villa Hills, 635 F.3d 210 (6th
Cir. 2011)........................................................... 28
Lawrence v. Texas, 539 U.S. 558 (2003) ................ 27
Loving v. Va., 388 U.S. 1 (1967) ........................18,19
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 137 S. Ct. 2290 (2017) ....................... 33
Mitchell v. Forsyth, 472 U.S. 511 (1985) ............... 10

x
Montgomery v. Carr, 101 F.3d 1117 (6th Cir.
1996) ...................... 12,13,16,17,18,19,20,21,22,25
Obergefell v. Hodges,
135 S. Ct. 2584 (2015)................................ passim
Occupy Nashville v. Haslam, 769 F.3d 434 (6th
Cir. 2014)..................................................28,29,30
Pavan v. Smith, 137 S. Ct. 2075 (2017) ................ 33
Pearson v. Callahan, 555 U.S. 223 (2009) ............ 12
Pidgeon v. Turner, 538 S.W.3d 73 (Tex. 2017) ...... 33
Plumhoff v. Rickard, 134 S. Ct. 2012, 2023
(2014) ................................................................. 28
Romer v. Evans, 517 U.S. 620 (1996) .................... 27
Rondigo, LLC v. Twp. of Richmond, 641 F.3d
673 (6th Cir. 2011) .............................................. 7
Saucier v. Katz, 533 U.S. 194 (2001) .................11,12
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551
U.S. 308 (2007).................................................... 7
United States v. Lanier, 520 U.S. 259 (1997) ........ 29
Vaughn v. Lawrenceburg Power Sys., 269 F.3d
703 (6th Cir. 2001) .......... 12,14,15,16,19,20,21,22
Wright v. MetroHealth Med. Ctr., 58 F.3d 1130
(6th Cir. 1995) ................................................... 13

xi
Zablocki v. Redhail,
434 U.S. 374 (1978).............................12,13,16,18
Constitutions
Ky. Const., Preamble ............................................. 25
Ky. Const. § 5 ......................................................... 25
Statutes
28 U.S.C. § 1254 ....................................................... 1
28 U.S.C. § 1291 ....................................................... 9
42 U.S.C. § 1983 ....................................................... 4
Kentucky Religious Freedom Restoration Act,
Ky. Rev. Stat. § 446.350 (2013) ................. passim
Ky. Rev. Stat. § 402.080 ...................................... 6,34
Ky. Rev. Stat. § 402.100 ......................................... 34
Ky. Rev. Stat. § 446.010 .....................................22,23
Ky. Rev. Stat. § 446.030 ......................................... 23
Ky. Rev. Stat. § 446.090 ......................................... 23
Ky. Rev. Stat. § 446.140 ......................................... 23
Ky. Rev. Stat. Ch. 446 ............................................ 23
Md. Code Ann., Fam. Law § 2-401 ........................ 34
Mich. Comp. Laws § 551.101 ................................. 34

xii
Mich. Comp. Laws § 551.103a ............................... 34
Minn. Stat. § 517.07 ............................................... 34
Minn. Stat. § 517.08 ............................................... 34
Ohio Rev. Code Ann. § 3101.05 ............................. 34
Tenn. Code Ann. § 36-3-103................................... 34
Other Authorities
Executive Order 2015-048 Relating to the
Commonwealth’s Marriage License
Form ........................................................8,9,22,23
Sup. Ct. R. 10 ......................................................... 36

1
DECISIONS BELOW
The Sixth Circuit’s opinion affirming the
district court’s denials of Davis’s respective motions
to dismiss Respondents’ claims against Davis in her
individual capacity on qualified immunity grounds
(App. B) is published at Ermold v. Davis, 936 F.3d
429 (6th Cir. 2019) (consolidating appeals for
opinion and judgment). The Sixth Circuit’s order
denying Davis’s petition for rehearing en banc is
unpublished, but is reproduced at Appendix A.
The district court’s orders denying Davis’s
respective motions to dismiss Respondents’ claims
against Davis in her individual capacity on qualified
immunity grounds (App. C, D) are unpublished and
available at Ermold v. Davis, No. 15-46-DLB-EBA,
2017 WL 4108921 (E.D. Ky. Sept. 15, 2017), and
Yates v. Davis, No. 15-62-DLB-EBA, 2017 WL
4111419 (E.D. Ky. Sept. 15, 2017).
JURISDICTION
The Sixth Circuit issued its decision on
August 23, 2019 and denied rehearing en banc on
October 24, 2019. This Court has jurisdiction under
28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
The Kentucky Religious Freedom Restoration
Act (“Kentucky RFRA”) provides, in pertinent part:
Government shall not substantially
burden a person’s freedom of religion.

2
The right to act or refuse to act in a
manner motivated by a sincerely held
religious
belief
may
not
be
substantially burdened unless the
government proves by clear and
convincing evidence that it has a
compelling governmental interest in
infringing the specific act or refusal to
act and has used the least restrictive
means to further that interest.
Ky. Rev. Stat. § 446.350 (emphasis added).
INTRODUCTION
This case is not about whom a person may
marry under Kentucky law, whether Kentucky must
license the marriage of a same-sex couple, or even
whether Respondents could obtain a Kentucky
marriage license when they wanted one. Nor is this
case about a county clerk who wanted to re-litigate
this Court’s decision in Obergefell v. Hodges, or to
prevent Respondents or any other same-sex couple
from receiving a marriage license in Kentucky.
Rather, this case has always been about
whether the law forces an “all or nothing” choice
between same-sex marriage on the one hand, and
religious liberty on the other, with no regard
whatsoever for any reasonable accommodation. Now
that Kentucky has moved on, after its highest
officials changed the law to vindicate Kim Davis’s
religious liberty rights and provide her requested
accommodation, even while ensuring no Kentuckian
was denied a valid marriage license, Respondents

3
want to punish Davis for temporarily resisting an
act that would have violated her deeply held
religious convictions and conscience.
Pursuant to the marriage license directive of
former Kentucky Governor Steven Beshear
following this Court’s Obergefell v. Hodges decision,
Respondents claim that Davis violated their right to
marry when she raised a conscientious objection,
according to her deeply held religious beliefs, to
issuing marriage licenses to same-sex couples
under her name and authority. In the context of
this case, however, and under well-established
precedent, Davis is entitled to qualified immunity
from Respondents’ claims against her in her
individual capacity. Specifically, Respondents have
failed to identify any federal constitutional right to
receive a marriage license from a particular state
official (Davis) at a particular place (Rowan
County), when no policy ever prevented any
Respondent from marrying whom he wanted to
marry, or obtaining a valid Kentucky marriage
license from the state. To be sure, in the mere days
after Obergefell, such a “strict liability” marriage
license right was not “clearly established.”
The Sixth Circuit below disregarded this
Court’s and its own precedents requiring its
consideration of Respondents’ right-to-marry claims
under a tiered, “direct and substantial burden”
analysis. The circuit court likewise disregarded this
Court’s and its own precedents prohibiting the court
from defining the applicable “clearly established
right” for purposes of Davis’s qualified immunity
defense at too high a level of generality. Thus, the

4
resulting Sixth Circuit decision directly conflicts
with decades of precedent from this Court and the
Sixth Circuit, and Davis respectfully petitions this
Court to grant review and, ultimately, reverse the
conflicting decision.
STATEMENT OF THE CASE
This petition arises from two separate district
court actions against Kim Davis, the former Clerk of
Rowan County, Kentucky. Each was brought by a
same-sex couple under 42 U.S.C. § 1983,
immediately after this Court’s decision in Obergefell
v. Hodges, 135 S. Ct. 2584 (2015), asserting Davis
violated their respective constitutional rights to
marry. (App. B, 5a; App. C, 35a–37a.)
As explained below (see infra, Reasons for
Granting the Petition pt. I.A), the panel majority
below, relying on Obergefell, expressly rejected this
Court’s mandatory tiered analysis of government
regulations affecting the constitutional right to
marry. As the concurrence reasoned, “I don’t believe
that the Supreme Court would abolish tiers-ofscrutiny analysis for all marriage regulations
without explicitly telling us it was doing so.” (App.
B, 25a (Bush, J., concurring in part and in the
judgment).) Judge Bush’s concurrence also
cautioned against allowing the majority’s error to
stand, admonishing, “This is not mere pedantry,”
and, “The next marriage-regulation case that our
court hears may not be amenable to this type of
judicial shortcut.” (App. B, 28a–29a (Bush, J.,
concurring in part and in the judgment).)

5
This Court’s Obergefell decision invalidated
the challenged laws of several states “to the extent
they exclude same-sex couples from civil
marriage on the same terms and conditions as
opposite-sex couples.” 135 S. Ct. at 2604–05
(emphasis added). The challenged state laws
included the Commonwealth of Kentucky’s laws
“defin[ing] marriage as a union between one man
and one woman.” Id. at 2593. Kentucky, acting
through its then-Governor, Steven Beshear,
immediately aligned the Kentucky marriage license
form with Obergefell by changing it to accommodate
same-sex couples on the same terms as different-sex
couples. (App. G, 130a.)
Davis was then the Clerk of Rowan County,
Kentucky, making her the state official responsible
for administering the state’s marriage licensing
policies in Rowan County. (App. B, 5a–7a.) Davis,
however, is also a “Christian with a sincere religious
objection to same-sex marriage,” for she “believe[s]
that marriage is a union between one man and one
woman, as many Americans do.” (App. G, 123a-124a,
162a; App. B, 111a.) Under Kentucky law as it then
existed, all marriage licenses issued in Rowan
County were issued under Davis’s name and
authority. (App. G, 127a–128a.) Issuing marriage
licenses to same-sex couples would have violated
Davis’s conscience, informed by her sincerely held
religious beliefs, because Davis believes issuing a
marriage license under her name and authority
is tantamount to endorsing the union. (App. G,
129a–130a.) Thus, to accommodate her religious
objection, Davis “specifically sought to avoid issuing
licenses to same-sex couples without discriminating

6
against them,” so she stopped issuing all marriage
licenses, same-sex and different-sex, altogether.
(App. G, 123a–124a; App. B, 7a.)
While marriage licenses were available to any
Kentuckian in at least the seven counties
surrounding Rowan County,1 Davis’s “no marriage
licenses” policy nonetheless resulted in three
lawsuits being filed against her, asserting violations
of the constitutional right to marry. (App. G, 126a;
App. C, 35a–37a, nn.1–2; App. B, 7a.) The first,
Miller v. Davis, was filed by four couples (two samesex and two different-sex) seeking temporary and
permanent injunctive relief, declaratory relief, and
damages. (App. E, 98a; App. C, 35a–37a, n.1; 1-3.)
The second and third were the cases filed by
Respondents herein, seeking money damages. (App.
App. C, 37a; App. B, 7a.)
The Miller plaintiffs moved the district court
for a preliminary injunction to force Davis to issue
them marriage licenses pursuant to Governor

Kentucky law allows applicants to seek a Kentucky
marriage license, which is effective throughout the state, in
any county. See Ky. Rev. Stat. § 402.080. There is no allegation
by any Respondent that marriage licenses were unavailable in
any Kentucky county other than Rowan County.
1

7
Beshear’s Obergefell mandate.2 (App. 4-2–3; 6-6.)
Davis contemporaneously sued Governor Beshear
for accommodation of her religious beliefs by filing a
third-party complaint in the Miller case, and moved
the district court for a preliminary injunction
effecting the accommodation. (App. E, 99a; App. G,
149a n.9.) The district court heard and granted the
Miller plaintiffs’ preliminary injunction motion
against Davis, but did not consider Davis’s motion
against the Governor. (App. C, 38a; App. G, 149a
n.9.)
Davis, on account of her religious objection,
could not comply with the Miller preliminary
injunction, and the district court jailed her for

Although the district court did not formally consolidate
Miller with Respondents’ cases, the court treated the cases as
consolidated for some purposes, including dismissal. (App. F,
116a–120a (dismissing together Miller and Respondents’ cases
under the caption In re: Ashland Civil Actions, referring to
Miller as “the lead case”).) Accordingly, it is appropriate to
consider relevant portions of the Miller proceedings as part of
the record in the instant case. See generally Tellabs, Inc. v.
Makor Issues & Rights, Ltd., 551 U.S. 308, 322 (2007)
(“[C]ourts must consider the complaint in its entirety, as well
as other sources courts ordinarily examine when ruling on Rule
12(b)(6) motions to dismiss, in particular, documents
incorporated into the complaint by reference, and matters of
which a court may take judicial notice.”); Rondigo, L.L.C. v.
Twp. of Richmond, 641 F.3d 673, 680–81 (6th Cir. 2011) (“[A]
court may consider exhibits attached to the complaint, public
records, items appearing in the record of the case and exhibits
attached to defendant’s motion to dismiss so long as they are
referred to in the complaint and are central to the claims
contained therein, without converting the motion to one for
summary judgment.” (internal quotation marks omitted)).
2

8
contempt. (App. C, 38a; App. E, 99a.) Along with the
contempt order, the district court entered an
additional order expanding the Miller injunction
beyond the Miller plaintiffs, to require issuance of a
marriage license to any legally eligible applicant.
(App. C, 38a.)
While Davis was jailed, her deputy clerks
issued marriage licenses to the Miller plaintiffs and
to Respondents. (App. C, 39a; App. E, 99a.) The
licenses had been altered to remove Davis’s name,
but Governor Beshear ratified the alteration. (App.
I, 168a–170a.) Upon Davis’s release from jail and
return to work she made an additional alteration to
the license form, to effect an accommodation of her
religious beliefs by clarifying the licenses were not
being issued under her name or authority. (App. I,
168a–170a.) Governor Beshear, although previously
unwilling to grant an accommodation to clerks like
Davis,
nonetheless
ratified
Davis’s
postincarceration, self-made accommodation. (App. I,
168a–170a.)
Davis appealed both the Miller preliminary
injunction and the district court’s effective denial of
her third-party motion for preliminary injunction
against Governor Beshear. (App. B, 7a–8a; App. E,
100a.) Acting through its new Governor, Matt Bevin,
however, Kentucky permanently changed the
marriage license form statewide by Executive Order
2015-048 (App. H) to accommodate the sincerely
held religious beliefs of county clerks like Davis, by
removing the requirement that licenses be issued
under the name and authority of county clerks. (App.
H.) The Kentucky General Assembly then codified

9
the accommodation effected by the Executive Order,
rendering the Miller appeals moot. (App. B, 8a; App.
C, 39a.) The Sixth Circuit dismissed the appeals for
mootness, and directed the district court to vacate
the Miller preliminary injunction on remand. (App.
B, 8a; App. C, 39a.) The district court did, but also
dismissed Respondents’ lawsuits on mootness
grounds. (App. C, 39a; App. F.) The Ermold
respondents successfully appealed their dismissal to
the Sixth Circuit, resulting in reinstatement of their
case and the Smith Respondents’ case. (App. B, 8a;
App. C, 40a; App. D, 70a.)
Following reinstatement of Respondents’
cases, Davis moved to dismiss both cases on
Eleventh Amendment sovereign immunity grounds,
in her official capacity, and on qualified immunity
grounds in her individual capacity. (App. B, 8a.) The
district court granted dismissal of the official
capacity claims, but denied dismissal of the
individual capacity claims. (App. B, 8a.)
Davis, under 28 U.S.C. § 1291 and the
collateral order doctrine, appealed the district
court’s denials of her motions to dismiss the

10
individual claims.3 (App. B, 8a.) Respondents,
respectively, cross-appealed the district court’s
dismissals of their official capacity claims. (App. B,
8a.) The Sixth Circuit consolidated the appeals and
cross-appeals for argument and submission, and
issued a single opinion affirming the district court in
all respects.4 (App. B.) Davis petitioned the Sixth
Circuit for rehearing en banc as to her qualified
immunity defense to the individual claims, which
the Sixth Circuit denied. (App. A.) Davis petitions

The full benefit of immunity from suit conferred on
public officials by the qualified immunity doctrine is
irreparably lost once the official is subjected to discovery and
other litigation burdens. Thus, “(u)nless the plaintiff's
allegations state a claim of violation of clearly established law,
a defendant pleading qualified immunity is entitled to
dismissal before the commencement of discovery.”
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985) (emphasis added)
(citing Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). “Harlow
thus recognized an entitlement not to stand trial or face the
other burdens of litigation, conditioned on the resolution of the
essentially legal question whether the conduct of which the
plaintiff complains violated clearly established law. The
entitlement is an immunity from suit rather than a mere
defense to liability . . . .” Mitchell, 472 U.S. at 526 (emphasis
added). “One of the purposes of the Harlow qualified immunity
standard is to protect public officials from the broad-ranging
discovery that can be peculiarly disruptive of effective
government. For this reason, we have emphasized that
qualified immunity questions should be resolved at the earliest
possible stage of a litigation.” Anderson v. Creighton, 483 U.S.
635, 646 n.6 (1987) (internal quotation marks and citation
omitted).
3

After briefing was complete, but before oral argument,
Elwood Caudill, Jr. was elected Rowan County Clerk, replacing
Davis. (App. B, 9a.) Respondents, however, persisted with their
damages suit against Davis.

4

11
this Court to grant certiorari review and vindicate
her qualified immunity defense.
REASONS FOR GRANTING THE PETITION
THE
SIXTH
CIRCUIT’S
OPINION
CONFLICTS WITH THIS COURT’S
ZABLOCKI DECISION AND OTHER
SIXTH
CIRCUIT
PRECEDENTS
REQUIRING A TIERED, “DIRECT AND
SUBSTANTIAL BURDEN” ANALYSIS
OF
CONSTITUTIONAL
RIGHT-TOMARRY CLAIMS.
Obergefell Did Not Elevate a
Right to Same-Sex Marriage
Above
the
Existing
Fundamental
Right
to
Marry.
Under binding precedent, the court of appeals
was tasked with determining Davis’s qualified
immunity defense under a two-part inquiry: (1)
whether a constitutional right has been violated,
and (2) if so, whether the right was clearly
established and one that a reasonable official should
have known. See Campbell v. City of Springboro, 700
F.3d 779, 786 (6th Cir. 2012) (citing Saucier v. Katz,

12
533 U.S. 194 (2001)).5 In addressing the first step,
the panel majority opinion (App. B, the “Opinion”)
conflicts with binding precedent of this Court,
Zablocki v. Redhail, 434 U.S. 374 (1978), and of the
Sixth Circuit, Montgomery v. Carr, 101 F.3d 1117
(6th Cir. 1996); Vaughn v. Lawrenceburg Power Sys.,
269 F.3d 703 (6th Cir. 2001). These precedents
require a tiered analysis of a claim that a
government policy violated the constitutional right
to marry: Policies imposing a direct and substantial
burden on the right to marry are subject to strict
scrutiny, while policies imposing a lesser burden are
subject to only rational basis review. See, e.g.,
Montgomery, 101 F.3d at 1124–29.
The majority below, relying on Obergefell,
expressly rejected this mandatory tiered analysis
(App. B, 18a–19a), and its Opinion is therefore in
conflict with decades of binding Supreme Court and
Sixth Circuit precedent. As the concurrence
reasoned, “I don’t believe that the Supreme Court
would abolish tiers-of-scrutiny analysis for all
marriage regulations without explicitly telling us it
was doing so.” (App. B, 25a (Bush, J., concurring in
part and in the judgment).) Judge Bush’s
concurrence also cautioned against allowing the
majority’s error to stand, admonishing, “This is not
mere pedantry,” and, “The next marriage-regulation

Deciding the two parts in this order can be beneficial
but is not mandatory. See Pearson v. Callahan, 555 U.S. 223,
236 (2009). “If either inquiry is answered in the negative, the
defendant official is entitled to [prevail],” regardless of the
order. Gibbs v. Lomas, 755 F.3d 529, 537 (7th Cir. 2014) (citing
Pearson, 555 U.S. at 236)).
5

13
case that our court hears may not be amenable to
this type of judicial shortcut.” (App. B, 28a–29a
(Bush, J., concurring in part and in the judgment).)
Thus,
having
already
concluded,
unequivocally, that Davis acted for Kentucky—both
in issuing marriage licenses, and in not issuing
marriage licenses to Respondents (App. B, 14a)—the
next step under the well-settled standards for
constitutional right-to-marry claims required the
circuit court to first determine whether rational
basis scrutiny or strict scrutiny applies to the
challenged Kentucky policy. See Montgomery, 101
F.3d at 1124.6 Importantly, “not every state action
‘which relates in any way to the incidents of or the
prerequisites for marriage must be subjected to
rigorous scrutiny.’” Wright v. MetroHealth Med. Ctr.,
58 F.3d 1130, 1134 (6th Cir. 1995) (quoting Zablocki,
434 U.S. at 388). As this Court held in Zablocki,
whether challenged on equal protection or due
process grounds, only state regulations that
“interfere directly and substantially with the right
to marry” are subject to strict scrutiny. 434 U.S. at
384–87; see also Montgomery, 101 F.3d at 1124. A
“direct and substantial” burden requires an
“absolute barrier” in which individuals are
“absolutely or largely prevented from marrying”
whom they want to marry or “absolutely or largely
prevented from marrying a large portion of the
“The right to marry is both a fundamental substantive
due process and associational right.” Montgomery, 101 F.3d at
1124. “Supreme Court precedent, however, specifically
establishes that the same level of scrutiny applies in both the
First Amendment and substantive due process contexts.” Id.
6

14
otherwise eligible population of spouses.” Vaughn,
269 F.3d at 710.
Contrary to the circuit court’s analysis below,
this case is neither the same case as Obergefell nor
directly controlled by it. That opinion did not
address the details of state marriage licensing
schemes, like Kentucky’s, that must be applied in
light of pre-existing, state law religious freedom
protections, such as the Kentucky RFRA. At bottom,
the majority in Obergefell reached two conclusions
about the right to marry under the Fourteenth
Amendment: (1) states may not absolutely bar an
individual from marrying a person of the same-sex,
and (2) states that recognize marriage, or provide
benefits related to marriage, must do so on the same
terms and conditions for same-sex couples as for
different-sex couples. Obergefell, 135 S.Ct. at 2604–
05. Neither of these conclusions is directly
implicated in the case at bar. Thus, although this
case would not exist but for Obergefell, that opinion
does not bind this Court to a foregone conclusion in
this case.
On the first point, before Obergefell,
Respondents were “absolutely prevented” from
obtaining a Kentucky marriage license if they
wanted to marry a person of the same sex. No samesex couple was able to obtain a Kentucky marriage
license in any one of Kentucky’s 120 counties. And
no same-sex marriage obtained in another state
would have been recognized in Kentucky. After
Obergefell, even with the “no marriage licenses”
policy in place in Rowan County, same-sex
couples desiring marriage licenses could obtain

15
them because Kentucky was issuing marriage
licenses in all surrounding counties. Thus, unlike in
the cases consolidated in Obergefell, there is no
absolute (or even near absolute) statewide ban at
issue or being challenged here.
The second point of Obergefell is also not at
issue here because same-sex couples and differentsex couples are (and were) indisputably being
treated the same in Kentucky, and in Rowan
County, obviating any equal protection issue. The
undisputed record shows that Davis discontinued
the issuance of all marriage licenses, regardless of
whether the applicant couple was different-sex or
same-sex. Nevertheless, Respondents claim a
violation of their right to marry because they were
unable to obtain a marriage license in a particular
location (Rowan County) approved by a
particular individual (Davis) and bearing the
name and authority of that particular individual
irrespective of, and without any accommodation for,
her conscience and religious beliefs. But this is not a
federal constitutional right created by Obergefell, or
mandated by any other Supreme Court right-tomarry case.
Rather than focus on whether Davis’s policy
created an “absolute barrier,” such that
Respondents were “absolutely or largely prevented
from marrying” whom they wanted to marry or
“absolutely or largely prevented from marrying a
large portion of the otherwise eligible population of
spouses,” Vaughn, 269 F.3d at 710, so that the court
could determine whether to apply strict or rational
basis scrutiny, the majority instead focused only on

16
whether Davis provided Respondents licenses on the
terms Respondents wanted, irrespective of the
availability of Kentucky marriage licenses to
Respondents from other Kentucky officials.7 Thus,
the majority did an end-run around the binding
precedent of the Supreme Court and the Sixth
Circuit and imposed a form of strict liability on
Davis that in no way is mandated by Obergefell.
Under
the
Binding
Precedent Disregarded by
the Circuit Court Below,
Kentucky’s Accommodation
of Davis’s Religious Beliefs
Triggers
and
Satisfies
Rational Basis Scrutiny.
Consideration of Binding
Precedent and the Minimal
Burden
Placed
on
Respondents Compels the
Conclusion That Rational
Basis Scrutiny Applies to
Kentucky’s Action in This
Case.
As shown above, Obergefell neither overruled
the
Zablocki–Montgomery–Vaughn
line
of
precedent, nor relieved the circuit court from
applying it to Kentucky’s regulation of marriage
through Davis’s temporary policy. Thus, to
determine whether Kentucky violated Respondents’

7

See supra note 1.

17
constitutional right to marry by making marriage
licenses unavailable in one county, as a means of
temporarily accommodating the protected religious
conscience rights of a state official, the circuit court
was required to first determine whether rational
basis scrutiny or strict scrutiny applies to
Kentucky’s action. See Montgomery, 101 F.3d at
1124.
Respondents have not alleged that Kentucky
prevented them from marrying. Rather, they allege
only that Kentucky, acting through its licensing
official, prevented them from obtaining a marriage
license in a particular county, to accommodate the
official’s sincerely held religious beliefs. “[M]erely
placing a non-oppressive burden on the decision to
marry . . . is not sufficient to trigger heightened
constitutional scrutiny.” Id. at 1125. Consideration
of binding precedent and the minimal burden placed
on Respondents compels the conclusion that rational
basis scrutiny applies to Kentucky’s action in this
case. (Cf. App. B, 24a (Bush, J., concurring in part
and in the judgment) (“They suffered a hardship . . .
. What they did not suffer was a prohibition on
getting married.).)
The Sixth Circuit’s own decision in
Montgomery v. Carr is instructive. There, the circuit
court affirmed summary judgment for a group of
governmental defendants after applying rational
basis scrutiny to the defendants’ anti-nepotism
policy. 101 F.3d at 1118. The Montgomery plaintiffs
were a couple who were employed at the same
campus of defendants’ school system, which was a
large secondary school system serving thirty-five

18
affiliated school districts in Ohio. Id. Defendants’
anti-nepotism policy prohibited married couples
from working at the same campus. Id. Pursuant to
defendants’ policy, upon the plaintiff couple’s
marriage, the wife’s employment was transferred to
another campus in the system. Id. at 1119. Thus, the
policy caused the couple “to drive collectively about
65 miles per day more,” and for the wife added “an
extra hour per day in commuting time.” Id. at 1120.
Having considered plaintiffs’ increased daily
commute, and resulting psychological ailments for
the wife, the Montgomery court concluded that
defendants’ anti-nepotism policy did not impose a
“direct and substantial” burden on the plaintiffs’
right to marry. Id. at 1124-26. Thus, the court
concluded, rational basis scrutiny applied to the
court’s review of the policy. Id. at 1124-29.
In reaching its conclusion, the Montgomery
court distinguished the case before it from two
Supreme Court cases involving “direct and
substantial” burdens:
Two
examples
of
“direct
and
substantial” burdens on the right of
marriage derive from the facts of
Loving [v. Va., 388 U.S. 1 (1967)] and
Zablocki. In Loving, the antimiscegenation statute at issue was a
“direct and substantial” burden on the
right
of
marriage
because
it
absolutely prohibited individuals of
different races from marrying. In
Zablocki, the burden on marriage was

19
“direct and substantial” because the
Wisconsin statute in that case required
non-custodial parents, who were
obliged to support their minor children,
to obtain court permission if they
wanted to marry:
Some of those in the affected class . . .
will never be able to obtain the
necessary court order, because they
either lack the financial means to meet
their support obligations or [will not be
able to] prove that their children will
not become public charges. These
persons are absolutely prevented
from getting married. Many others,
able in theory to satisfy the statute's
requirements, will be sufficiently
burdened by having to do so that they
will in effect be coerced into forgoing
their right to marry.
Id. at 1124–25 (emphasis added) (quoting Zablocki,
434 U.S. at 387). Compared to the “direct and
substantial” burdens imposed by the Loving and
Zablocki policies, which “absolutely prevented
[some] from getting married” or “coerced [some] into
foregoing their right to marry,” the Montgomery
court concluded that the anti-nepotism policy
involved “a non-oppressive burden on the decision to
marry.” Id. at 1125.
In Vaughn v. Lawrenceburg Power Sys., a case
similar to Montgomery, the circuit court held that a
governmental anti-nepotism policy requiring the

20
termination of one spouse when two employees
married “must be considered a non-oppressive
burden on the right to marry, and so subject only to
rational basis review by this court.” 269 F.3d at 712.
Building on Montgomery, the court explained:
Our analysis of the case law in
Montgomery indicated that we would
find direct and substantial burdens
only where a large portion of those
affected by the rule are absolutely or
largely prevented from marrying,
or where those affected by the rule are
absolutely or largely prevented from
marrying a large portion of the
otherwise eligible population of
spouses.
Id. at 710 (emphasis added). The policy in Vaughn
did not meet the “direct and substantial” test, the
court reasoned, because “the policy did not bar [the
plaintiff couple] from getting married, nor did it
prevent them from marrying a large portion of
population even in [their home] County.” Id.
Under the Sixth Circuit’s decisions in
Montgomery and Vaughn, it is clear that the
temporary suspension of marriage licenses in Rowan
County placed no direct and substantial burden on
Respondents’ right to marry. Respondents have not
alleged any obstacle, economic or otherwise, to their
traveling to a clerk’s office in one of the seven
counties surrounding Rowan County, or any of the
over 100 other Kentucky counties, to obtain a
Kentucky marriage license. Indisputably, driving

21
once to the adjoining county clerk’s office would
have been significantly closer, quicker and less
burdensome than the 65-mile daily burden deemed
not sufficiently “direct and substantial” in
Montgomery.8 Nor have Respondents alleged that
such travel, one time, would absolutely or largely
prevent a large number of people from marrying, or
absolutely or largely prevent anyone from marrying
a large portion of the otherwise eligible population
of spouses. The lack of a marriage license from the
Rowan County Clerk “does not change the essential
fact” that Respondents were never barred “from
getting married, nor did it prevent them from
marrying a large portion of population even in
[Rowan] County.” Vaughn, 269 F.3d at 712.
Respondents have not alleged that marriage
licenses were unavailable to them in any of
Kentucky’s other counties. Kentucky does not
violate any couple’s constitutional right to marry by
offering marriage licenses in 119 of 120 counties, or
even in just 7 of 7 surrounding counties. 9

8
Each of the seven counties surrounding Rowan County
is only thirty minutes to an hour away from the Rowan County
seat of Morehead. (App. G, 126a,139a.)
9
This case does not present, and the Court need not
answer, the constitutional question arising from a state that
restricts marriage licensing to the county of residence or
marriage solemnization, and stops issuing licenses in a
particular county as a religious liberty accommodation to an
official in that county. Kentucky’s geographically permissive
marriage licensing policy obviates the need to answer such a
question.

22
Kentucky’s Accommodation
of Davis’s Religious Beliefs
Was a Reasonable Means of
Advancing
a
Legitimate
Government Interest.
Applying rational basis review shows that
Respondents’ right to marry was not violated
because Kentucky’s suspension of marriage licenses
in one office to accommodate the protected
conscience rights of its official was a reasonable
means of advancing a legitimate governmental
interest. See Vaughn, 269 F.3d at 712; Montgomery,
101 F.3d at 1129-1130. As ultimately acknowledged
by Governor Bevin’s Executive Order, Davis’s right
to relief from carrying out Governor Beshear’s
mandate to issue marriage licenses on the new
Kentucky license form, against her conscience, is
protected by and entrenched in the Kentucky
Religious Freedom Restoration Act (“Kentucky
RFRA”) which provides, in pertinent part:
Government shall not substantially
burden a person’s[10] freedom of
religion. The right to act or refuse to
act in a manner motivated by a
sincerely held religious belief may not

While “person” is not defined in the Kentucky RFRA, it
is defined in Kentucky’s general definitions statute to include
“bodies-politic and corporate, societies, communities, the public
generally, individuals, partnerships, joint stock companies,
and limited liability companies.” See KY. REV. STAT.
§ 446.010(33) (emphasis added). There is no exception from the
definition for individuals who are publicly elected officials.

10

23
be substantially burdened unless the
government proves by clear and
convincing evidence that it has a
compelling governmental interest in
infringing the specific act or refusal to
act and has used the least restrictive
means to further that interest.
Ky. Rev. Stat. § 446.350 (emphasis added).
Kentucky RFRA, in turn, applies to all
Kentucky statutes. Kentucky RFRA is housed under
Chapter 446, which is entitled “Construction of
Statutes,” and includes such other generally
applicable provisions as “Definitions for Statutes
Generally,” “Computation of Time,” “Severability,”
and “Titles, Headings, and Notes.” Ky. Rev. Stat.
§§ 446.010, 446.030, 446.090, 446.140. Even more
specifically, Kentucky RFRA is included under a
section of Chapter 446 reserved for “Rules of
Codification.” As such, Kentucky’s marriage
statutes—much like any other body of Kentucky
law—cannot be interpreted without also considering
and applying Kentucky RFRA.
Thus, the right to refuse to act against
religious conscience is expressly conferred by
Kentucky RFRA, which applies to Kentucky
marriage licensing statutes. Moreover, the specific
application of this right to county clerks in the
issuance of marriage licenses was expressly
established by the Executive Order. Put differently,
Kentucky (i.e., Davis in her official capacity) had a
duty under Kentucky RFRA not to substantially
burden “the right of any person” (i.e., Davis in her

24
individual capacity) “to act or refuse to act in a
manner motivated by a sincerely held religious
belief . . . .” Ky. Rev. Stat. § 446.350 (emphasis
added). Accordingly, both in issuing marriage
licenses, and in not issuing licenses pursuant to
Kentucky RFRA, Davis was complying with state
law, and acting reasonably.
By temporarily stopping the issuance of
marriage licenses to all couples in one county until
appropriate (and very simple) accommodations
could be accomplished (via revisions to the marriage
license form removing individual clerk names),
Kentucky ensured that individuals’ fundamental
rights to religious accommodation secured by the
First Amendment and the Kentucky RFRA
(including Davis’s) were protected, while leaving
ample outlets for marriage licenses open. The
stoppage
was
reasonable
under
all
the
circumstances because Davis, as the state official
responsible for the stoppage, did not possess any
obvious authority when Obergefell was decided to
unilaterally alter the Kentucky marriage license
form to achieve the accommodation she ultimately
received from Governor Bevin’s Executive
Order, and then the General Assembly.11

Davis ultimately altered the Kentucky marriage
license forms being issued by her office only after she had
returned to work following her incarceration, and after her
deputy clerk had issued altered license forms while she was in
jail. (App. I, 168a–170a.) Governor Beshear approved the
altered license forms after-the-fact, which was a change from
his mandate first sent to Davis and other Kentucky clerks.
(App. I, 168a–170a.)
11

25
Issuing no licenses at all in one out of 120 counties
was a reasonable policy because it was the only
policy Davis could effect at the time that could (i)
treat all couples the same, and (ii) rightfully
accommodate religious conscience under the
Kentucky RFRA and the United States and
Kentucky Constitutions, while (iii) leaving marriage
licenses readily available to every couple throughout
every region of the state and not preventing
Respondents from marrying whom they wanted to
marry. The resulting burden on the Respondents
was minimal, and non-oppressive as a matter of
constitutional law.
Indeed, protecting natural and inalienable
religious liberties is not merely a legitimate
government interest, it is a compelling interest of
the highest degree and foundational to the very
establishment of the Commonwealth of Kentucky.
See, e.g., Ky. Const., Preamble (referring to
Kentuckians’ “religious liberties”); Ky. Const. § 5
(“No human authority shall, in any case whatever,
control or interfere with the rights of conscience.”)
And given that Davis’s policy was not only
reasonable, but also the only policy she could enact
to respect all rights involved, the policy was closely
tailored to effectuate Kentucky’s compelling
religious liberty interests. Thus, the policy satisfies
strict scrutiny as well, and Respondents’ right to
marry was not violated. See Montgomery, 101 F.3d
at 1124.
Contrary to the majority’s conclusion (App. B,
19a–20a), religious accommodations are not
incompatible with constitutional rights, and do not

26
“flout the Constitution.” Indeed, the Constitution
often requires accommodation to balance competing
rights. See, e.g., Hobbie v. Unemployment Appeals
Comm’n of Fla., 480 U.S. 136, 144–45 (1987)
(“[G]overnment may (and sometimes must)
accommodate religious practices and . . . it may do
so without violating the [Constitution].”); see also
Corp. of Presiding Bishop of Church of Jesus Christ
of Latter-Day Saints v. Amos, 483 U.S. 327, 338
(1987) (there is “ample room for accommodation of
religion under the [Constitution]”). And, contrary to
the concurrence below (App. 1), neither Romer v.
Evans, 517 U.S. 620 (1996), nor Lawrence v. Texas,
539 U.S. 558 (2003), required the court to attribute
“anti-homosexual animus” to Davis’s seeking an
accommodation for her sincerely held beliefs.
Neither Romer nor Lawrence involved state laws
approving of religious accommodation, based on a
balancing test, like Kentucky RFRA provides. To be
sure, Kentucky RFRA neither approves nor
disapproves of same-sex marriage or any moral
aspect of marriage. Instead, Kentucky RFRA reflects
a state policy to provide an accommodation of
sincerely held religious beliefs, to any person,
including public officials, subject to appropriate
balancing of competing rights. Kentucky’s leaving
room for the accommodation of Davis’s religious
beliefs through Kentucky RFRA is not the same as
Kentucky’s endorsing her religious beliefs. Thus,
Davis’ invocation of Kentucky RFRA as grounds for
her not issuing marriage licenses while licenses
were still available from other Kentucky officials
was reasonable, and Davis’ policy does not fail

27
rational basis review automatically as supposed by
the majority and concurrence.
Finally, contrary to the suggestions of both
the majority (App. B, 19a–20a) and the concurrence
(App. B, 22a), Kentucky RFRA did not require Davis
to first secure an accommodation judicially before
invoking the protections of the statute. By its plain
language, Kentucky RFRA confers “the right to . . .
refuse to act” unless the government meets its
burden under the statute. Davis’s availing herself of
that right, under the plain language of the statute,
does not require a judicial determination first. In
any event, as recognized by the circuit court below,
Davis sued then-Governor Beshear and sought a
preliminary injunction to invoke Kentucky RFRA
protections in the related Miller v. Caudill case, and
Davis invoked Kentucky RFRA in her motions to
dismiss Respondents’ claims in this case. Thus,
Davis could not have reasonably invoked Kentucky
RFRA any sooner or more directly than she did.
THE
SIXTH
CIRCUIT’S
OPINION
CONFLICTS WITH THIS COURT’S
al-KIDD
DECISION
AND
OTHER
SUPREME
COURT
AND
SIXTH
CIRCUIT
PRECEDENTS
THAT
PROHIBIT
DEFINING
CLEARLY
ESTABLISHED RIGHTS AT A HIGH
LEVEL
OF
GENERALITY
FOR
QUALIFIED IMMUNITY PURPOSES.
In addition to the panel majority Opinion’s
conflict with the this Court’s tiered analysis
precedents in right-to-marry cases, even as

28
interpreted by the Sixth Circuit (see supra pt. I.A),
the Opinion also conflicts with this Court’s
precedents, as also recognized by the Sixth Circuit,
requiring specificity in formulating the “clearly
established right” analysis in qualified immunity
cases. Even if a violation of Respondents’ respective
constitutional rights to marry occurred at some level
(Davis maintains no such violation occurred), the
majority began its “clearly established” analysis at
too high a level of generality, in conflict with
Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011) (“We
have repeatedly told courts . . . not to define clearly
established law at a high level of generality.”). See
also Occupy Nashville v. Haslam, 769 F.3d 434, 443
(6th Cir. 2014) (“The Supreme Court has ‘repeatedly
told courts . . . not to define clearly established law
at a high level of generality, since doing so avoids the
crucial question whether the official acted
reasonably in the particular circumstances that he
or she faced.’” (alteration in original) (quoting
Plumhoff v. Rickard, 134 S. Ct. 2012, 2023 (2014))).
Under this Court’s and the Sixth Circuit’s
binding precedents, to thwart qualified immunity
such a “right ‘must have been clearly established in
a . . . particularized . . . sense: The contours of the
right must be sufficiently clear that a reasonable
official would understand that what he is doing
violates that right.’” Kennedy v. Cty. of Villa Hills,
635 F.3d 210, 214 (6th Cir. 2011) (emphasis added)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)) (internal quotations omitted). “The level of
generality at which the constitutional right in
question is defined is of great importance.” Occupy
Nashville v. Haslam, 769 F.3d 434, 443 (6th Cir.

29
2014); id. at 444 (“There must be specificity in the
definition of the right at stake.”). “In some
circumstances, as when an earlier case leaves open
whether a general rule applies to the particular type
of conduct at issue, a very high degree a prior
factual particularity may be necessary.” United
States v. Lanier, 520 U.S. 259, 271 (1997) (emphasis
added).
A Government official's conduct
violates clearly established law when,
at the time of the challenged conduct,
[t]he contours of [a] right [are]
sufficiently clear that every reasonable
official would [have understood] that
what he is doing violates that right. We
do not require a case directly on point,
but existing precedent must have
placed the statutory or constitutional
question beyond debate.
al-Kidd, 563 U.S. at 741 (alterations in original)
(citation and internal quotation marks omitted).
The majority below disregarded this Court’s
and the Sixth Circuit’s binding precedents and
defined the right Respondents sought to enforce—at
the highest possible level of generality—as the “right
to marry.” (App. B, 15a–16a.) But this generalized
right was no more specific than, for example, the
“right to air grievances” that the Sixth Circuit
rejected in Occupy Nashville as too generalized to
begin the “clearly established” inquiry for qualified
immunity purposes. See 769 F.3d at 443. There, the
court focused instead on the particularized right

30
claimed by the plaintiffs: the right to a “24-hour
occupation” of a public plaza to engage in the general
right to air grievances. See id. Likewise, the majority
below should have focused on Respondents’ claimed
right to marry on a marriage license issued in Rowan
County, by Davis, “in the particular circumstances
[Davis] faced,” Id. at 443 (emphasis added), meaning
forcing her to lend her name and authority against
her conscience, without any accommodation.
Instead, in formulating the “clearly
established” right for its analysis, the majority
truncated Obergefell’s holding, focusing only on the
passage, “‘The Court now holds same-sex couples
may exercise the fundamental right to marry. No
longer may this liberty be denied to them.’” (App. B,
16a (quoting Obergefell, 135 S. Ct. at 2604–05).) As
shown supra, however, Obergefell’s holding was
more limited, and the majority disregarded the
critical part: “the State laws challenged . . . are
now held invalid to the extent they exclude
same-sex couples from civil marriage on the
same terms and conditions as opposite-sex
couples.” Obergefell, 135 S. Ct. at 2605 (emphasis
added); see also id. at 2607 (“The Constitution . . .
does not permit the State to bar same-sex couples
from marriage on the same terms as accorded to
couples of the opposite sex.”). Davis’s obligations
thus, with respect to determining Respondents’
“clearly established” rights following Obergefell,
must be considered in light of the obligations
imposed on Davis by Kentucky marriage law
following Obergefell.
As the majority below correctly explained:

31
Only Kentucky can discipline county
clerks. And Kentucky has “absolute
jurisdiction over the regulation of the
institution of marriage.” Indeed,
Kentucky law governs everything
about marriage. It defines marriage
and sets eligibility requirements. It
vests courts with the authority to
declare certain marriages void. It
describes who may solemnize a
marriage and requires a couple to
obtain a marriage license prior to
marrying. It sets out the process for
licensing and recording a marriage.
And specific to Davis, Kentucky law
vests county clerks with the duty of
issuing marriage licenses, recording
marriage certificates, and reporting
marriages. So Kentucky controls every
aspect of how county clerks issue
marriage licenses . . . .
(App. B, 11a–12a (citations omitted).) Thus, the
majority Opinion contains an irresolvable conflict:
on the one hand, the majority holds Kentucky state
law absolutely governs all aspects of marriage
license eligibility and issuance; but on the other
hand, the majority entirely disregards the
interaction of Kentucky marriage-licensing law with
Obergefell’s holding that impliedly, if not expressly,
leaves to the states the details of implementing this
Court’s extension of marriage to include same-sex
couples.

32
As shown above, both in issuing marriage
licenses and in not issuing licenses pursuant to
Kentucky RFRA, Davis was complying with state
law, and acting reasonably. In deciding, then,
whether Davis violated a clearly established right of
Respondents, the majority below asked the wrong
question. Having concluded unequivocally that
Davis acted for Kentucky both in issuing marriage
licenses, and in not issuing marriage licenses to
Respondents, the majority should have asked
whether Kentucky (acting through Davis) directly
and substantially burdened Respondents’ ability to
marry whom they wanted, which is necessary to
establishing the appropriate level of review. (See
supra pt. I.A.) Instead, the majority imposed a novel,
strict liability on Davis because she did not license
Respondents to marry, regardless of the extent to
which Respondents were burdened by Davis herself.
(App. B, 14a–20a; cf. App. B, 24a (Bush, J.,
concurring in part and in the judgment) (“They
suffered a hardship . . . . What they did not suffer
was a prohibition on getting married.).)
Furthermore, in deciding whether Respondents’
claimed right was clearly established, the majority
considered the right at too high a level of
generality—the ultimate “right to marry”—instead
of asking whether Respondents had a right to marry
on a marriage license issued in Rowan County, by
Davis, with her name on it, and then asking whether
Davis acted (on Kentucky’s behalf) reasonably in
removing but one of the many Kentucky marriage
licensing options available to Respondents under
Kentucky law, in order to balance Davis’s conscience

33
rights and Respondents’ right to marry under
Kentucky law.
Obergefell did not answer clearly, if at all,
every question concerning the States’ regulation of
same-sex marriage in relation to religious liberty
and the historical view of marriage as between one
man and one woman. See Pidgeon v. Turner, 538
S.W.3d 73, 89 n.22 (Tex. 2017) (“The [Supreme]
Court’s decision to hear and consider Masterpiece
Cakeshop illustrates that neither Obergefell nor
Pavan provides the final word on the tangential
questions Obergefell’s holdings raise but Obergefell
itself did not address.” (citing Pavan v. Smith, 137 S.
Ct. 2075 (2017), and Craig v. Masterpiece Cakeshop,
Inc., 370 P.3d 272 (Colo. App. 2015), cert. granted
sub nom., Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 137 S. Ct. 2290 (2017))). Rather, as
shown above, Obergefell states an answer to a
narrow constitutional question: “The Constitution . .
. does not permit the State to bar same-sex couples
from marriage on the same terms as accorded to
couples of the opposite sex.” Obergefell,135 S. Ct. at
2607. Kentucky immediately changed the Kentucky
marriage license form to comply, treating all couples
the same. (See supra, Statement of the Case.) Six
months later, Kentucky changed the marriage
license form again, to comply with Kentucky RFRA,
still treating all couples the same. (See supra,
Statement of the Case.) In between, Davis treated
all couples the same while she sought the
accommodation that Kentucky would soon agree she
was entitled to. (See supra, Statement of the Case.)
It is clear that Kentucky, through Governor
Beshear, could have complied with both Obergefell

34
and Kentucky RFRA at the same time, and thereby
avoided altogether the conflict between Respondents
and Davis. It was not clearly established,
however, in the mere days following Obergefell, that
Davis must abandon any claim to the
accommodation she would soon thereafter
receive.
Furthermore, state marriage laws differ
across the country, and Kentucky marriage law is
far less restrictive than the laws of some other
states, even if Kentucky exempted Davis from
administering it on the basis of her sincerely held
religious beliefs. For instance, some states require
prospective couples to obtain a license in the county
where the ceremony will occur, see, e.g., Md. Code
Ann., Fam. Law § 2-401(a), whereas others, like
Kentucky, permit residents to obtain their license in
one county and hold their ceremony in another
county, see, e.g., Ky. Rev. Stat. §§ 402.080, 402.100;
Minn. Stat. § 517.07. Some states require a
prospective couple to obtain their license in their
home county, see, e.g., Mich. Comp. Laws § 551.101;
Ohio Rev. Code Ann. § 3101.05(a), whereas others,
like Kentucky, allow residents to obtain a license in
any county, see Ky. Rev. Stat. § 402.080; Tenn. Code
Ann. § 36-3-103. Some states require a prospective
couple to wait to receive their license upon
application, see, e.g., Mich. Comp. Laws § 551.103a
(3 days); Minn. Stat. § 517.08(a) (5 days), whereas
others, like Kentucky, Ohio, and Tennessee, have no
waiting period. These various state regulations on
the process and personnel for issuing marriage
licenses differ widely in location and timing of access
to licenses, and Obergefell has nothing to say about

35
the disparity from state to state, provided the
regulations treat same-sex couples and different-sex
couples on the same terms. To be sure, there is no
plausible argument that Obergefell requires every
state to issue licenses in the home county of every
applicant, regardless of the availability of licenses
elsewhere.
The circuit court below erred in its takeaway
from Obergefell, which it relied on to deny qualified
immunity to Davis: “Obergefell both recognized the
right to same-sex marriage and defined its
contours.” (App. 1-8.) Contrary to the court’s
simplistic analysis, Obergefell did not clearly
establish Respondents’ right to receive a marriage
license from Davis, when marriage licenses were
readily available elsewhere. The court’s implicit
holding—that individuals have an “on demand”
right to a marriage license in a particular county and
authorized by a particular person, is not supported
by Obergefell at all, let alone clearly established. For
example, under the circuit court’s faulty logic,
Maryland, Michigan, and Ohio marriage laws are
unconstitutional, because, as discussed above, they
restrict marriage applicants from obtaining
marriage licenses in the county of their own
choosing, requiring instead that licenses be obtained
only in counties specified by the state (e.g., county of
residence or county of solemnification). Such cannot
be the case, and such cannot be the law, even after
Obergefell.

36
CONCLUSION
Constitutional right-to-marry cases and cases
involving other fundamental rights present
substantial questions of federal law. See, e.g.,
Obergefell, 135 S. Ct. at 2601 (noting the “Court’s
cases and Nation’s traditions make clear that
marriage is a keystone of our social order”). This
Court’s Rule 10 expressly identifies, as one of the
“compelling reasons” for it to consider review, a case
where “a United States court of appeals . . . has
decided an important federal question in a way that
conflicts with relevant decisions of this Court.” Sup.
Ct. R. 10(c). Both the importance of the questions
and the fullness of the conflicts explained above
solicit this Court’s review. For all of the foregoing
reasons, this Court should grant Davis’s petition
and, ultimately, reverse the Sixth Circuit’s decision.

Dated this January 22, 2020.
Mathew D. Staver
(Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Kristina J. Wenberg
LIBERTY COUNSEL
P.O. Box 540774
Orlando, Florida 32854
(407) 875-1776
court@LC.org
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT DENYING DAVIS’S
PETITION FOR REHEARING EN BANC,
FILED OCTOBER 24, 2019
Nos. 17-6119/6120/6226/6233
United States Court of Appeals, Sixth Circuit.
David ERMOLD; David Moore,
Plaintiffs-Appellees (17-6119),
Plaintiffs-Appellees/Cross-Appellants (17-6119 &
17-6233),
v.
Kim DAVIS, Individually, Defendant-Appellant
(17-6119),
Elwood Caudill, Jr., Clerk of Rowan County,
Kentucky, Defendant-Appellant/Cross Appellee
(17-6119 & 17-6233).
Will Smith; James Yates, Plaintiffs-Appellees
(17-6120), Plaintiffs-Appellees/Cross-Appellants
(17-6120 & 17-6226),
v.
Kim Davis, Individually, Defendant-Appellant
(17-6120),
Elwood Caudill, Jr., Clerk of Rowan County,
Kentucky, Defendant-Appellant/Cross-Appellee
(17-6120 & 17-6226).
Filed: October 24, 2019
Before: GRIFFIN, WHITE, and BUSH, Circuit
Judges.

2a
Appendix A
ORDER
The court received two petitions for rehearing en
banc. The original panel has reviewed the petitions
for rehearing and concludes that the issues raised
in the petitions were fully considered upon the
original submission and decision of the cases. The
petitions then were circulated to the full court.* No
judge has requested a vote on the suggestion for
rehearing en banc.
Therefore, the petitions are denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk
*

Judge Thapar recused himself from
participation in this ruling.

3a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT AFFIRMING DENIAL OF
DAVIS’S MOTIONS TO DISMISS ON
QUALIFIED IMMUNITY GROUNDS, FILED
AUGUST 23, 2019
936 F.3d 429
United States Court of Appeals, Sixth Circuit.
David ERMOLD; David Moore,
Plaintiffs-Appellees (17-6119),
Plaintiffs-Appellees/Cross-Appellants (17-6119 &
17-6233),
v.
Kim DAVIS, Individually, Defendant-Appellant
(17-6119),
Elwood Caudill, Jr., Clerk of Rowan County,
Kentucky, Defendant-Appellant/Cross Appellee
(17-6119 & 17-6233).
Will Smith; James Yates, Plaintiffs-Appellees
(17-6120), Plaintiffs-Appellees/Cross-Appellants
(17-6120 & 17-6226),
v.
Kim Davis, Individually, Defendant-Appellant
(17-6120),
Elwood Caudill, Jr., Clerk of Rowan County,
Kentucky, Defendant-Appellant/Cross-Appellee
(17-6120 & 17-6226),
Rowan County, Kentucky, Defendant-Appellee
(17-6226).
Nos. 17-6119/6120/6226/6233
|
Argued: January 31, 2019
|

4a
Appendix B
Decided and Filed: August 23, 2019
|
Rehearing En Banc Denied October 24, 2019*
*

Judge
Thapar
recused
participation in this ruling.

himself

from

*431 Appeal from the United States District Court
for the Eastern District of Kentucky at Ashland.
No. 0:15-cv-00046—David L. Bunning, District
Judge.
Attorneys and Law Firms
ARGUED:
Roger
K.
Gannam,
LIBERTY
COUNSEL, Orlando, Florida, for Kim Davis and
Elwood Caudill, Jr. Michael J. Gartland,
DELCOTTO LAW GROUP PLLC, Lexington,
Kentucky, for David Ermold and David Moore. W.
Kash Stilz, Jr., ROUSH & STILZ, P.S.C.,
Covington, Kentucky, for James Yates and Will
Smith. Mary Ann Stewart, ADAMS, STEPNER,
WOLTERMANN & DUSING, PLLC, Covington,
Kentucky, for Rowan County.
ON BRIEF: Roger K. Gannam, Mathew D. Staver,
Horatio G. Mihet, Kristina J. Wenberg, LIBERTY
COUNSEL, Orlando, Florida, for Kim Davis and
Elwood Caudill, Jr. Michael J. Gartland,
DELCOTTO LAW GROUP PLLC, Lexington,
Kentucky, for David Ermold and David Moore. W.

5a
Appendix B
Kash Stilz, Jr., ROUSH & STILZ, P.S.C.,
Covington, Kentucky, for James Yates and Will
Smith. Jeffrey C. Mando, ADAMS, STEPNER,
WOLTERMANN & DUSING, PLLC, Covington,
Kentucky, for Rowan County.
Before: GRIFFIN, WHITE, and BUSH, Circuit
Judges.

GRIFFIN, J., delivered the opinion of the court in
which WHITE, J., joined. BUSH, J. (pp. 438–42),
delivered a separate opinion concurring in part and
in the judgment.
OPINION
GRIFFIN, Circuit Judge.
*432 At first glance, this case appears simple.
When Kim Davis was County Clerk for Rowan
County, Kentucky, the Supreme Court recognized a
constitutional right to same-sex marriage. One of
Davis’s duties as County Clerk was to issue
marriage licenses. But she believed same-sex
marriage was immoral, so she stopped issuing
them. Plaintiffs, two couples who sought licenses
and were rebuffed, sued her for depriving them of
their right to marry.
But Davis claims she is immune from suit, which

6a
Appendix B
complicates matters. That’s because the law treats
Davis not as one person, but as two: an official and
an individual. The doctrine of sovereign immunity
shields Davis as an official if, when refusing to
issue marriage licenses, she acted on Kentucky’s
behalf—but not if she acted on Rowan County’s
behalf. And the doctrine of qualified immunity
shields Davis as an individual if she didn’t violate
plaintiffs’ right to marry or, if she did, if the right
wasn’t clearly established when she acted.
And this case comes to us at a relatively early
stage. The district court hasn’t issued a final
ruling, a trial hasn’t occurred, and the parties
haven’t completed discovery. That means we don’t
look at evidence; we look at allegations. So we ask
not whether Davis definitively violated plaintiffs’
rights but whether they adequately allege that she
did.
The district court ruled that Davis, as an official,
acted on Kentucky’s behalf, meaning sovereign
immunity protected her. Plaintiffs dispute that
ruling. The court also ruled that plaintiffs pleaded
a plausible case that Davis, as an individual,
violated their right to marry and that the right was
clearly established, meaning qualified immunity
didn’t protect her. Davis disputes that ruling. We
agree with the district court on both issues and
therefore affirm.

I.

7a
Appendix B
In the summer of 2015, Kim Davis was the County
Clerk for Rowan County, Kentucky. One of her
responsibilities was to issue marriage licenses. But
same-sex marriage offended her religious beliefs, so
when
the
Supreme
Court
recognized
a
constitutional right to same-sex marriage in
Obergefell v. Hodges, ––– U.S. ––––, 135 S. Ct.
2584, 192 L.Ed.2d 609 (2015), Davis took matters
into her own hands.
One day after the Supreme Court released
Obergefell, Davis stopped issuing marriage licenses.
She didn’t discriminate against same-sex couples,
though; she stopped issuing licenses altogether.
That meant that when plaintiffs—two same-sex
couples who lived in Rowan County—sought
marriage licenses from the Clerk’s Office, they
couldn’t get them.
With a constitutional right to marry yet no ability
to obtain marriage licenses within Rowan County,
plaintiffs sued Davis in her individual capacity and
in her official capacity as County Clerk. One of the
couples also sued the County. Plaintiffs sought
damages for Davis’s violation of their right to
marry.
In a different lawsuit over Davis’s conduct (which is
before us on a challenge to an attorney’s-fees
award), the district court enjoined Davis from
refusing to issue marriage licenses. With the
injunction in place, plaintiffs obtained marriage
licenses.

8a
Appendix B
A challenge to that injunction came to our court.
Before we could rule on the dispute, however,
Kentucky legislators changed the law in a way that
convinced Davis to issue licenses without objection.
See 2016 Kentucky Laws Ch. 132 (SB 216). So
Davis asked us to dismiss her appeal, *433 which
we did. Miller v. Davis, 667 F. App’x 537, 538 (6th
Cir. 2016).
The district court read our opinion so broadly that
it dismissed plaintiffs’ cases as well, ruling that
there was no longer a legal dispute because Davis
had agreed to issue marriage licenses. Two
plaintiffs appealed the dismissal, and we reversed
because they sought damages for the past
deprivation of their right to marry, which meant
there was still a dispute to resolve. Ermold v.
Davis, 855 F.3d 715, 720 (6th Cir. 2017).
On remand, the district court also re-opened the
other two plaintiffs’ case. Davis then moved to
dismiss the complaints, arguing that sovereign
immunity shielded her from suit in her official
capacity and that qualified immunity shielded her
from suit in her individual capacity. The district
court
sided
with
plaintiffs
on
the
qualified-immunity issue (ruling that the doctrine
didn’t shield her) and with Davis on the
sovereign-immunity issue (ruling that the doctrine
did).
Davis appealed the denial of qualified immunity,
and plaintiffs appealed the grant of sovereign
immunity. After the parties submitted their briefs,

9a
Appendix B
Elwood Caudill, Jr. replaced Davis as Rowan
County Clerk and thus became a defendant and
cross-appellee in his official capacity.

II.
We begin with sovereign immunity. Unless a State
consents to be sued, it enjoys immunity from
private lawsuits seeking damages. U.S. Const.
amend. XI; Crabbs v. Scott, 786 F.3d 426, 428 (6th
Cir. 2015). And because lawsuits against state
officials in their official capacities equate to
lawsuits against the State itself, see Kentucky v.
Graham, 473 U.S. 159, 165–66, 105 S.Ct. 3099, 87
L.Ed.2d 114 (1985), sovereign immunity shields
state officials as well. But the doctrine doesn’t
extend to counties and county officials. See Mt.
Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 280, 97 S.Ct. 568, 50 L.Ed.2d 471 (1977).
Whether sovereign immunity protects an official
from being sued in her official capacity, then,
depends on her role in government. Sometimes the
inquiry is easy. A governor obviously is a state
official; a mayor obviously is not. But not all
officials operate within jurisdictional silos—some
have hybrid duties in which they serve both state
and local government. In such scenarios, immunity
depends on which entity the official serves when
engaging in the challenged conduct. McMillian v.
Monroe Cty., 520 U.S. 781, 785 & n. 2, 117 S.Ct.
1734, 138 L.Ed.2d 1 (1997). And that inquiry turns
on how state and local law treat the official. Id. at

10a
Appendix B
786, 117 S.Ct. 1734.
Here, plaintiffs contend that when Davis stopped
issuing marriage licenses, she acted on the
County’s behalf. Caudill and the County, however,
claim Davis acted on Kentucky’s behalf. To resolve
this dispute, we must examine and balance six
factors:
1. The State’s potential liability for a judgment;
2. How state statutes and courts refer to the
official;
3. Who appointed the official;
4. Who pays the official;
5. The degree of state control over the official;
and
6. Whether the functions involved fell within
the traditional purview of state or local
government.
Crabbs, 786 F.3d at 429.
The first and fourth factors are neutral. Kentucky
law appears silent on which level of government
must pay for a judgment against a county clerk or
clerk’s *434 office, and the parties have provided us
nothing but tangentially related hypotheticals
about who might pay. Clerk’s offices in Kentucky
are self-funded. They operate using money from the
fees they collect—fees that come from both state
and county sources. So both state and county

11a
Appendix B
money paid Davis’s salary. And if plaintiffs secured
a judgment against Davis in her official capacity
(now Caudill in his official capacity) and the Clerk’s
Office paid the judgment with the money it
controls, that money would have both state and
local origins.
The second and third factors weigh in favor of
Davis having acted on the County’s behalf. The
Kentucky Constitution refers to clerks as county
officials. Ky. Const. § 99. Kentucky courts have also
generally characterized county clerks as county
officials. See, e.g., Carroll v. Reed, 425 S.W.3d 921,
924 (Ky. Ct. App. 2014); St. Matthews Fire Prot.
Dist. v. Aubrey, 304 S.W.3d 56, 60 (Ky. Ct. App.
2009). County residents elect county clerks. Ky.
Const. § 99. And if there is a vacancy, a county
judge or executive appoints a new clerk. Ky. Rev.
Stat. § 63.220. But these factors offer little help
because they pertain to county clerks generally,
and no party contests that county clerks mostly
work on the behalf of counties—hence the title
county clerk. What we need is legal authority
specific to marriage licensing.
The fifth and sixth factors give us that authority,
and they show that Davis acted on the State’s
behalf. Only Kentucky can discipline county clerks.
See Ky. Const. § 68; Ky. Rev. Stat. §§ 402.990(6),
522.020–030; Lowe v. Commonwealth, 60 Ky. 237
(Ky. 1860). And Kentucky has “absolute jurisdiction
over the regulation of the institution of marriage.”
Pinkhasov v. Petocz, 331 S.W.3d 285, 291 (Ky. Ct.
App. 2011) (citations omitted). Indeed, Kentucky

12a
Appendix B
law governs everything about marriage. It defines
marriage and sets eligibility requirements. Ky.
Rev. Stat. §§ 402.005, 402.010, 402.020. It vests
courts with the authority to declare certain
marriages void. Id. at § 402.030. It describes who
may solemnize a marriage and requires a couple to
obtain a marriage license prior to marrying. Id. at
§§ 402.050, 402.080. It sets out the process for
licensing and recording a marriage. Id. at §§
402.100–402.240. And specific to Davis, Kentucky
law vests county clerks with the duty of issuing
marriage licenses, recording marriage certificates,
and reporting marriages. Id. at §§ 402.080,
402.220, 402.230. So Kentucky controls every
aspect of how county clerks issue marriage licenses;
Rowan County has no say whatsoever.
Plaintiffs acknowledge Kentucky’s general control
over marriage, but they contend that when Davis
refused to issue licenses, she made a discretionary
policy on Rowan County’s behalf. If true, sovereign
immunity wouldn’t shield Davis because when an
official applies state law that leaves the method of
application to her discretion, she acts on behalf of
local government.
Perhaps the best example of this principle is
Brotherton v. Cleveland, 173 F.3d 552 (6th Cir.
1999). There, Ohio law allowed county coroners to
remove corneas for medical use. Id. at 555. The law
didn’t specify the process for doing so, but it
permitted removal only when the coroner had no
knowledge of an objection by the decedent or
certain others. Id. at 556. One coroner established a

13a
Appendix B
policy of intentional ignorance to potential
objections, which meant his subordinates didn’t
review medical records or paperwork pertaining to
a corpse before removing its corneas. Id. When sued
in his official capacity for making that policy, the
coroner claimed that sovereign immunity protected
him from suit. Id. at 562. We rejected his
argument, *435 holding that he had acted without
state compulsion, had selected a policy for his
county, and had thus acted on the county’s behalf,
not the State’s. Id. at 567.
In comparing Davis’s actions to those of the coroner
in Brotherton (and to other, similar cases),
plaintiffs conflate discretion with insubordination.
Whereas Ohio’s cornea-harvesting law left to
officials the method of application, Kentucky’s
marriage-licensing laws gave county clerks no
wiggle room. Kentucky required Davis to issue
marriage licenses to eligible couples. See, e.g., Ky.
Rev. Stat. § 402.100 (“Each county clerk shall make
available to the public the form prescribed by the
Department for Libraries and Archives for the
issuance of a marriage license.”) (emphasis added);
id. at § 402.110 (“In issuing the license the clerk
shall deliver it in its entirety to the licensee.”
(emphasis added)); id. at § 402.080 (2017) (“The
license shall be issued by the clerk of the county in
which the female resides at the time, unless the
female is eighteen (18) years of age or over or a
widow, and the license is issued on her application
in person or by writing signed by her, in which case
it may be issued by any county clerk.”) (emphasis
added). Plaintiffs have cited no authority

14a
Appendix B
suggesting that if a county official acting on the
State’s behalf fails to do her job, that failure
transforms the source of her power from the State
to the county. Indeed, such a proposition would
make little sense; for whom an official acts has
nothing to do with how well she acts. Davis’s
refusal to issue licenses, then, did nothing to
change the government she acted for.
Because Davis acted on Kentucky’s behalf when
issuing (and refusing to issue) marriage licenses,
sovereign immunity protects her (and now Caudill,
as the current
county
clerk) from
an
official-capacity suit.

III.
Next, we turn to qualified immunity, which shields
a government official from a lawsuit against her in
her individual capacity if (1) she didn’t violate any
of the plaintiff’s constitutional rights or (2) the
rights, if violated, weren’t “clearly established” at
the time of the alleged misconduct. Pearson v.
Callahan, 555 U.S. 223, 232, 129 S.Ct. 808, 172
L.Ed.2d 565 (2009). Put differently, the doctrine
protects “all but the plainly incompetent or those
who knowingly violate the law.” White v. Pauly, –––
U.S. ––––, 137 S. Ct. 548, 551, 196 L.Ed.2d 463
(2017). Davis challenges the district court’s denial
of her motion to dismiss, which places our focus on
plaintiffs’ allegations. If they adequately allege the
violation of a clearly established right, we must
affirm. See Cahoo v. SAS Analytics Inc., 912 F.3d

15a
Appendix B
887, 898–99 (6th Cir. 2019) (discussing the
interplay between qualified immunity and the
motion-to-dismiss standard).
That they do. Plaintiffs allege that: (1) the
Fourteenth Amendment guarantees them the right,
as same-sex couples, to marry; (2) they sought
marriage licenses from Davis, whom Kentucky
tasked with issuing those licenses; (3) under
Kentucky law, they qualified for licenses; and (4)
Davis refused to license them. Put differently, they
identify the specific right they sought to exercise,
what they did to exercise it, who thwarted their
efforts, and how she did so. Plaintiffs therefore
adequately alleged the violation of a constitution
right.
And that right was clearly established when Davis
acted. To be clearly established, the right’s contours
must have been so obvious that a reasonable
official would have known that her conduct was out
of bounds. Anderson v. Creighton, 483 U.S. 635,
640, 107 S.Ct. 3034, 97 L.Ed.2d 523 (1987). This
need for clarity means the Constitution’s text,
alone, is often insufficient *436 to establish a
right’s edges; terms such as “liberty” and phrases
such as “equal protection” are too general—too
nebulous—to give an official the notice she needs.
Constitutional law, then, regularly fills the void
constitutional text creates. In other words, legal
opinions that forge constitutional rights frequently
set their limits as well.
Here, Obergefell both recognized the right to

16a
Appendix B
same-sex marriage and defined its contours. The
Court’s decree was as sweeping as it was
unequivocal:

[T]he right to marry is a
fundamental right inherent in the
liberty of the person, and under the
Due Process and Equal Protection
Clauses
of
the
Fourteenth
Amendment
couples
of
the
same-sex may not be deprived of
that right and that liberty. The
Court now holds that same-sex
couples
may
exercise
the
fundamental right to marry. No
longer may this liberty be denied to
them.

Obergefell, 135 S. Ct. at 2604–05. The Court made
no mention of a limit on that right, of an exception
to it, or of a multi-factor test for determining when
an official violates it. For a reasonable official,
Obergefell left no uncertainty. For Davis, however,
the message apparently didn’t get through.
And it still doesn’t appear to have gotten through:
She now argues that Obergefell doesn’t even apply
to her conduct. Because she stopped issuing
licenses to all couples regardless of their sexual
orientation, she claims, she “obviate[ed] any equal
protection issue.” That might be so, but the right to
marry
also
arises
from
the
Fourteenth

17a
Appendix B
Amendment’s Due Process Clause. Obergefell, 135
S. Ct. at 2604 (“[T]he Equal Protection Clause, like
the Due Process Clause, prohibits this unjustified
infringement of the fundamental right to marry. ...
[U]nder the Due Process and Equal Protection
Clauses of the Fourteenth Amendment couples of
the same-sex may not be deprived of that right and
that liberty.”) (emphases added). So one could say
that Davis provided “equal protection of the laws,”
U.S. Const., amend. XIV, § 1, but in reality, her
alleged conduct amounted to equal deprivation of
the due-process right to marry. Because Obergefell
speaks to such deprivations, it applies with force
here.
Davis further contends that Obergefell doesn’t
apply for another reason: Obergefell involved a total
ban on same-sex marriage, but here plaintiffs
could’ve obtained marriage licenses elsewhere in
Kentucky. She also presents two other arguments
with similar thrusts: (1) The relevant inquiry is
whether Kentucky violated plaintiffs’ right to
marry, not whether she violated it, and (2)
Obergefell didn’t clearly establish a right to demand
marriage licenses from particular state officials.
The common denominator is a claim that we should
focus broadly on Kentucky instead of narrowly on
Davis. Yet Davis provides no legal authority for
that proposition. We can find none. And we know
why: that’s not how qualified immunity works, and
that’s not how constitutional rights work.
Qualified immunity protects government officials
from lawsuits against them in their individual

18a
Appendix B
capacities. McCloud v. Testa, 97 F.3d 1536, 1539
n.1 (6th Cir. 1996). The focus of the analysis, then,
is on what the law requires of them individually.
And nowhere in the Constitution—or in
constitutional law, for that matter—does it say that
a government official may infringe constitutional
rights so long as another official might not have.
All government officials must respect all
constitutional rights. And that means Obergefell’s
holding applies not just to monolithic governmental
entities like Kentucky but to the officials acting for
those entities as well.
*437 Davis also asks us to apply rational-basis
scrutiny to plaintiffs’ constitutional challenge. She
says her actions were objectively reasonable
because
Kentucky’s
Religious
Freedoms
Restoration Act, Ky. Rev. Stat. § 446.350, required
her to accommodate her personal religious
opposition to same-sex marriage. This argument
fails because, under Obergefell, the direct
prohibition of same-sex marriage didn’t trigger the
tiers-of-scrutiny analysis typical in many other
constitutional inquiries. “Rational basis” never
appears in the Obergefell majority’s opinion.
Neither does “intermediate scrutiny.” And “strict
scrutiny” appears only once: in a reference to a
Hawaii Supreme Court opinion during a discussion
of how “[t]he ancient origins of marriage confirm its
centrality” and how the concept “has not stood in
isolation from developments in law and society.”
Obergefell, 135 S. Ct. at 2597.
On

this

point,

the

concurrence

sees

things

19a
Appendix B
differently. Although Obergefell never invoked the
tiers of scrutiny, it reasons, the framework should
still apply because Davis merely burdened the right
to marry. Sometimes the government regulates
marriage without banning it, the concurrence
notes, and Obergefell didn’t overrule that swath of
caselaw. Thus, because plaintiffs could have
obtained a license in another county and used it to
wed within Rowan County, the argument goes,
Davis didn’t ban marriage. And because she didn’t
ban marriage, the argument continues, Obergefell’s
method of analysis doesn’t apply to her actions.
Yet Obergefell answered two questions, the first of
which was “whether the Fourteenth Amendment
requires a State to license a marriage between two
people of the same sex.” Id. at 2593. The Court said
“yes.” Id. at 2607. Obergefell therefore condemned
the very action Davis took—refusing to license
same-sex marriage—and did so without ever asking
what government interest that refusal served or
examining the relationship between the refusal and
any proffered interest(s). This move “b[roke]
sharply with decades of precedent.” Id. at 2618–19
(Roberts, C.J., dissenting). Obergefell, then, didn’t
abolish the tiers of scrutiny for all marriage
restrictions. But it did jettison them for actions
such as Davis’s.
Davis’s request that we apply rational-basis
scrutiny fails for a second reason as well. To be
sure, Obergefell might have created “serious
questions about religious liberty,” 135 S. Ct. at
2625, (Roberts, C.J., dissenting), but it said nothing

20a
Appendix B
to suggest that government officials may flout the
Constitution by enacting religious-based policies to
accommodate their own religious beliefs. Davis
provides no legal support for her contention that
Kentucky’s Religious Freedoms Restoration Act
required her to do what she did. Her reading of the
Act is a subjective one and, as far as we can tell,
one no court has endorsed. In the presence of
Obergefell’s clear mandate that “same-sex couples
may exercise the fundamental right to marry,” 135
S. Ct. at 2605, and in the absence of any legal
authority to support her novel interpretation of
Kentucky law, Davis should have known that
Obergefell required her to issue marriage licenses
to same-sex couples—even if she sought and
eventually received an accommodation, whether by
legislative
amendment
changing
the
marriage-license form or by judicial decree
adopting her view of the interplay between the
Constitution and Kentucky law.
In short, plaintiffs pleaded a violation of their right
to marry: a right the Supreme Court clearly
established in Obergefell. The district court
therefore correctly denied qualified immunity to
Davis.

*438 IV.
Finally, Davis argues that because plaintiffs
haven’t pleaded a violation of a constitutional right,
the district court lacked subject-matter jurisdiction.
As discussed above, plaintiffs have adequately

21a
Appendix B
pleaded a violation of their right to marry. More
importantly, Davis conflates the merits of a claim
with its source. Plaintiffs sued Davis under 42
U.S.C. § 1983. Section 1983 is a federal law. That
means plaintiffs asserted claims “arising under the
... laws ... of the United States.” 28 U.S.C. § 1331.
And district courts have original jurisdiction to
resolve such claims. Id. Put differently, if a claim is
ultimately unsuccessful, jurisdiction to resolve it
doesn’t vanish.

V.
For these reasons, we affirm the district court’s
grant of sovereign immunity and denial of qualified
immunity.

CONCURRING
JUDGMENT

IN

PART

AND

IN

THE

JOHN K. BUSH, Circuit Judge, concurring in part
and in the judgment.
I concur fully in the Majority’s treatment of the
sovereign immunity issue. I also concur in the
Majority’s disposition of qualified immunity,
though I follow a different route to that conclusion.
In the Majority’s view, Kim Davis banned same-sex

22a
Appendix B
marriage in Rowan County plain and simple, and
Obergefell v. Hodges, ––– U.S. ––––, 135 S. Ct.
2584, 192 L.Ed.2d 609 (2015) abolished tiers of
scrutiny in the analysis of bans on same-sex
marriage. Therefore, the Majority does not apply
tiers-of-scrutiny analysis to Davis’s actions, which
were per se unconstitutional under Obergefell.
Davis is not entitled to qualified immunity because
Obergefell clearly established that Davis’s conduct
was unconstitutional, and she may not rely on
Kentucky’s Religious Freedom Restoration Act
(“KRFRA”), Ky. Rev. Stat. § 446.350.
I agree that Davis violated Plaintiffs’ constitutional
rights and is not entitled to qualified immunity.
But, unlike the Majority, I don’t find that Davis’s
actions constituted an outright ban of same-sex
marriage, and I believe they should be reviewed
using tiers-of-scrutiny analysis. Her conduct,
however, does not survive even rational-basis
review because of her anti-homosexual animus,
which is not a legitimate basis for government
action under Romer v. Evans, 517 U.S. 620, 632,
116 S.Ct. 1620, 134 L.Ed.2d 855 (1996) and
Lawrence v. Texas, 539 U.S. 558, 123 S.Ct. 2472,
156 L.Ed.2d 508 (2003). Romer, Lawrence, and
Obergefell together clearly established that Davis
could not deny marriage licenses to Plaintiffs based
on their sexual orientation; therefore, Davis was
properly denied qualified immunity. I express no
opinion on whether Davis may have been entitled
to an exemption under KRFRA or what that
exemption may have looked like because she never
properly invoked the protections of the statute.

23a
Appendix B

I.
There is no dispute that Davis, confronted by a
conflict between her conscience and the dictates of
Obergefell, ceased issuing marriage licenses in
Rowan County. The Majority states that in doing
so, Davis “depriv[ed] [Plaintiffs] of their right to
marry.” Majority Op. at 432. According to the
Majority, we must apply Obergefell to Davis’s
actions with the understanding that she effected a
“total ban on same-sex marriage” within Rowan
County. Majority Op. at 436. The facts, however,
are more nuanced than that.
*439 The Commonwealth of Kentucky has two
requirements for a valid marriage—licensure and
solemnization:

[T]he General Assembly intended
two essential requisites of a legally
valid civil marriage which are
inviolable. First, the parties
intending to be married must
obtain a marriage license from a
county clerk. Second, having
obtained a marriage license, the
parties intending to be married
must solemnize their intent to be
married before a person or society
believed in good faith to possess

24a
Appendix B
authority
marriage.

to

solemnize

the

Pinkhasov v. Petocz, 331 S.W.3d 285, 294 (Ky. Ct.
App. 2011). It is true that Davis prevented
Plaintiffs from acquiring marriage licenses in
Rowan County. However, a marriage license issued
by any county clerk, in any county in Kentucky, is
valid throughout the entire Commonwealth. See
Ky. Rev. Stat. § 402.080. Thus, Davis did not (and
could not) bar Plaintiffs from getting married in
Rowan County. Nothing prevented each Plaintiff
couple from travelling outside Rowan County,
obtaining a marriage license from a different
county clerk, and returning to Rowan County to
solemnize their marriage.
Plaintiffs do not dispute this, but they hypothesize
that Davis’s actions might have worked a total
marriage ban upon a certain class of marriage
license seekers, namely those Rowan County
residents who could afford to travel to the Rowan
County Courthouse but not to the courthouse of an
adjacent county. However, these hypothetical
plaintiffs are not before us. In analyzing this issue,
I would take Plaintiffs at their word: they were
entitled to a marriage license but were prevented
from getting one in Rowan County. They suffered a
hardship, to be sure. What they did not suffer was
a prohibition on getting married.

25a
Appendix B
II.
Does this distinction make a difference? It may
with regard to whether tiers-of-scrutiny analysis
applies. The Majority is correct that the Obergefell
decision never uses the words “rational basis” or
“intermediate scrutiny,” and refers to “strict
scrutiny” only once, in a non-substantive manner.
See Majority Op. at 436–37. But the fact that the
Supreme Court held in Obergefell that a total ban
of same-sex marriage was per se unconstitutional,
does not necessarily mean that tiers-of-scrutiny
analysis is inapplicable for review of a marriage
regulation that is less than a total ban. I don’t
believe that the Supreme Court would abolish
tiers-of-scrutiny
analysis
for
all
marriage
regulations without explicitly telling us it was
doing so. In any event, as we have noted, “the
Supreme Court itself does not seem terribly bound
by the rigid rules of tiering. The lower courts are
bound, however, even though the Supreme Court
remains free to create new levels of scrutiny or
ignore old ones.” Montgomery v. Carr, 101 F.3d
1117, 1123 (6th Cir. 1996).
I therefore believe we should apply tiers-of-scrutiny
analysis to Davis’s conduct. This naturally raises
the question: what level of scrutiny should govern?
Even—especially—in the wake of Obergefell, there
is some debate over the nature of the right to
marriage under our Constitution. There are several
lines of cases recognizing this right on different
constitutional grounds. First, there is a substantive

26a
Appendix B
due process right to marriage. See, e.g., Loving v.
Virginia, 388 U.S. 1, 12, 87 S.Ct. 1817, 18 L.Ed.2d
1010 (1967) (“These statutes also deprive the
Lovings of liberty without due process of law in
violation of the Due Process Clause of the
Fourteenth Amendment. The freedom to marry has
long been recognized as one of the vital personal
rights essential to the *440 orderly pursuit of
happiness by free men.”). Second, there is an
associational right to marriage. See, e.g., Roberts v.
United States Jaycees, 468 U.S. 609, 619–20, 104
S.Ct. 3244, 82 L.Ed.2d 462 (1984) (“The personal
affiliations that exemplify these considerations,
and that therefore suggest some relevant
limitations on the relationships that might be
entitled to this sort of constitutional protection, are
those that attend the creation and sustenance of a
family[, such as] marriage .... [O]nly relationships
with these sorts of qualities ... have led to an
understanding of freedom of association as an
intrinsic element of personal liberty.”). And third,
as with any other state action, regulation of
marriage will fall under the purview of the Equal
Protection Clause of the Fourteenth Amendment to
the extent that the state regulates different groups
differently. See Reed v. Reed, 404 U.S. 71, 75–76, 92
S.Ct. 251, 30 L.Ed.2d 225 (1971) (“The Equal
Protection Clause ... den[ies] to States the power to
legislate that different treatment be accorded to
persons placed by a statute into different classes on
the basis of criteria wholly unrelated to the object
of the statute.”).
In the contexts of substantive due process and

27a
Appendix B
associational rights, we analyze a marriage
restriction through a two-step process: “first, a
court must ask whether the policy or action is a
direct or substantial interference with the right of
marriage; second, if the policy or action is a direct
and substantial interference with the right of
marriage, apply strict scrutiny, otherwise apply
rational basis scrutiny.” Montgomery, 101 F.3d at
1124 (citing Zablocki v. Redhail, 434 U.S. 374,
383–84, 98 S.Ct. 673, 54 L.Ed.2d 618 (1978)). In the
equal protection context, we analyze disparate
treatment by the government this way: 1) we ask
whether the restriction discriminates against a
suspect or semi-suspect class, and 2) if it
discriminates against a suspect class, we apply
strict scrutiny; if it discriminates against a
semi-suspect class, we apply intermediate scrutiny;
if it discriminates against neither a suspect nor a
semi-suspect class, we apply rational basis review.
See Clark v. Jeter, 486 U.S. 456, 461, 108 S.Ct.
1910, 100 L.Ed.2d 465 (1988); Loving, 388 U.S. at
11, 87 S.Ct. 1817.
Government may sometimes regulate marriage in
ways that fall short of a complete ban, but that still
place burdens on marriage rights. For example, in
Montgomery, we considered a school district’s policy
that forbade employees from being married to
fellow employees. See 101 F.3d at 1118. Two
employees of the school district married each other,
and because of the anti-nepotism policy, one of
them was forced to take a job in a neighboring
district. Id. at 1119. We held that forcing an
individual to drive sixty-five miles per day as a

28a
Appendix B
condition of marriage was not a significant burden
and applied rational basis to uphold the policy. Id.
at 1121.
I do not read Obergefell as overruling cases like
Montgomery. Aside from passing references to the
Fourteenth Amendment, Obergefell did not spell
out any new understandings of the sources of
marriage rights under our Constitution, or when
and how to apply which mode of analysis.
Obergefell answered some questions, but it also left
many unanswered.
This is not mere pedantry. A restriction on
marriage could be examined in different ways,
possibly with different results, depending on which
analysis is used. For example, suppose that instead
of refusing to issue marriage licenses on the basis
of moral misgivings about same-sex marriage, the
Rowan County clerk had gone on strike, and
refused to issue marriage licenses to any applicants
until Rowan County gave her a pay raise. Very
likely, *441 were we to analyze such a case under
equal protection, we would not find a constitutional
violation, because there would simply not be
disparate treatment of anyone. See Scarbrough v.
Morgan Cty. Bd. of Educ., 470 F.3d 250, 260 (6th
Cir. 2006) (explaining that “[t]he threshold element
of an equal protection claim is disparate
treatment”). On the other hand, if we were to
analyze such a case as a substantive due process
violation, we might find a constitutional violation.
Even if we agreed that the refusal of one
county—out of 120 in Kentucky—to issue marriage

29a
Appendix B
licenses was not a significant interference with the
right to marriage (and thus applied rational basis
review), it is hard to imagine that we would
construe a county clerk’s desire for a pay raise as a
legitimate government interest to justify the
non-issuance of marriage licenses.
The present case, as the Majority points out, is
relatively easy. Not because, as the Majority holds,
the case does not require us to discern and apply an
appropriate level of scrutiny. Instead, this case is
straightforward because even if we give Davis the
benefit of any doubt and apply the lowest tier of
scrutiny, rational basis review, the result is still
the same. The next marriage-regulation case that
our court hears may not be amenable to this type of
judicial shortcut.
Let’s assume arguendo—either because Davis’s
actions were not a significant interference with
Plaintiffs’ right to marriage, or because her actions
were not discriminatory against a suspect or
semi-suspect class—that rational basis is the
appropriate level of scrutiny. Under rational basis
review, state activity is constitutional if it is
rationally related to a legitimate purpose. Liberty
Coins, LLC v. Goodman, 748 F.3d 682, 694 (6th Cir.
2014). “There is a strong presumption of
constitutionality and the regulation will be upheld
so long as its goal is permissible and the means by
which it is designed to achieve that goal are
rational.” Id. To conclude that the governmental
action in question fails rational basis review, we
must find that “government action ... ‘is so

30a
Appendix B
unrelated to the achievement of any combination of
legitimate purposes ... that the government’s
actions were irrational.’ ” Michael v. Ghee, 498 F.3d
372, 379 (6th Cir. 2007) (quoting Club Italia Soccer
& Sports Org. v. Charter Twp. of Shelby, 470 F.3d
286, 298 (6th Cir. 2006)).
Although rational basis is the lowest level of
scrutiny, there are some instances in which
government action does not pass even that low bar.
Under Romer v. Evans, government actions based
on moral disapproval of homosexuality fail rational
basis review. See 517 U.S. at 632, 116 S.Ct. 1620.
Similarly, in Lawrence v. Texas, the Supreme Court
indicated that moral disapproval on the part of the
state legislature was not a “legitimate state
interest” justifying interference with homosexual
relationships. 539 U.S. 558, 578, 123 S.Ct. 2472,
156 L.Ed.2d 508 (2003). Likewise, county clerks are
not allowed to act on this basis. Cf. Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 690–91, 98 S.Ct. 2018,
56 L.Ed.2d 611 (1978) (“[L]ocal governments, like
every other § 1983 ‘person,’ ... may be sued for
constitutional deprivations ....”).
Davis argues, however, that she was entitled to an
accommodation under KRFRA, or at least had a
good-faith basis to argue for such an
accommodation, that would entitle her to qualified
immunity,
notwithstanding
the
federal
constitutional mandates of Romer, Lawrence, and
Obergefell. However, it is not settled whether
KRFRA
actually
entitled
Davis
to
an
accommodation.1 KRFRA provides, in relevant

31a
Appendix B
part:

*442 The right to act or refuse to
act in a manner motivated by a
sincerely held religious belief may
not be substantially burdened
unless the government proves by
clear and convincing evidence that
it has a compelling governmental
interest in infringing the specific
act or refusal to act and has used
the least restrictive means to
further that interest.

Ky. Rev. Stat. § 446.350. Based on this language,
Davis not only argues that she was entitled to an
accommodation but also takes the argument even
further: she claims she was entitled to self-create
an accommodation if none was forthcoming from
the state government. The latter point, it seems to
me, goes too far.
1

I note here that the constitutionality of
KRFRA is not at issue in this case.

Even if we assume arguendo that KRFRA entitled
her to an accommodation,2 it was not permissible
for Davis to take the law into her own hands. Her
“accommodation”—refusing to issue any marriage
license to any applicant—denied Plaintiffs

32a
Appendix B
marriage licenses in Rowan County to which they
were entitled, given the existing state statutory
framework and the holding of Obergefell. Davis is
correct that Obergefell neither spelled out the
entire nature of marriage rights under our
Constitution nor spelled out a comprehensive
analysis for constitutional review of restrictions on
marriage rights. She also correctly notes that the
Obergefell majority and dissent agreed that the
holding was not meant to denigrate religious faith
or people who hold moral viewpoints in opposition
to same-sex marriage. See Obergefell, 135 S. Ct. at
2607; id. at 2625 (Roberts, C.J., dissenting).
However, whatever unclarity, whatever unresolved
tension, whatever lingering questions remain in the
wake of Obergefell, one thing is clear from that
decision: “Today ... the Court takes the
extraordinary step of ordering every State to
license and recognize same-sex marriage.” Id. at
2611 (Roberts, C.J., dissenting). Although I cannot
agree with the Majority’s statement that
“Obergefell left no uncertainty,” Majority Op. at 436
(emphasis added), I agree that Davis knew or ought
to have known, to a legal certainty, that she could
not refuse to issue marriage licenses, as was her
duty under state law, because of moral disapproval
of homosexuality. And if Davis truly believed that
she had a right under KRFRA to not issue
marriage licenses, she should have sought and
obtained judicial confirmation of her claim. That,
she did not do.
2

This assumption is not necessarily true. My

33a
Appendix B
research could not find a Kentucky case
interpreting KRFRA to support the theory
that a government employee may be relieved
from the performance of ministerial duties
under the auspices of the statute. However,
for the purposes of this concurrence, I assume
without purporting to decide that Davis’s
theory of KRFRA is correct.

I therefore agree with the Majority that Plaintiffs
have pleaded a violation of their constitutional
right to marriage based on Davis’s refusal to issue
marriage licenses and that the district court
correctly denied qualified immunity to Davis
because she violated clearly established rights.
All Citations
936 F.3d 429

34a
APPENDIX C — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY DENYING DAVIS’S MOTION TO
DISMISS ERMOLD, MOORE CLAIMS ON
QUALIFIED IMMUNITY GROUNDS, FILED
SEPTEMBER 15, 2017
2017 WL 4108921
Only the Westlaw citation is currently available.
United States District Court, E.D. Kentucky,
Northern Division at Ashland.
David ERMOLD, et al., Plaintiffs
v.
Kim DAVIS, individually and in her official
capacity, Defendant
CIVIL ACTION NO. 15-46-DLB-EBA
|
Signed 09/15/2017
Attorneys and Law Firms
Joseph Daniel Buckles, Thomas Paul Szczygielski,
Chaney Buckles Szczygielski PLLC, Michael
Joseph Gartland, Delcotto Law Group PLLC,
Lexington, KY, for Plaintiffs.
Horatio G. Mihet, Roger K. Gannam, Liberty
Counsel, Orlando, FL, Anthony Charles Donahue,
Donahue Law Group, P.S.C., Somerset, KY, for
Defendant.

35a
Appendix C
MEMORANDUM OPINION AND ORDER
David L. Bunning, United States District Judge
*1 This matter is before the Court on Defendant
Kim Davis’s Motion to Dismiss Plaintiffs David
Ermold and David Moore’s Amended Complaint.
(Doc. # 29). Plaintiffs having filed their Response
(Doc. # 31), and Defendant having filed her Reply
(Doc. # 37), the Motion is fully briefed and ripe for
review. For the reasons stated herein, Defendant’s
Motion to Dismiss will be granted in part and
denied in part.

I.
FACTUAL
AND
PROCEDURAL
BACKGROUND
Since August of 2015, three cases against
Defendant Kim Davis have been pending on this
Court’s docket: (1) Miller, et al. v. Davis, et al.,
0:15-cv-44-DLB-EBA; (2) Ermold, et al. v. Davis, et
al., 0:15-cv-46-DLB-EBA; and (3) Yates, et al. v.
Davis, et al., 0:15-cv-62-DLB-EBA.1 Each of these
cases arose from the same circumstances—Kim
Davis’s refusal to issue marriage licenses to legally
eligible couples. Factually, however, the cases differ
in significant ways. The first of these—the Miller
case—is not like the others; the last two—the
Ermold and Yates cases—are nearly identical.2
1

The Miller Plaintiffs filed their suit against
Kim Davis first, on July 2, 2015. Seven days
later, on July 10, 2015, the Ermold Plaintiffs

36a
Appendix C
brought another action against Davis. And by
August 25, 2015, the Yates Plaintiffs had filed
a third suit against Davis.

2

Save an additional defendant, Rowan County,
in the Yates matter.

In Miller, the Plaintiffs sought prospective
injunctive relief, which this Court granted.
Specifically, the Court enjoined Davis from
enforcing her “no marriage licenses” policy. Miller,
0:15-cv-44-DLB-EBA (Docs. # 43 and 74 therein).
Thereafter, the Court held that the Miller Plaintiffs
“prevailed” against Davis, in her official capacity,
when they obtained a preliminary injunction
forcing her to issue marriage licenses. Id. (Doc. #
206 therein). Accordingly, the Court recently
awarded the Miller Plaintiffs attorneys’ fees and
costs under 42 U.S.C. § 1988 and ordered the
Commonwealth of Kentucky, which Davis
represented in her official capacity, to foot the bill.3
Id.
3

As this Court explained in the July 21, 2017
Memorandum Opinion and Order in Miller,
although attorneys’ fees and costs may bear
resemblance to monetary relief, they are not
money damages. Miller, 0:15-cv-44-DLB-EBA
(Doc. # 206 therein). “Unlike ordinary
‘retroactive’ relief, such as damages or

37a
Appendix C
restitution, an award of costs does not
compensate the plaintiff for the injury that
first brought him into court.” Hutto v. Finney,
437 U.S. 678, 695 n.24 (1978). “Instead, the
award reimburses him for a portion of the
expenses he incurred in seeking prospective
relief.” Id.

In contrast to the Miller Plaintiffs, the Ermold and
Yates Plaintiffs do not pursue prospective
injunctive relief. Instead, they seek retrospective
money damages. And in suits against government
officials, the type of relief requested makes all the
difference. Therefore, this case, and the companion
case, Yates, et al. v. Davis, et al., will chart their
own course.
On June 26, 2015, the United States Supreme
Court held that the fundamental right to marry
extended to same-sex couples, and therefore, states
are constitutionally required to recognize same-sex
marriage. Obergefell v. Hodges, 135 S. Ct. 2584
(2015). At that time, Plaintiffs David Ermold and
David Moore had been in a committed same-sex
relationship for seventeen years. (Doc. # 1 at ¶ 6).
Ten days later—on July 6, 2015—Plaintiffs went to
the Rowan County Clerk’s Office and requested a
marriage license. (Doc. # 27 at ¶ 19). The couple’s
request was denied and they were informed of
Rowan County Clerk Kim Davis’s “no marriage
licenses” policy. Id. at ¶ 23. By the end of that
week, Plaintiffs filed the instant action against

38a
Appendix C
Davis in her individual and official capacities. (Doc.
# 1).
*2 On August 12, 2015, this Court granted the
Miller Plaintiffs’ Motion for Preliminary Injunction
and enjoined Davis from enforcing her “no marriage
licenses” policy to future marriage-license requests
by those Plaintiffs. Miller, 0:15-cv-44-DLB-EBA
(Doc. # 43 therein). Davis unsuccessfully appealed
that ruling to the United States Court of Appeals
for the Sixth Circuit and to the United States
Supreme Court. Miller v. Davis, No. 15-5880, 2015
WL 10692640 (6th Cir. Aug. 26, 2015); Davis v.
Miller, 136 S. Ct. 23 (2015). Despite this Court’s
directive and her failed appeals, Davis refused to
comply
with
the
Court’s
Order.
Miller,
0:15-cv-44-DLB-EBA (Doc. # 67 therein). In the
meantime,
Plaintiffs
Ermold
and
Moore’s
marriage-license requests were denied a second and
third time—on August 13, 2015, and September 1,
2015. (Doc. # 27 at ¶¶ 24-25).
On September 3, 2015, the Court found Davis in
contempt of the Court’s Order and remanded her to
the custody of the United States Marshal, pending
compliance. Id. (Doc. # 75 therein). That same day,
the Court modified the preliminary injunction and
clarified that Davis, in her official capacity as
Rowan County Clerk, was “preliminarily enjoined
from applying her ‘no marriage licenses’ policy to
future marriage license requests ... by [any]
individuals who [were] legally eligible to marry in
Kentucky.” Id. (Doc. # 74 therein).

39a
Appendix C
The next day—September 4, 2015—Plaintiffs
received a marriage license from the Rowan County
Clerk’s Office. (Docs. # 27 at ¶ 26 and 27-2). And on
September 26, 2015, the Plaintiffs were married in
a ceremony. (Doc. # 27-3).
While multiple appeals from the Miller case were
pending before the Sixth Circuit, the briefing in
this matter was stayed. (Doc. # 13). Before the
Sixth Circuit resolved the Miller appeals, the
parties in that matter agreed that a legislative
change had rendered the consolidated appeals
moot, and the Sixth Circuit dismissed those
appeals. Miller, 0:15-cv-44-DLB-EBA (Doc. # 179
therein). In its July 13, 2016 Order, the Sixth
Circuit remanded the Miller matter to this Court,
“with instructions to vacate” the August 12, 2015
and September 3, 2015 Preliminary Injunction
Orders. Id. After the mandate issued, this Court
complied with the Sixth Circuit’s instructions and
vacated the Preliminary Injunction Orders, denied
all pending motions as moot, and dismissed the
Miller matter from the Court’s active docket. Id.
(Docs. # 180 and 181 therein). In that same Order,
the Court lifted the stay in this case, denied the
pending motions as moot, and dismissed this
matter from the Court’s active docket.4 (Doc. # 19).
4

The stay in the Yates matter was also lifted,
and that case was also dismissed from the
Court’s active docket. (Doc. # 19).

40a
Appendix C
Plaintiffs appealed the Order dismissing this
matter to the Sixth Circuit. (Doc. # 20). Because the
Plaintiffs sought money damages, not an
injunction, the Sixth Circuit determined that the
Plaintiffs’ money-damages claim was not moot,
reversed the Order dismissing Plaintiffs’ case, and
remanded the action for further proceedings. Id.
Once the mandate issued (Doc. # 23), the Court
held a telephonic conference, granted Plaintiffs
leave to file an amended complaint, and set a
briefing schedule. (Doc. # 26). Now, the Defendant
has moved to dismiss all of Plaintiffs’ claims
against her, arguing that she is immune from
Plaintiffs’ damages claims. (Doc. # 29).

II. ANALYSIS
A. Standard of Review
To survive a Rule 12(b)(6) motion to dismiss, “a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). Put another way, “the plaintiff
must allege facts that state a claim to relief that is
plausible on its face and that, if accepted as true,
are sufficient to raise a right to relief above the
speculative level.” Wesley v. Campbell, 779 F.3d
421, 427 (6th Cir. 2015) (quoting Handy-Clay v.
City of Memphis, Tenn., 695 F.3d 531, 538 (6th Cir.
2012); Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)).

41a
Appendix C
*3 Although “Plaintiffs need not meet a ‘probability
requirement’ ... they must show ‘more than a sheer
possibility that a defendant has acted unlawfully.’ ”
Id. at 427-28 (quoting Rondigo, LLC v. Twp. of
Richmond, 641 F.3d 673, 680 (6th Cir. 2011)). “In
ruling on the issue, a district court must ‘construe
the complaint in the light most favorable to the
plaintiff, accept its allegations as true, and draw all
reasonable inferences in favor of the plaintiff.’ ” Id.
at 428 (quoting Directv, Inc. v. Treesh, 487 F.3d
471, 476 (6th Cir. 2007)). After all, the “defendant
has the burden of showing that the plaintiff has
failed to state a claim for relief.” Id.

B. Immunities
To state a claim under 42 U.S.C. § 1983, Plaintiffs
must allege that a person acting under color of
state law deprived them of a right secured by the
Constitution or federal law. See Will v. Mich. Dep’t
of State Police, 491 U.S. 58 (1989). When a plaintiff
seeks to hold governmental officials liable under §
1983, the Court must first consider immunities,
which erect legal hurdles for claims against
government entities and their officials. Three
variables dictate whether immunity bars these
Plaintiffs’ suit: (1) the type of government entity
the official represents, (2) the nature of the relief
requested, and (3) the capacity in which the
government official is sued.
First, Davis is a state official. As mentioned above,
and discussed in detail in the July 21, 2017

42a
Appendix C
Memorandum Opinion and Order in Miller, Davis
was acting as an agent of the Commonwealth of
Kentucky when she refused to issue marriage
licenses to legally eligible couples.5 Second,
Plaintiffs are seeking to vindicate their
constitutional rights by obtaining money damages.
And third, Plaintiffs have sued Davis in both her
official capacity and her personal capacity.
“Personal-capacity suits seek to impose personal
liability upon a government official for actions ...
take[n] under color of state law.” Kentucky v.
Graham, 473 U.S. 159, 165 (1985) (citing Scheuer v.
Rhodes,
416
U.S.
232,
237-38
(1974)).
“Official-capacity suits, in contrast, ‘generally
represent only another way of pleading an action
against an entity of which an officer is an agent.’ ”
Id. (quoting Monell v. New York City Dep’t of Soc.
Servs., 436 U.S. 658, 690 n.55 (1978)). Because
different
immunities
apply
to
Plaintiffs’
official-capacity and personal-capacity claims, the
Court will address each in turn.
5

In their briefing, Plaintiffs essentially ask the
Court to reconsider its prior conclusion that
Davis represented the Commonwealth when
she refused to issue marriage licenses. (Doc. #
31 at 3-15). The Court declines such an
invitation. A consideration of the relevant
factors compelled the Court to conclude that
county clerks, when issuing—or refusing to
issue—marriage licenses, represent the
Commonwealth of Kentucky, not their
respective counties.

43a
Appendix C

1. Plaintiffs’ official-capacity claim against
Davis must be dismissed.
Plaintiffs’ official-capacity claim against Davis
faces
an
insurmountable
hurdle—sovereign
immunity. The Eleventh Amendment’s “[s]overeign
immunity protects states, as well as state officials
sued in their official capacity for money damages,
from suit in federal court.” Boler v. Earley, 865 F.3d
391, 409-10 (6th Cir. 2017) (citing Ernst v. Rising,
427 F.3d 351, 358 (6th Cir. 2005)). Therefore,
Plaintiffs’ money-damages claim against Davis in
her official capacity, which “is, in all respects other
than name, to be treated as a suit against the”
Commonwealth, is barred by the Eleventh
Amendment.6 Graham, 473 U.S. at 166.
Accordingly, to the extent Plaintiffs seek money
damages from Davis in her official capacity, she is
immune from such relief, and that claim must be
dismissed for failure to state a claim upon which
relief can be granted. Barker v. Goodrich, 649 F.3d
428, 433 (6th Cir. 2011).
6

Furthermore, “neither a State nor its officials
acting in their official capacities are ‘persons’
” within the meaning of § 1983. Will, 491 U.S.
at 71. Thus, Plaintiffs’ claims against Davis,
in her official capacity as a state official, are
not cognizable.

44a
Appendix C

2. Plaintiffs’ personal-capacity claim against
Davis will not be dismissed.
*4 Qualified immunity—although an obstacle to
Plaintiffs’
personal-capacity
claim
against
Davis—can be overcome. “The doctrine of qualified
immunity protects government officials ‘from
liability for civil damages insofar as their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’ ” Pearson v. Callahan, 555 U.S.
223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). “Qualified immunity
balances two important interests—the need to hold
public officials accountable when they exercise
power irresponsibly and the need to shield officials
from harassment, distraction, and liability when
they perform their duties reasonably.” Id.
“Qualified immunity ‘gives ample room for
mistaken judgments’ by protecting ‘all but the
plainly incompetent or those who knowingly
violated the law.’ ” Johnson v. Moseley, 790 F.3d
649, 653 (6th Cir. 2015) (quoting Hunter v. Bryant,
502 U.S. 224, 229 (1991) (per curiam)). And “[t]he
protection of qualified immunity applies regardless
of whether the government official’s error is ‘a
mistake of law, a mistake of fact, or a mistake
based on mixed questions of law and fact.’ ”
Pearson, 555 U.S. at 231.
There is a “two-tiered inquiry” for resolving claims

45a
Appendix C
of qualified immunity. Martin v. City of Broadview
Heights, 712 F.3d 951, 957 (6th Cir. 2013) (citing
Austin v. Redford Twp. Police Dep’t, 690 F.3d 490,
496 (6th Cir. 2012)). First, the Court must
determine whether “the facts alleged make out a
violation of a constitutional right.”7 Id. If the
plaintiff has shown a violation of a constitutional
right, then the Court must proceed to the second
step and “ask if the right at issue was ‘clearly
established’ when the event occurred such that a
reasonable officer would have known that his
conduct violated” the right. Id.
7

The Court recognizes that the sequential
procedure mandated in Saucier v. Katz, 533
U.S. 194 (2001) is no longer required. See
Pearson, 555 U.S. at 227. However, as the
Pearson Court noted, that sequence is “often
appropriate” and “beneficial,” and that is
especially true in this case.

To
survive
a
motion
to
dismiss
on
qualified-immunity grounds, both inquiries must be
resolved in Plaintiffs’ favor. See Wesley, 779 F.3d at
489. Plaintiffs bear “the burden of showing that”
Davis is “not entitled to qualified immunity.”
Johnson, 790 F.3d at 653; see also Courtright v.
City of Battle Creek, 839 F.3d 513, 518 (6th Cir.
2016). “At the pleading stage, this burden is carried
by alleging facts plausibly making out a claim that
the defendant’s conduct violated a constitutional
right that was clearly established law at the time,

46a
Appendix C
such that a reasonable officer would have known
that his conduct violated that right.” Id. (citing
Wesley, 779 F.3d at 428).
“Because qualified immunity is ‘an immunity from
suit rather than a mere defense to liability ... it is
effectively lost if a case is erroneously permitted to
go to trial.’ ” Pearson, 555 U.S. at 231 (quoting
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985)).
Accordingly, the Supreme Court has repeatedly
“stressed the importance of resolving immunity
questions at the earliest possible stage in
litigation.” Id. at 232 (citing Hunter, 502 U.S. at
227). The Sixth Circuit, however, has clarified that
only
truly
“insubstantial
claims
against
government officials should be resolved ... prior to
broad discovery,” Johnson, 790 F.3d at 653, and
has cautioned that “it is generally inappropriate for
a district court to grant a 12(b)(6) motion to dismiss
on the basis of qualified immunity.” Wesley, 779
F.3d at 433. Thus, “[a]lthough an officer’s
entitlement to qualified immunity is a threshold
question to be resolved at the earliest possible
point, that point is usually summary judgment and
not dismissal under Rule 12.” Id. at 433-34
(internal citations and quotation marks omitted).

a. The facts alleged plausibly make out a
violation of a constitutional right.
*5 “It is undisputed that the right to marry is
protected by ... the Fourteenth Amendment.”8 Toms
v. Taft, 338 F.3d 519, 524 (6th Cir. 2003) (citing

47a
Appendix C
Zablocki v. Redhail, 434 U.S. 374, 383 (1978)). “The
freedom to marry has long been recognized as one
of the vital personal rights essential to the orderly
pursuit of happiness by free men.” Loving v.
Virginia, 388 U.S. 1, 12 (1967); see also Skinner v.
Oklahoma ex rel. Williamson, 316 U.S. 535, 541
(1942). It is also undisputed that as of June 26,
2015, the fundamental right to marry extended to
same-sex couples. Obergefell, 135 S. Ct. at 2607-08
(“The Court, in this decision, holds same-sex
couples may exercise the fundamental right to
marry in all States.”).
8

The right to marry is also an “associational
right”
under
the
First
Amendment.
Montgomery v. Carr, 101 F.3d 1117, 1124 (6th
Cir. 1996). Because “Supreme Court
precedent ... establishes that the same level of
scrutiny applies in both the First Amendment
and [Fourteenth Amendment] substantive
due process contexts,” the “level of scrutiny to
be applied to state action impinging on the
right to marry is invariant with respect to the
precise constitutional provision undergirding
that right.” Id. Therefore, there is no reason
for the Court to separately consider Plaintiffs’
claims under the First Amendment.

When governmental action interferes with the
exercise of a fundamental right, like the right to
marry, the Court must “decide at what ‘level of
scrutiny’ to evaluate the challenged” policy.

48a
Appendix C
Vaughn v. Lawrenceburg Power Sys., 269 F.3d 703,
710 (6th Cir. 2001). To determine the appropriate
level of scrutiny, the Court must first consider
“whether the policy or action is a direct or
substantial interference with the right of
marriage.” Montgomery v. Carr, 101 F.3d 1117,
1124 (6th Cir. 1996). Governmental action places a
“direct and substantial burden” on the right to
marry “where a large portion of those affected by
the rule are absolutely or largely prevented from
marrying, or where those affected by the rule are
absolutely or largely prevented from marrying a
large portion of the otherwise eligible population of
spouses.” Vaughn, 269 F.3d at 710 (citing
Montgomery, 101 F.3d at 1124-25; Zablocki, 434
U.S. at 387).
If the policy or action places a “direct and
substantial burden” on the right to marry, courts
apply strict scrutiny. Montgomery, 101 F.3d at
1124. Under strict scrutiny, the policy or action
“cannot be upheld unless it is supported by
sufficiently important state interests and is closely
tailored to effectuate only those interests.”
Zablocki, 434 U.S. at 388.
However, “not every state action, ‘which relates in
any way to the incidents of or the prerequisites for
marriage must be subjected to rigorous scrutiny.’ ”
Wright v. MetroHealth Med. Ctr., 58 F.3d 1130,
1134 (6th Cir. 1995) (quoting Zablocki, 434 U.S. at
386). States may impose “reasonable regulations
that do not significantly interfere with decisions to
enter into the marital relationship.” Id. at 1135. If

49a
Appendix C
the policy does not “directly and substantially
interfere with the fundamental right to marry,”
courts will subject the governmental action to a
more lenient test—rational basis. Vaughn, 269 F.3d
at 710. Rational-basis review requires only that the
challenged policy is “rationally related to legitimate
government interests.” Johnson v. Bredesen, 624
F.3d 742, 746 (6th Cir. 2010).
In their briefing, the parties suggest different
standards of scrutiny. The Defendant argues that
the Court should apply rational-basis review to her
“no marriage licenses” policy because “Plaintiffs
were neither absolutely nor largely prevented from
marrying whom they wanted under Kentucky law.”
(Doc. # 29-1 at 31). Instead, the Defendant
contends that the Plaintiffs experienced a “mere
inconvenience” at the Rowan County Clerk’s Office,
and could have requested a marriage license from a
neighboring county. Id. Plaintiffs, however, claim
that Defendant’s “no marriage licenses” policy
should be subjected to strict scrutiny because it
“impose[d] a direct and substantial burden on
Plaintiffs’ right to marry.” (Doc. # 31 at 29).
Moreover, Plaintiffs argue that the Defendant’s “no
marriage licenses” policy fails to satisfy even the
more lenient rational-basis standard. Id. at 29-30.
*6 As the Sixth Circuit has stated, “[c]ase law
illustrates what the Supreme Court means by
‘direct and substantial.’ ” Montgomery, 101 F.3d at
1124. In Loving, the Supreme Court determined
that “the anti-miscegenation statute at issue was a
‘direct and substantial’ burden on the right of

50a
Appendix C
marriage because it absolutely prohibited
individuals of different races from marrying.” Id.
(citing Loving, 388 U.S. 1). In Zablocki, the Court
found that “the burden on marriage was ‘direct and
substantial’ because the Wisconsin statute in that
case required non-custodial parents, who were
obliged to support their minor children, to obtain
court permission if they wanted to marry.” Id.
(citing Zablocki, 434 U.S. 374). Specifically, the
Zablocki Court reasoned:

Some of those in the affected class
... will never be able to obtain the
necessary court order, because they
either lack the financial means to
meet their support obligations or
cannot prove that their children
will not become public charges.
These persons are absolutely
prevented from getting married.
Many others, able in theory to
satisfy the statute’s requirements,
will be sufficiently burdened by
having to do so that they will in
effect be coerced into forgoing their
right to marry. And even those who
can be persuaded to meet the
statute’s requirements suffer a
serious intrusion into their freedom
of choice in an area in which [the
Court has] held such freedom to be
fundamental.

51a
Appendix C
Zablocki, 434 U.S. at 387.
By contrast, in cases where there is “no direct legal
obstacle in the path of persons desiring to get
married, and ... no evidence that the laws
significantly
discouraged,
let
alone
made
‘practically impossible,’ any marriages,” the
Supreme Court has found that the governmental
action was not a “direct and substantial”
infringement on the right to marry. Id. at 387 n.12
(citing Califano v. Jobst, 434 U.S. 47 (1977)
(upholding a Social Security Act provision that
terminated benefits for a disabled dependent child
when that child married someone who was
ineligible for benefits)). Therefore, if the
governmental policy or action “merely plac[es] a
non-oppresive burden on the decision to marry, or
on those who are already married,” such a burden
is
“not
sufficient
to
trigger
heightened
constitutional scrutiny.” Montgomery, 101 F.3d at
1125 (applying rational-basis review to public
school’s anti-nepotism policy, which “impose[d]
some costs and burdens on marriage,” but were
“not ‘direct’ in the sense that they place[d] an
absolute barrier in the path of those who wish to
marry.”); see also Wright, 58 F.3d at 1135-36 (also
applying rational-basis review to nepotism policy
requiring transfer, which “does not create a legal
obstacle that would prevent a class of people from
marrying.”); Vaughn, 269 F.3d at 712 (holding
nepotism policy requiring termination “did not bar
[plaintiffs] from getting married, nor did it prevent
them marrying a large portion of population even
in Lawrence County,” rather the policy “only made

52a
Appendix C
it economically burdensome to marry a small
number of those eligible individuals.”).
This Court previously determined that Defendant’s
“no marriage licenses” policy placed a “direct and
substantial burden” on the right to marry and thus,
was subjected to strict scrutiny. Miller,
0:15-cv-44-DLB-EBA (Doc. # 43 therein). Nothing
in the record has altered the preliminary decision
the Court reached in Miller.
The state action at issue in this case is Defendant’s
refusal to issue any marriage licenses. That policy
constituted a “direct and substantial interference”
with the Plaintiffs’ right of marriage because it was
a “direct legal obstacle in the path of [all Rowan
County residents] desiring to get married.”
Zablocki, 434 U.S. at 387. Defendant’s “no
marriage licenses” policy differs significantly from
the anti-nepotism policies, which simply deter
“some persons who might otherwise have married”
or economically burden “some who [do] marry.”
Montgomery, 101 F.3d at 1126.
*7 The Court recognizes that the Plaintiffs might
have been able to travel to a neighboring county
and request a marriage license, as Defendant
suggests.9 (Doc. # 29-1 at 28-29). But that is beside
the point. The plaintiffs in Zablocki also had a
potential “end run” around the challenged statute
in that case—they could have complied with the
law and obtained the required court order—but the
Supreme Court still found that the statute “directly
and substantially” interfered with the plaintiffs’

53a
Appendix C
fundamental right to marry. Zablocki, 434 U.S. at
387.
9

The Court does, however, note that Rowan
County is situated in a rural portion of
eastern
Kentucky.
And
the
counties
surrounding Rowan County—Fleming, Lewis,
Carter, Elliott, Morgan, Menifee, and
Bath—have County Clerk’s Offices that range
from approximately 20 to 40 miles away from
the Rowan County Clerk’s Office.

Like the plaintiffs in Zablocki, some Rowan County
residents would “never be able to” receive a
marriage license, “because they either lack[ed] the
financial [or practical] means” to travel to a
neighboring county. Id. “These persons [were]
absolutely prevented from getting married.” Id.
“Many others, able in theory to” travel to a
neighboring county to obtain their marriage
license, would have been “sufficiently burdened by
having to do so,” such that they were “in effect ...
coerced into forgoing their right to marry.” Id. “And
even those who [could have been] persuaded” to
travel to a neighboring county to obtain their
marriage license, “suffer[ed] a serious intrusion
into their freedom of choice in an area in which” the
Supreme Court has held “such freedom to be
fundamental.” Id.
Therefore, the Defendant’s “no marriage licenses”
policy placed a “direct and substantial burden” on

54a
Appendix C
the right to marry, and must be subjected to strict
scrutiny. Montgomery, 101 F.3d at 1124.
Accordingly, the “no marriage licenses” policy
“cannot be upheld unless it is supported by
sufficiently important state interests and is closely
tailored to effectuate only those interests.”
Zablocki, 434 U.S. at 388.
As this Court previously held, Defendant’s “no
marriage licenses” policy fails to satisfy strict
scrutiny.10 Miller, 0:15-cv-44-DLB-EBA (Doc. # 43
therein). The Court acknowledges that the
Commonwealth, “certainly has an obligation to
‘observe the basic free exercise rights’ ” of state
officials and employees.11 Id. However, the
compelling nature of that interest is diminished by
the Commonwealth’s countervailing interests in
“preventing Establishment Clause violations” and
“upholding the rule of law.” Id. Thus, the
Defendant’s “no marriage licenses” policy was not
supported by a sufficiently important state interest.
Moreover, even if the “no marriage licenses” policy
were supported by a sufficiently important state
interest, the policy was certainly not “closely
tailored” to effectuate only those interests. The
Defendant’s “no marriage licenses” policy was not
tailored in any meaningful way; it prevented all
Rowan County residents from obtaining a marriage
license in their home-county. Therefore, viewing
the facts alleged in the light most favorable to the
Plaintiffs, they have plausibly made out a violation
of a constitutional right. Martin, 712 F.3d at 957.

55a
Appendix C
10

In fact, the Defendant’s “no marriage licenses”
policy would fail to survive even rational-basis
review because it is an “unreasonable means
of advancing” any “legitimate governmental
interest” that might exist. Vaughn, 269 F.3d
at 712.

11

The Defendant’s briefing stops at challenging
the application of strict scrutiny. She does not
attempt to argue that strict scrutiny is
satisfied, nor does she articulate a specific
state interest or argue that her “no marriage
licenses” policy was closely tailored to
effectuate only those interests. Out of an
abundance of caution, however, the Court will
consider the state interest the Defendant
proffered in Miller—the Commonwealth’s
interest in protecting her religious freedom.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 43
therein).

b. The constitutional right at issue was
clearly established.
*8 Having concluded that Defendant’s alleged
conduct violated Plaintiffs’ constitutional rights,
the Court now turns to whether the right at issue
was clearly established.
A constitutional right is clearly established if the

56a
Appendix C
“contours of the right [are] sufficiently clear that a
reasonable official would understand that what
[she] is doing violates that right.” Anderson v.
Creighton, 483 U.S. 635, 640 (1987). “ ‘[B]inding
precedent from the Supreme Court, the Sixth
Circuit, or the district court itself’ can provide such
clarity; persuasive authority from ‘other circuits
that is directly on point’ may also demonstrate that
a law is clearly established.” Occupy Nashville v.
Haslam, 769 F.3d 434, 443 (6th Cir. 2014) (quoting
Holzemer v. City of Memphis, 621 F.3d 512, 527
(6th Cir. 2010)). “This is not to say that an
official[’s] action is protected by qualified immunity
unless the very action in question has previously
been held unlawful.” Anderson, 483 U.S. at 640.
Nor must there be “a case directly on point, but
existing precedent must have placed the statutory
or constitutional question beyond debate.” Ashcroft
v. al-Kidd, 563 U.S. 731, 741 (2011).
Put simply, the “salient question” is “whether the
state of the law” on July 6, 2015—the day Plaintiffs
first requested a marriage license from the Rowan
County Clerk’s Office—gave Defendant “fair
warning that [her] alleged treatment of [Plaintiffs]
was unconstitutional.” Hope v. Pelzer, 536 U.S. 730,
741 (2002). “Plaintiffs have the burden of showing
that a right is clearly established.” Toms, 338 F.3d
at 525 (citing Pray v. City of Sandusky, 49 F.3d
1154, 1158 (6th Cir. 1995)).
Plaintiffs rely on the Supreme Court’s holding in
Obergefell, which extended the fundamental right
to marry to same-sex couples, as proof that their

57a
Appendix C
rights were clearly established when the Defendant
adopted her “no marriage licenses” policy. (Doc. #
31). The Defendant claims that Plaintiffs’ rights
were not clearly established, despite Obergefell, for
several reasons. (Doc. # 37 at 7-15). Each of the
Defendant’s arguments, which will be addressed in
turn, fail.
First, the Defendant suggests that “recently
enacted or modified law cannot be clearly
established.” Id. at 8-9. This argument is not
supported by the law. The Defendant cites Harlow
v. Fitzgerald for the following proposition: “If the
law at that time was not clearly established, an
official could not reasonably be expected to
anticipate subsequent legal developments, nor
could he fairly be said to know that the law forbade
conduct not previously identified as unlawful.” Id.
(quoting Harlow, 457 U.S. at 818). But that
principle has no relevance in this particular case.
On June 26, 2015, the Supreme Court held that
States were prohibited from denying the
fundamental right to marry to same-sex couples.
See Obergefell, 135 S. Ct. 2584. After Obergefell, the
“unlawfulness” of the Defendant’s refusal to issue
marriage licenses to legally eligible couples,
including same-sex couples, was “apparent.”12
Hope, 536 U.S. at 739. Thus, Davis needed not
anticipate subsequent legal developments, but
merely comply with those legal developments.
12

Although outside the pleadings in this case,
the Court notes that the Defendant’s own

58a
Appendix C
testimony has established that she adopted
her “no marriage licenses” policy in response
to the Supreme Court’s decision in Obergefell.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 26 at
33:13-36:4; 68:16-23 therein).

*9 Furthermore, “officials can still be on notice that
their conduct violates established law even in novel
factual circumstances.” Sutton v. Metro. Gov’t of
Nashville, 700 F.3d 865, 876 (6th Cir. 2012). “Some
violations of constitutional rights are so obvious
that a ‘materially similar case’ is not required for
the right to be clearly established.” Hearring v.
Sliwowski, 712 F.3d 275, 280 (6th Cir. 2013) (citing
Brosseau v. Haugen, 543 U.S. 194, 199 (2004)).
“When a general constitutional principle is not tied
to particularized facts, the principle can clearly
establish law applicable in the future to different
sets of detailed facts.” Sample v. Bailey, 409 F.3d
689, 699 (6th Cir. 2005) (internal citations and
quotation marks omitted). The refusal to issue
marriage licenses to same-sex couples after June
26, 2015 is such a situation. Even if considered a
“novel factual circumstance,” the Plaintiffs’
fundamental right to marry was so “obvious” after
Obergefell that the Defendant had fair notice that
adopting her “no marriage licenses” policy was
unconstitutional.
In support of her qualified-immunity claim, the
Defendant also argues that the “Plaintiffs’
description of their alleged right is too generalized

59a
Appendix C
to satisfy the clearly established requirement.”
(Doc. # 37 at 9-11). Specifically, the Defendant
claims that the “relevant constitutional question” is
not whether it was clearly established that “the
Commonwealth of Kentucky [was] required to
license and recognize [same-sex marriage].” (Doc. #
29-1 at 22). Rather, Defendant suggests that “the
particular inquiry ... is whether Obergefell requires
Kentucky to compel each and every county clerk to
authorize and approve [same-sex marriage] licenses
without any accommodation for their sincerely[
]held religious beliefs.” Id. Because that issue “has
not been specifically litigated in Kentucky courts,
let alone decided by the Sixth Circuit or the
Supreme Court,” the Defendant claims that the law
cannot be “clearly established.” Id.
“The operation of” qualified immunity “depends
substantially upon the level of generality at which
the relevant ‘legal rule’ is to be identified.”
Anderson, 483 U.S. at 639. Therefore, the Supreme
Court has “repeatedly told courts ... not to define
clearly established law at a high level of generality,
since doing so avoids the crucial question whether
the official acted reasonably in the particular
circumstances that he or she faced.” Plumhoff v.
Rickard, 134 S. Ct. 2012, 2023 (2014). If the right is
defined too broadly, it “bear[s] no relationship to
the ‘objective legal reasonableness’ that is the
touchstone” of the qualified-immunity inquiry, and
“Plaintiffs would be able to convert the rule of
qualified immunity ... into a rule of virtually
unqualified liability simply by alleging violation of
extremely abstract rights.” Anderson, 483 U.S. at

60a
Appendix C
639.
However, the inverse is also true. A constitutional
right can be defined with such detail and
particularity that each new case would further
define and explain the right, converting qualified
immunity into absolute immunity. In this case, the
correct articulation of the Plaintiffs’ claimed right
can be easily derived from Obergefell:

[T]he right to marry is a
fundamental right inherent in the
liberty of the person, and under the
Due Process and Equal Protection
Clauses
of
the
Fourteenth
Amendment,
couples
of
the
same-sex may not be deprived of
that right and that liberty. The
Court now holds that same-sex
couples
may
exercise
the
fundamental right to marry. No
longer may this liberty be denied to
them.

Obergefell, 135 S. Ct. at 2605-06. The right of
same-sex couples to exercise the fundamental right
to marry is not an extremely abstract right, like
“the right to due process of law.” Anderson, 483
U.S. at 639. Instead, it is sufficiently
particularized. Id. Therefore, Plaintiffs’ alleged
right is not “too generalized to satisfy the clearly
established requirement.”

61a
Appendix C
*10
Moreover,
the
Defendant’s
improper
characterization of the right that must be clearly
established, and her remaining arguments, fail
because her focus is misplaced. In her attempt to
argue that Obergefell did not clearly establish
Plaintiffs’ rights, the Defendant claims that
“Obergefell did not answer every question.” (Doc. #
37 at 7). Specifically, the Defendant argues that
Obergefell answered only a “narrow constitutional
question”—whether the fundamental right to
marry extended to same-sex couples—but left open
whether she “must abandon any claim” to a
religious accommodation. Id. at 7-8. Relatedly, the
Defendant argues that the First Amendment’s
Establishment Clause, Free-Exercise Clause, and
the Kentucky Religious Freedom Restoration Act
created “reasonable uncertainty” as to her
obligations and the clarity of the law. Id. at 11-15.
It is not necessary for Obergefell to answer every
question.
Obergefell
answered
one
question—whether the fundamental right to marry
extended to same-sex couples. The answer was yes,
and
that
clearly
established
Plaintiffs’
constitutional rights. Furthermore, the focus of
both of these arguments is on the Defendant—on
her rights, her obligations, and her desire for a
religious accommodation. But that misses the
mark. The cornerstone of the qualified-immunity
inquiry is whether Plaintiffs’ rights, not the
Defendant’s, are “clearly established.”13 Thus, the
Defendant’s hope that the First Amendment or
Kentucky’s Religious Freedom Restoration Act

62a
Appendix C
excused her conduct in violating Plaintiffs’ clearly
established rights, does not entitle her to qualified
immunity.
13

The cases that the Defendant cites fail to
convince the Court otherwise. The Defendant
attempts to rely on two First Amendment
free-speech cases—Guercio v. Brody, 911 F.2d
1179 (6th Cir. 1990) and Gossman v. Allen,
950 F.2d 338 (6th Cir. 1991)—which are
inapposite. In addition to being factually
distinguishable, the “balance” that Guercio
and Gossman discuss is mandated by the
“familiar” First Amendment rule that
requires “employees’ right to free speech” to
be balanced against “the countervailing
interests of his employer.” Guercio, 911 F.2d
at 1183 (citing Pickering v. Bd. of Educ., 391
U.S. 563, 568 (1968)). There is no precedential
support for applying this sort of “balancing” to
Plaintiffs’ fundamental right to marry.

In conclusion, the Defendant had fair warning on
July 6, 2015—when she denied Plaintiffs’ request
for a marriage license—that her conduct was
unconstitutional. Obergefell established on June 26,
2015, that same-sex couples, like the Plaintiffs, had
the right to exercise the fundamental right to
marry. Obergefell further explained that States
could no longer deny that right to them. Therefore,
the “contours of the right” were “sufficiently clear”
such that “a reasonable official would understand

63a
Appendix C
that” adopting a “no marriage licenses” policy
would violate that right. Anderson, 483 U.S. at 640.
The Plaintiffs have met their burden by “alleging
facts plausibly making out a claim that the
defendant’s conduct violated a constitutional right
that was clearly established law at the time, such
that a reasonable officer would have known that
[her] conduct violated that right.” Johnson, 790
F.3d at 653 (citing Wesley, 779 F.3d at 428).
Accordingly, the Defendant’s Motion to Dismiss
Plaintiffs’ money-damages claim against her in her
personal capacity must be denied.

III. CONCLUSION
Accordingly, for the reasons stated herein,
IT IS ORDERED as follows:
(1) Defendant Kim Davis’s Motion to Dismiss
Plaintiffs’ Amended Complaint (Doc. # 29) is
granted in part, as to Plaintiffs’ claims against
Defendant Kim Davis in her official capacity; and
denied in part, as to Plaintiffs’ claims against
Kim Davis in her personal capacity; and
*11 (2) Plaintiffs’ Amended Complaint (Doc. # 27) is
dismissed with respect to Plaintiffs’ claims against
Kim Davis in her official capacity.
All Citations
Not Reported in Fed. Supp., 2017 WL 4108921

64a
APPENDIX D — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY DENYING DAVIS’S MOTION TO
DISMISS SMITH, YATES CLAIMS ON
QUALIFIED IMMUNITY GROUNDS, FILED
SEPTEMBER 15, 2017
2017 WL 4111419
Only the Westlaw citation is currently available.
United States District Court, E.D. Kentucky,
Northern Division at Ashland.
James YATES, et al., Plaintiffs
v.
Kim DAVIS, individually and in her official
capacity, et al., Defendants
CIVIL ACTION NO. 15-62-DLB-EBA
|
Signed 09/15/2017
Attorneys and Law Firms
Rene B. Heinrich, The Heinrich Firm, PLLC,
Newport, KY, William Kash Stilz, Jr., Roush &
Stilz, PSC, Covington, KY, for Plaintiffs.
Horatio G. Mihet, Roger K. Gannam, Liberty
Counsel, Orlando, FL, Anthony Charles Donahue,
Donahue Law Group, P.S.C., Somerset, KY, Cecil
R. Watkins, Rowan County Attorney, Morehead,
KY, Claire E. Parsons, Jeffrey C. Mando, Adams,
Stepner, Woltermann & Dusing, PLLC, Covington,
KY, for Defendants.

65a
Appendix D

MEMORANDUM OPINION AND ORDER
David L. Bunning, United States District Judge
*1 This matter is before the Court on Defendant
Kim Davis’s Motion to Dismiss Plaintiffs James
Yates and Will Smith’s Complaint. (Doc. # 29).
Plaintiffs having filed their Response (Doc. # 31),
and Defendant having filed her Reply (Doc. # 37),
the Motion is fully briefed and ripe for review. For
the reasons stated herein, Defendant’s Motion to
Dismiss will be granted in part and denied in
part.

I.
FACTUAL
AND
PROCEDURAL
BACKGROUND
Since August of 2015, three cases against
Defendant Kim Davis have been pending on this
Court’s docket: (1) Miller, et al. v. Davis, et al.,
0:15-cv-44-DLB-EBA; (2) Ermold, et al. v. Davis, et
al., 0:15-cv-46-DLB-EBA; and (3) Yates, et al. v.
Davis, et al., 0:15-cv-62-DLB-EBA.1 Each of these
cases arose from the same circumstances—Kim
Davis’s refusal to issue marriage licenses to legally
eligible couples. Factually, however, the cases differ
in significant ways. The first of these—the Miller
case—is not like the others; the last two—the
Ermold and Yates cases—are nearly identical.2

66a
Appendix D
1

The Miller Plaintiffs filed their suit against
Kim Davis first, on July 2, 2015. Seven days
later, on July 10, 2015, the Ermold Plaintiffs
brought another action against Davis. And by
August 25, 2015, the Yates Plaintiffs had filed
a third suit against Davis.

2

This matter involves an additional defendant,
Rowan County. (Doc. # 1).

In Miller, the Plaintiffs sought prospective
injunctive relief, which this Court granted.
Specifically, the Court enjoined Davis from
enforcing her “no marriage licenses” policy. Miller,
0:15-cv-44-DLB-EBA (Docs. # 43 and 74 therein).
Thereafter, the Court held that the Miller Plaintiffs
“prevailed” against Davis, in her official capacity,
when they obtained a preliminary injunction
forcing her to issue marriage licenses. Id. (Doc. #
206 therein). Accordingly, the Court recently
awarded the Miller Plaintiffs attorneys’ fees and
costs under 42 U.S.C. § 1988 and ordered the
Commonwealth of Kentucky, which Davis
represented in her official capacity, to foot the bill.3
Id.
3

As this Court explained in the July 21, 2017
Memorandum Opinion and Order in Miller,
although attorneys’ fees and costs may bear
resemblance to monetary relief, they are not

67a
Appendix D
money damages. Miller, 0:15-cv-44-DLB-EBA
(Doc. # 206 therein). “Unlike ordinary
‘retroactive’ relief, such as damages or
restitution, an award of costs does not
compensate the plaintiff for the injury that
first brought him into court.” Hutto v. Finney,
437 U.S. 678, 695 n.24 (1978). “Instead, the
award reimburses him for a portion of the
expenses he incurred in seeking prospective
relief.” Id.

In contrast to the Miller Plaintiffs, the Ermold and
Yates Plaintiffs do not pursue prospective
injunctive relief. Instead, they seek retrospective
money damages. And in suits against government
officials, the type of relief requested makes all the
difference. Therefore, this case, and the companion
case, Ermold, et al. v. Davis, et al., will chart their
own course.
On June 26, 2015, the United States Supreme
Court held that the fundamental right to marry
extended to same-sex couples, and therefore, states
are constitutionally required to recognize same-sex
marriage. Obergefell v. Hodges, 135 S. Ct. 2584
(2015). At that time, Plaintiffs James Yates and
Will Smith had been in a committed same-sex
relationship for nine years. (Doc. # 1 at ¶ 8). Ten
days later—on July 6, 2015—Plaintiffs went to the
Rowan County Clerk’s Office and requested a
marriage license. (Doc. # 1 at ¶ 13). The couple’s
request was denied and they were informed of

68a
Appendix D
Rowan County Clerk Kim Davis’s “no marriage
licenses” policy. Id.
*2 On August 12, 2015, this Court granted the
Miller Plaintiffs’ Motion for Preliminary Injunction
and enjoined Davis from enforcing her “no marriage
licenses” policy to future marriage-license requests
by those Plaintiffs. Miller, 0:15-cv-44-DLB-EBA
(Doc. # 43 therein). The next day—August 13,
2015—Plaintiffs
Yates
and
Smith’s
marriage-license request was again denied. (Doc. #
1 at ¶ 18). On August 25, 2015, the Plaintiffs filed
the instant action. (Doc. # 1).
Davis unsuccessfully appealed the Court’s
preliminary-injunction ruling to the United States
Court of Appeals for the Sixth Circuit and to the
United States Supreme Court. Miller v. Davis, No.
15-5880, 2015 WL 10692640 (6th Cir. Aug. 26,
2015); Davis v. Miller, 136 S. Ct. 23 (2015). Despite
this Court’s directive and her failed appeals, Davis
refused to comply with the Court’s Order. Miller,
0:15-cv-44-DLB-EBA (Doc. # 67 therein).
On September 3, 2015, the Court found Davis in
contempt of the Court’s Order and remanded her to
the custody of the United States Marshal, pending
compliance. Id. (Doc. # 75 therein). That same day,
the Court modified the preliminary injunction and
clarified that Davis, in her official capacity as
Rowan County Clerk, was “preliminarily enjoined
from applying her ‘no marriage licenses’ policy to
future marriage license requests ... by [any]
individuals who [were] legally eligible to marry in

69a
Appendix D
Kentucky.” Id. (Doc. # 74 therein).
While multiple appeals from the Miller case were
pending before the Sixth Circuit, the briefing in
this matter was stayed. (Doc. # 11). Before the
Sixth Circuit resolved the Miller appeals, the
parties in that matter agreed that a legislative
change had rendered the consolidated appeals
moot, and the Sixth Circuit dismissed those
appeals. Miller, 0:15-cv-44-DLB-EBA (Doc. # 179
therein). In its July 13, 2016 Order, the Sixth
Circuit remanded the Miller matter to this Court,
“with instructions to vacate” the August 12, 2015
and September 3, 2015 Preliminary Injunction
Orders. Id. After the mandate issued, this Court
complied with the Sixth Circuit’s instructions and
vacated the Preliminary Injunction Orders, denied
all pending motions as moot, and dismissed the
Miller matter from the Court’s active docket. Id.
(Docs. # 180 and 181 therein). In that same Order,
the Court lifted the stay in this case and dismissed
this matter from the Court’s active docket.4 (Doc. #
16).
4

The stay in the Ermold matter was also lifted,
and that case was also dismissed from the
Court’s active docket. (Doc. # 16).

Plaintiffs filed a Motion for Reconsideration of the
Order dismissing this matter. (Doc. # 17). In
response to that same Order, the Ermold Plaintiffs
appealed
to
the
Sixth
Circuit.
Ermold,

70a
Appendix D
0:15-cv-46-DLB-EBA (Doc. # 20 therein). On May 2,
2017, the Sixth Circuit reversed the Order
dismissing the Ermold Plaintiffs’ case, and
remanded the action for further proceedings.
Ermold, 0:15-cv-46-DLB-EBA (Docs. # 21 and 22
therein). Specifically, the Sixth Circuit held that
the Ermold Plaintiffs’ money-damages claim was
not moot because they sought money damages, not
an injunction. Id. For the same reason, this Court
granted Plaintiffs’ Motion for Reconsideration and
set a telephonic conference to discuss a briefing
schedule. (Docs. # 24 and 25). Now, the Defendant
has moved to dismiss all of Plaintiffs’ claims
against her, arguing that she is immune from
Plaintiffs’ damages claims. (Doc. # 29).

II. ANALYSIS
A. Standard of Review
*3 To survive a Rule 12(b)(6) motion to dismiss, “a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). Put another way, “the plaintiff
must allege facts that state a claim to relief that is
plausible on its face and that, if accepted as true,
are sufficient to raise a right to relief above the
speculative level.” Wesley v. Campbell, 779 F.3d
421, 427 (6th Cir. 2015) (quoting Handy-Clay v.
City of Memphis, Tenn., 695 F.3d 531, 538 (6th Cir.
2012); Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)).

71a
Appendix D
Although “Plaintiffs need not meet a ‘probability
requirement’ ... they must show ‘more than a sheer
possibility that a defendant has acted unlawfully.’ ”
Id. at 427-28 (quoting Rondigo, LLC v. Twp. of
Richmond, 641 F.3d 673, 680 (6th Cir. 2011)). “In
ruling on the issue, a district court must ‘construe
the complaint in the light most favorable to the
plaintiff, accept its allegations as true, and draw all
reasonable inferences in favor of the plaintiff.’ ” Id.
at 428 (quoting Directv, Inc. v. Treesh, 487 F.3d
471, 476 (6th Cir. 2007)). After all, the “defendant
has the burden of showing that the plaintiff has
failed to state a claim for relief.” Id.

B. Immunities
To state a claim under 42 U.S.C. § 1983, Plaintiffs
must allege that a person acting under color of
state law deprived them of a right secured by the
Constitution or federal law. See Will v. Mich. Dep’t
of State Police, 491 U.S. 58 (1989). When a plaintiff
seeks to hold governmental officials liable under §
1983, the Court must first consider immunities,
which erect legal hurdles for claims against
government entities and their officials. Three
variables dictate whether immunity bars these
Plaintiffs’ suit: (1) the type of government entity
the official represents, (2) the nature of the relief
requested, and (3) the capacity in which the
government official is sued.
First, Davis is a state official. As mentioned above,

72a
Appendix D
and discussed in detail in the July 21, 2017
Memorandum Opinion and Order in Miller, Davis
was acting as an agent of the Commonwealth of
Kentucky when she refused to issue marriage
licenses to legally eligible couples.5 Second,
Plaintiffs are seeking to vindicate their
constitutional rights by obtaining money damages.
And third, Plaintiffs have sued Davis in both her
official capacity and her personal capacity.
“Personal-capacity suits seek to impose personal
liability upon a government official for actions ...
take[n] under color of state law.” Kentucky v.
Graham, 473 U.S. 159, 165 (1985) (citing Scheuer v.
Rhodes,
416
U.S.
232,
237-38
(1974)).
“Official-capacity suits, in contrast, ‘generally
represent only another way of pleading an action
against an entity of which an officer is an agent.’ ”
Id. (quoting Monell v. New York City Dep’t of Soc.
Servs., 436 U.S. 658, 690 n.55 (1978)). Because
different
immunities
apply
to
Plaintiffs’
official-capacity and personal-capacity claims, the
Court will address each in turn.
5

The Plaintiffs note their disagreement with
the Court’s prior conclusion that Davis
represented the Commonwealth when she
refused to issue marriage licenses, and
incorporate the Ermold Plaintiffs’ argument
with respect to that issue. (Doc. # 31 at 7).
The Court declines to reconsider its prior
ruling. A consideration of the relevant factors
compelled the Court to conclude that county
clerks,
when issuing—or refusing
to

73a
Appendix D
issue—marriage licenses, represent the
Commonwealth of Kentucky, not their
respective counties.
Therefore, as the Court held in Miller, “[t]his
conclusion insulates Rowan County from
liability” for Plaintiffs’ money-damages claim.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 206
therein). As Plaintiffs acknowledge, such a
finding renders their money-damages claim
against Davis in her official capacity
“untenable.” (Doc. # 31 at 7). For the same
reasons, it also renders Plaintiffs’ claims
against
Rowan
County
untenable.
Accordingly, Plaintiffs’ claims against Rowan
County must be dismissed.

1. Plaintiffs’ official-capacity claim against
Davis must be dismissed.
*4 Plaintiffs’ official-capacity claim against Davis
faces
an
insurmountable
hurdle—sovereign
immunity. The Eleventh Amendment’s “[s]overeign
immunity protects states, as well as state officials
sued in their official capacity for money damages,
from suit in federal court.” Boler v. Earley, 865 F.3d
391, 409-10 (6th Cir. 2017) (citing Ernst v. Rising,
427 F.3d 351, 358 (6th Cir. 2005)). Therefore,
Plaintiffs’ money-damages claim against Davis in
her official capacity, which “is, in all respects other
than name, to be treated as a suit against the”
Commonwealth, is barred by the Eleventh

74a
Appendix D
Amendment.6 Graham, 473 U.S. at 166.
Accordingly, to the extent Plaintiffs seek money
damages from Davis in her official capacity, she is
immune from such relief, and that claim must be
dismissed for failure to state a claim upon which
relief can be granted. Barker v. Goodrich, 649 F.3d
428, 433 (6th Cir. 2011).
6

Furthermore, “neither a State nor its officials
acting in their official capacities are ‘persons’
” within the meaning of § 1983. Will, 491 U.S.
at 71. Thus, Plaintiffs’ claims against Davis,
in her official capacity as a state official, are
not cognizable.

2. Plaintiffs’ personal-capacity claim against
Davis will not be dismissed.
Qualified immunity—although an obstacle to
Plaintiffs’
personal-capacity
claim
against
Davis—can be overcome. “The doctrine of qualified
immunity protects government officials ‘from
liability for civil damages insofar as their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’ ” Pearson v. Callahan, 555 U.S.
223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). “Qualified immunity
balances two important interests—the need to hold
public officials accountable when they exercise
power irresponsibly and the need to shield officials

75a
Appendix D
from harassment, distraction, and liability when
they perform their duties reasonably.” Id.
“Qualified immunity ‘gives ample room for mistaken
judgments’ by protecting ‘all but the plainly
incompetent or those who knowingly violated the
law.’ ” Johnson v. Moseley, 790 F.3d 649, 653 (6th
Cir. 2015) (quoting Hunter v. Bryant, 502 U.S. 224,
229 (1991) (per curiam)). And “[t]he protection of
qualified immunity applies regardless of whether
the government official’s error is ‘a mistake of law, a
mistake of fact, or a mistake based on mixed
questions of law and fact.’ ” Pearson, 555 U.S. at 231.
There is a “two-tiered inquiry” for resolving claims
of qualified immunity. Martin v. City of Broadview
Heights, 712 F.3d 951, 957 (6th Cir. 2013) (citing
Austin v. Redford Twp. Police Dep’t, 690 F.3d 490,
496 (6th Cir. 2012)). First, the Court must determine
whether “the facts alleged make out a violation of a
constitutional right.”7 Id. If the plaintiff has shown
a violation of a constitutional right, then the Court
must proceed to the second step and “ask if the right
at issue was ‘clearly established’ when the event
occurred such that a reasonable officer would have
known that his conduct violated” the right. Id.
7

The Court recognizes that the sequential procedure
mandated in Saucier v. Katz, 533 U.S. 194 (2001) is no
longer required. See Pearson, 555 U.S. at 227.
However, as the Pearson Court noted, that sequence is
“often appropriate” and “beneficial,” and that is
especially true in this case.

76a
Appendix D

To
survive
a
motion
to
dismiss
on
qualified-immunity grounds, both inquiries must be
resolved in Plaintiffs’ favor. See Wesley, 779 F.3d at
489. Plaintiffs bear “the burden of showing that”
Davis is “not entitled to qualified immunity.”
Johnson, 790 F.3d at 653; see also Courtright v.
City of Battle Creek, 839 F.3d 513, 518 (6th Cir.
2016). “At the pleading stage, this burden is carried
by alleging facts plausibly making out a claim that
the defendant’s conduct violated a constitutional
right that was clearly established law at the time,
such that a reasonable officer would have known
that his conduct violated that right.” Id. (citing
Wesley, 779 F.3d at 428).
*5 “Because qualified immunity is ‘an immunity
from suit rather than a mere defense to liability ...
it is effectively lost if a case is erroneously
permitted to go to trial.’ ” Pearson, 555 U.S. at 231
(quoting Mitchell v. Forsyth, 472 U.S. 511, 526
(1985)). Accordingly, the Supreme Court has
repeatedly “stressed the importance of resolving
immunity questions at the earliest possible stage in
litigation.” Id. at 232 (citing Hunter, 502 U.S. at
227). The Sixth Circuit, however, has clarified that
only
truly
“insubstantial
claims
against
government officials should be resolved ... prior to
broad discovery,” Johnson, 790 F.3d at 653, and
has cautioned that “it is generally inappropriate for
a district court to grant a 12(b)(6) motion to dismiss
on the basis of qualified immunity.” Wesley, 779

77a
Appendix D
F.3d at 433. Thus, “[a]lthough an officer’s
entitlement to qualified immunity is a threshold
question to be resolved at the earliest possible
point, that point is usually summary judgment and
not dismissal under Rule 12.” Id. at 433-34
(internal citations and quotation marks omitted).

a. The facts alleged plausibly make out a
violation of a constitutional right.
“It is undisputed that the right to marry is
protected by ... the Fourteenth Amendment.”8 Toms
v. Taft, 338 F.3d 519, 524 (6th Cir. 2003) (citing
Zablocki v. Redhail, 434 U.S. 374, 383 (1978)). “The
freedom to marry has long been recognized as one
of the vital personal rights essential to the orderly
pursuit of happiness by free men.” Loving v.
Virginia, 388 U.S. 1, 12 (1967); see also Skinner v.
Oklahoma ex rel. Williamson, 316 U.S. 535, 541
(1942). It is also undisputed that as of June 26,
2015, the fundamental right to marry extended to
same-sex couples. Obergefell, 135 S. Ct. at 2607-08
(“The Court, in this decision, holds same-sex
couples may exercise the fundamental right to
marry in all States.”).
8

The right to marry is also an “associational
right”
under
the
First
Amendment.
Montgomery v. Carr, 101 F.3d 1117, 1124 (6th
Cir. 1996). Because “Supreme Court
precedent ... establishes that the same level of
scrutiny applies in both the First Amendment

78a
Appendix D
and [Fourteenth Amendment] substantive
due process contexts,” the “level of scrutiny to
be applied to state action impinging on the
right to marry is invariant with respect to the
precise constitutional provision undergirding
that right.” Id. Therefore, there is no reason
for the Court to separately consider Plaintiffs’
claims under the First Amendment.

When governmental action interferes with the
exercise of a fundamental right, like the right to
marry, the Court must “decide at what ‘level of
scrutiny’ to evaluate the challenged” policy.
Vaughn v. Lawrenceburg Power Sys., 269 F.3d 703,
710 (6th Cir. 2001). To determine the appropriate
level of scrutiny, the Court must first consider
“whether the policy or action is a direct or
substantial interference with the right of
marriage.” Montgomery v. Carr, 101 F.3d 1117,
1124 (6th Cir. 1996). Governmental action places a
“direct and substantial burden” on the right to
marry “where a large portion of those affected by
the rule are absolutely or largely prevented from
marrying, or where those affected by the rule are
absolutely or largely prevented from marrying a
large portion of the otherwise eligible population of
spouses.” Vaughn, 269 F.3d at 710 (citing
Montgomery, 101 F.3d at 1124-25; Zablocki, 434
U.S. at 387).
If the policy or action places a “direct and
substantial burden” on the right to marry, courts

79a
Appendix D
apply strict scrutiny. Montgomery, 101 F.3d at
1124. Under strict scrutiny, the policy or action
“cannot be upheld unless it is supported by
sufficiently important state interests and is closely
tailored to effectuate only those interests.”
Zablocki, 434 U.S. at 388.
However, “not every state action, ‘which relates in
any way to the incidents of or the prerequisites for
marriage must be subjected to rigorous scrutiny.’ ”
Wright v. MetroHealth Med. Ctr., 58 F.3d 1130,
1134 (6th Cir. 1995) (quoting Zablocki, 434 U.S. at
386). States may impose “reasonable regulations
that do not significantly interfere with decisions to
enter into the marital relationship.” Id. at 1135. If
the policy does not “directly and substantially
interfere with the fundamental right to marry,”
courts will subject the governmental action to a
more lenient test—rational basis. Vaughn, 269 F.3d
at 710. Rational-basis review requires only that the
challenged policy is “rationally related to legitimate
government interests.” Johnson v. Bredesen, 624
F.3d 742, 746 (6th Cir. 2010).
*6 In their briefing, the parties suggest different
standards of scrutiny. The Defendant argues that
the Court should apply rational-basis review to her
“no marriage licenses” policy because “Plaintiffs
were neither absolutely nor largely prevented from
marrying whom they wanted under Kentucky law.”
(Doc. # 29-1 at 32). Instead, the Defendant
contends that the Plaintiffs experienced a “mere
inconvenience” at the Rowan County Clerk’s Office,
and could have requested a marriage license from a

80a
Appendix D
neighboring county. Id. Plaintiffs, however, claim
that Defendant’s “no marriage licenses” policy
should be subjected to strict scrutiny because it
“impose[d] a direct and substantial burden on
Plaintiffs’ right to marry.” (Doc. # 31 at 9).
As the Sixth Circuit has stated, “[c]ase law
illustrates what the Supreme Court means by
‘direct and substantial.’ ” Montgomery, 101 F.3d at
1124. In Loving, the Supreme Court determined
that “the anti-miscegenation statute at issue was a
‘direct and substantial’ burden on the right of
marriage because it absolutely prohibited
individuals of different races from marrying.” Id.
(citing Loving, 388 U.S. 1). In Zablocki, the Court
found that “the burden on marriage was ‘direct and
substantial’ because the Wisconsin statute in that
case required non-custodial parents, who were
obliged to support their minor children, to obtain
court permission if they wanted to marry.” Id.
(citing Zablocki, 434 U.S. 374). Specifically, the
Zablocki Court reasoned:

Some of those in the affected class ... will
never be able to obtain the necessary court
order, because they either lack the financial
means to meet their support obligations or
cannot prove that their children will not
become public charges. These persons are
absolutely prevented from getting married.
Many others, able in theory to satisfy the
statute’s requirements, will be sufficiently
burdened by having to do so that they will

81a
Appendix D
in effect be coerced into forgoing their right
to marry. And even those who can be
persuaded
to
meet
the
statute’s
requirements suffer a serious intrusion into
their freedom of choice in an area in which
[the Court has] held such freedom to be
fundamental.

Zablocki, 434 U.S. at 387.
By contrast, in cases where there is “no direct legal
obstacle in the path of persons desiring to get
married, and ... no evidence that the laws
significantly
discouraged,
let
alone
made
‘practically impossible,’ any marriages,” the
Supreme Court has found that the governmental
action was not a “direct and substantial”
infringement on the right to marry. Id. at 387 n.12
(citing Califano v. Jobst, 434 U.S. 47 (1977)
(upholding a Social Security Act provision that
terminated benefits for a disabled dependent child
when that child married someone who was
ineligible for benefits)). Therefore, if the
governmental policy or action “merely plac[es] a
non-oppresive burden on the decision to marry, or
on those who are already married,” such a burden
is
“not
sufficient
to
trigger
heightened
constitutional scrutiny.” Montgomery, 101 F.3d at
1125 (applying rational-basis review to public
school’s anti-nepotism policy, which “impose[d]
some costs and burdens on marriage,” but were
“not ‘direct’ in the sense that they place[d] an
absolute barrier in the path of those who wish to

82a
Appendix D
marry.”); see also Wright, 58 F.3d at 1135-36 (also
applying rational-basis review to nepotism policy
requiring transfer, which “does not create a legal
obstacle that would prevent a class of people from
marrying.”); Vaughn, 269 F.3d at 712 (holding
nepotism policy requiring termination “did not bar
[plaintiffs] from getting married, nor did it prevent
them marrying a large portion of population even
in Lawrence County,” rather the policy “only made
it economically burdensome to marry a small
number of those eligible individuals.”).
*7 This Court previously determined that
Defendant’s “no marriage licenses” policy placed a
“direct and substantial burden” on the right to
marry and thus, was subjected to strict scrutiny.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 43 therein).
Nothing in the record has altered the preliminary
decision the Court reached in Miller.
The state action at issue in this case is Defendant’s
refusal to issue any marriage licenses. That policy
constituted a “direct and substantial interference”
with the Plaintiffs’ right of marriage because it was
a “direct legal obstacle in the path of [all Rowan
County residents] desiring to get married.”
Zablocki, 434 U.S. at 387. Defendant’s “no
marriage licenses” policy differs significantly from
the anti-nepotism policies, which simply deter
“some persons who might otherwise have married”
or economically burden “some who [do] marry.”
Montgomery, 101 F.3d at 1126.
The Court recognizes that the Plaintiffs might have

83a
Appendix D
been able to travel to a neighboring county and
request a marriage license, as Defendant suggests.9
(Doc. # 29-1 at 28-29). But that is beside the point.
The plaintiffs in Zablocki also had a potential “end
run” around the challenged statute in that
case—they could have complied with the law and
obtained the required court order—but the
Supreme Court still found that the statute “directly
and substantially” interfered with the plaintiffs’
fundamental right to marry. Zablocki, 434 U.S. at
387.
9

The Court does, however, note that Rowan
County is situated in a rural portion of
eastern
Kentucky.
And
the
counties
surrounding Rowan County—Fleming, Lewis,
Carter, Elliott, Morgan, Menifee, and
Bath—have County Clerk’s Offices that range
from approximately 20 to 40 miles away from
the Rowan County Clerk’s Office.

Like the plaintiffs in Zablocki, some Rowan County
residents would “never be able to” receive a
marriage license, “because they either lack[ed] the
financial [or practical] means” to travel to a
neighboring county. Id. “These persons [were]
absolutely prevented from getting married.” Id.
“Many others, able in theory to” travel to a
neighboring county to obtain their marriage
license, would have been “sufficiently burdened by
having to do so,” such that they were “in effect ...
coerced into forgoing their right to marry.” Id. “And

84a
Appendix D
even those who [could have been] persuaded” to
travel to a neighboring county to obtain their
marriage license, “suffer[ed] a serious intrusion
into their freedom of choice in an area in which” the
Supreme Court has held “such freedom to be
fundamental.” Id.
Therefore, the Defendant’s “no marriage licenses”
policy placed a “direct and substantial burden” on
the right to marry, and must be subjected to strict
scrutiny. Montgomery, 101 F.3d at 1124.
Accordingly, the “no marriage licenses” policy
“cannot be upheld unless it is supported by
sufficiently important state interests and is closely
tailored to effectuate only those interests.”
Zablocki, 434 U.S. at 388.
As this Court previously held, Defendant’s “no
marriage licenses” policy fails to satisfy strict
scrutiny.10 Miller, 0:15-cv-44-DLB-EBA (Doc. # 43
therein). The Court acknowledges that the
Commonwealth, “certainly has an obligation to
‘observe the basic free exercise rights’ ” of state
officials and employees.11 Id. However, the
compelling nature of that interest is diminished by
the Commonwealth’s countervailing interests in
“preventing Establishment Clause violations” and
“upholding the rule of law.” Id. Thus, the
Defendant’s “no marriage licenses” policy was not
supported by a sufficiently important state interest.
Moreover, even if the “no marriage licenses” policy
were supported by a sufficiently important state
interest, the policy was certainly not “closely
tailored” to effectuate only those interests. The

85a
Appendix D
Defendant’s “no marriage licenses” policy was not
tailored in any meaningful way; it prevented all
Rowan County residents from obtaining a marriage
license in their home-county. Therefore, viewing
the facts alleged in the light most favorable to the
Plaintiffs, they have plausibly made out a violation
of a constitutional right. Martin, 712 F.3d at 957.
10

In fact, the Defendant’s “no marriage licenses”
policy would fail to survive even rational-basis
review because it is an “unreasonable means
of advancing” any “legitimate governmental
interest” that might exist. Vaughn, 269 F.3d
at 712.

11

The Defendant’s briefing stops at challenging
the application of strict scrutiny. She does not
attempt to argue that strict scrutiny is
satisfied, nor does she articulate a specific
state interest or argue that her “no marriage
licenses” policy was closely tailored to
effectuate only those interests. Out of an
abundance of caution, however, the Court will
consider the state interest the Defendant
proffered in Miller—the Commonwealth’s
interest in protecting her religious freedom.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 43
therein).

86a
Appendix D
b. The constitutional right at issue was
clearly established.
*8 Having concluded that Defendant’s alleged
conduct violated Plaintiffs’ constitutional rights,
the Court now turns to whether the right at issue
was clearly established.
A constitutional right is clearly established if the
“contours of the right [are] sufficiently clear that a
reasonable official would understand that what
[she] is doing violates that right.” Anderson v.
Creighton, 483 U.S. 635, 640 (1987). “ ‘[B]inding
precedent from the Supreme Court, the Sixth
Circuit, or the district court itself’ can provide such
clarity; persuasive authority from ‘other circuits
that is directly on point’ may also demonstrate that
a law is clearly established.” Occupy Nashville v.
Haslam, 769 F.3d 434, 443 (6th Cir. 2014) (quoting
Holzemer v. City of Memphis, 621 F.3d 512, 527
(6th Cir. 2010)). “This is not to say that an
official[’s] action is protected by qualified immunity
unless the very action in question has previously
been held unlawful.” Anderson, 483 U.S. at 640.
Nor must there be “a case directly on point, but
existing precedent must have placed the statutory
or constitutional question beyond debate.” Ashcroft
v. al-Kidd, 563 U.S. 731, 741 (2011).
Put simply, the “salient question” is “whether the
state of the law” on July 6, 2015—the day Plaintiffs
first requested a marriage license from the Rowan
County Clerk’s Office—gave Defendant “fair
warning that [her] alleged treatment of [Plaintiffs]
was unconstitutional.” Hope v. Pelzer, 536 U.S. 730,

87a
Appendix D
741 (2002). “Plaintiffs have the burden of showing
that a right is clearly established.” Toms, 338 F.3d
at 525 (citing Pray v. City of Sandusky, 49 F.3d
1154, 1158 (6th Cir. 1995)).
Plaintiffs rely on the Supreme Court’s holding in
Obergefell, which extended the fundamental right
to marry to same-sex couples, as proof that their
rights were clearly established when the Defendant
adopted her “no marriage licenses” policy. (Doc. #
31 at 10-11). The Defendant claims that Plaintiffs’
rights were not clearly established, despite
Obergefell, for several reasons. (Doc. # 37 at 7-15).
Each of the Defendant’s arguments, which will be
addressed in turn, fail.
First, the Defendant suggests that “recently
enacted or modified law cannot be clearly
established.” Id. at 8-9. This argument is not
supported by the law. The Defendant cites Harlow
v. Fitzgerald for the following proposition: “If the
law at that time was not clearly established, an
official could not reasonably be expected to
anticipate subsequent legal developments, nor
could he fairly be said to know that the law forbade
conduct not previously identified as unlawful.” Id.
(quoting Harlow, 457 U.S. at 818). But that
principle has no relevance in this particular case.
On June 26, 2015, the Supreme Court held that
States were prohibited from denying the
fundamental right to marry to same-sex couples.
See Obergefell, 135 S. Ct. 2584. After Obergefell, the
“unlawfulness” of the Defendant’s refusal to issue
marriage licenses to legally eligible couples,

88a
Appendix D
including same-sex couples, was “apparent.”12
Hope, 536 U.S. at 739. Thus, Davis needed not
anticipate subsequent legal developments, but
merely comply with those legal developments.
12

Although outside the pleadings in this case,
the Court notes that the Defendant’s own
testimony has established that she adopted
her “no marriage licenses” policy in response
to the Supreme Court’s decision in Obergefell.
Miller, 0:15-cv-44-DLB-EBA (Doc. # 26 at
33:13-36:4; 68:16-23 therein).

*9 Furthermore, “officials can still be on notice that
their conduct violates established law even in novel
factual circumstances.” Sutton v. Metro. Gov’t of
Nashville, 700 F.3d 865, 876 (6th Cir. 2012). “Some
violations of constitutional rights are so obvious
that a ‘materially similar case’ is not required for
the right to be clearly established.” Hearring v.
Sliwowski, 712 F.3d 275, 280 (6th Cir. 2013) (citing
Brosseau v. Haugen, 543 U.S. 194, 199 (2004)).
“When a general constitutional principle is not tied
to particularized facts, the principle can clearly
establish law applicable in the future to different
sets of detailed facts.” Sample v. Bailey, 409 F.3d
689, 699 (6th Cir. 2005) (internal citations and
quotation marks omitted). The refusal to issue
marriage licenses to same-sex couples after June
26, 2015 is such a situation. Even if considered a
“novel factual circumstance,” the Plaintiffs’
fundamental right to marry was so “obvious” after

89a
Appendix D
Obergefell that the Defendant had fair notice that
adopting her “no marriage licenses” policy was
unconstitutional.
In support of her qualified-immunity claim, the
Defendant also argues that the “Plaintiffs’
description of their alleged right is too generalized
to satisfy the clearly established requirement.”
(Doc. # 37 at 9-11). Specifically, the Defendant
claims that the “relevant constitutional question” is
not whether it was clearly established that “the
Commonwealth of Kentucky [was] required to
license and recognize [same-sex marriage].” (Doc. #
29-1 at 23). Rather, Defendant suggests that “the
particular inquiry ... is whether Obergefell requires
Kentucky to compel each and every county clerk to
authorize and approve [same-sex marriage] licenses
without any accommodation for their sincerely[
]held religious beliefs.” Id. Because that issue “has
not been specifically litigated in Kentucky courts,
let alone decided by the Sixth Circuit or the
Supreme Court,” the Defendant claims that the law
cannot be “clearly established.” Id.
“The operation of” qualified immunity “depends
substantially upon the level of generality at which
the relevant ‘legal rule’ is to be identified.”
Anderson, 483 U.S. at 639. Therefore, the Supreme
Court has “repeatedly told courts ... not to define
clearly established law at a high level of generality,
since doing so avoids the crucial question whether
the official acted reasonably in the particular
circumstances that he or she faced.” Plumhoff v.
Rickard, 134 S. Ct. 2012, 2023 (2014). If the right is

90a
Appendix D
defined too broadly, it “bear[s] no relationship to
the ‘objective legal reasonableness’ that is the
touchstone” of the qualified-immunity inquiry, and
“Plaintiffs would be able to convert the rule of
qualified immunity ... into a rule of virtually
unqualified liability simply by alleging violation of
extremely abstract rights.” Anderson, 483 U.S. at
639.
However, the inverse is also true. A constitutional
right can be defined with such detail and
particularity that each new case would further
define and explain the right, converting qualified
immunity into absolute immunity. In this case, the
correct articulation of the Plaintiffs’ claimed right
can be easily derived from Obergefell:

[T]he right to marry is a fundamental right
inherent in the liberty of the person, and
under the Due Process and Equal Protection
Clauses of the Fourteenth Amendment,
couples of the same-sex may not be deprived
of that right and that liberty. The Court now
holds that same-sex couples may exercise
the fundamental right to marry. No longer
may this liberty be denied to them.

Obergefell, 135 S. Ct. at 2605-06. The right of
same-sex couples to exercise the fundamental right
to marry is not an extremely abstract right, like
“the right to due process of law.” Anderson, 483
U.S. at 639. Instead, it is sufficiently

91a
Appendix D
particularized. Id. Therefore, Plaintiffs’ alleged
right is not “too generalized to satisfy the clearly
established requirement.”
*10
Moreover,
the
Defendant’s
improper
characterization of the right that must be clearly
established, and her remaining arguments, fail
because her focus is misplaced. In her attempt to
argue that Obergefell did not clearly establish
Plaintiffs’ rights, the Defendant claims that
“Obergefell did not answer every question.” (Doc. #
37 at 7). Specifically, the Defendant argues that
Obergefell answered only a “narrow constitutional
question”—whether the fundamental right to
marry extended to same-sex couples—but left open
whether she “must abandon any claim” to a
religious accommodation. Id. at 7-8. Relatedly, the
Defendant argues that the First Amendment’s
Establishment Clause, Free-Exercise Clause, and
the Kentucky Religious Freedom Restoration Act
created “reasonable uncertainty” as to her
obligations and the clarity of the law. Id. at 11-15.
It is not necessary for Obergefell to answer every
question.
Obergefell
answered
one
question—whether the fundamental right to marry
extended to same-sex couples. The answer was yes,
and
that
clearly
established
Plaintiffs’
constitutional rights. Furthermore, the focus of
both of these arguments is on the Defendant—on
her rights, her obligations, and her desire for a
religious accommodation. But that misses the
mark. The cornerstone of the qualified-immunity
inquiry is whether Plaintiffs’ rights, not the

92a
Appendix D
Defendant’s, are “clearly established.”13 Thus, the
Defendant’s hope that the First Amendment or
Kentucky’s Religious Freedom Restoration Act
excused her conduct in violating Plaintiffs’ clearly
established rights, does not entitle her to qualified
immunity.
13

The cases that the Defendant cites fail to
convince the Court otherwise. The Defendant
attempts to rely on two First Amendment
free-speech cases—Guercio v. Brody, 911 F.2d
1179 (6th Cir. 1990) and Gossman v. Allen,
950 F.2d 338 (6th Cir. 1991)—which are
inapposite. In addition to being factually
distinguishable, the “balance” that Guercio
and Gossman discuss is mandated by the
“familiar” First Amendment rule that
requires “employees’ right to free speech” to
be balanced against “the countervailing
interests of his employer.” Guercio, 911 F.2d
at 1183 (citing Pickering v. Bd. of Educ., 391
U.S. 563, 568 (1968)). There is no precedential
support for applying this sort of “balancing” to
Plaintiffs’ fundamental right to marry.

In conclusion, the Defendant had fair warning on
July 6, 2015—when she denied Plaintiffs’ request
for a marriage license—that her conduct was
unconstitutional. Obergefell established on June 26,
2015, that same-sex couples, like the Plaintiffs, had
the right to exercise the fundamental right to
marry. Obergefell further explained that States

93a
Appendix D
could no longer deny that right to them. Therefore,
the “contours of the right” were “sufficiently clear”
such that “a reasonable official would understand
that” adopting a “no marriage licenses” policy
would violate that right. Anderson, 483 U.S. at 640.
The Plaintiffs have met their burden by “alleging
facts plausibly making out a claim that the
defendant’s conduct violated a constitutional right
that was clearly established law at the time, such
that a reasonable officer would have known that
[her] conduct violated that right.” Johnson, 790
F.3d at 653 (citing Wesley, 779 F.3d at 428).
Accordingly, the Defendant’s Motion to Dismiss
Plaintiffs’ money-damages claim against her in her
personal capacity must be denied.

III. CONCLUSION
Accordingly, for the reasons stated herein,
IT IS ORDERED as follows:
(1) Defendant Kim Davis’s Motion to Dismiss
Plaintiffs’ Amended Complaint (Doc. # 29) is
granted in part, as to Plaintiffs’ claims against
Defendant Kim Davis in her official capacity; and
denied in part, as to Plaintiffs’ claims against
Kim Davis in her personal capacity;
(2) Plaintiffs’ Complaint (Doc. # 1) is dismissed
with respect to Plaintiffs’ claims against Kim Davis
in her official capacity;

94a
Appendix D
*11 (3) Having previously determined, and
reaffirmed herein, that Defendant Kim Davis
represented the Commonwealth of Kentucky when
she refused to issue marriage licenses to legally
eligible couples, Plaintiffs’ Complaint is dismissed
with respect to Plaintiffs’ claims against Defendant
Rowan County, Kentucky; and
(4) Defendant Rowan County, Kentucky is
dismissed as a party to this action, as all claims
against it have been dismissed and adjudicated.
All Citations
Not Reported in Fed. Supp., 2017 WL 4111419

95a
APPENDIX E — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT AFFIRMING AWARD OF
ATTORNEY’S FEES TO MILLER
PLAINTIFFS, FILED AUGUST 23, 2019
936 F.3d 442
United States Court of Appeals, Sixth Circuit.
April MILLER; Karen Ann Roberts; Shantel
Burke; Stephen Napier; Jody Fernandez; Kevin
Holloway; L. Aaron Skaggs; Barry W. Spartman,
Plaintiffs-Appellees,
v.
Elwood CAUDILL, Jr., in his official capacity as
Rowan County Clerk,
Defendant-Appellee/Cross-Appellant,
Rowan County, Kentucky, Defendant-Appellee,
Matthew G. Bevin, in his official capacity as
Governor of Kentucky; Terry Manuel, in his
official capacity as State Librarian and
Commissioner of the Kentucky Department for
Libraries and Archives, Third
Party/Defendants-Appellants/Cross-Appellees.
Nos. 17-6385/6404
|
Argued: January 31, 2019
|
Decided and Filed: August 23, 2019
*445 Appeal from the United States District Court
for the Eastern District of Kentucky at Ashland.
No. 0:15-cv-00044—David L. Bunning, District
Judge.

96a
Appendix E
Attorneys and Law Firms
ARGUED: Palmer G. Vance, II, STOLL KEENON
OGDEN, PLLC, Lexington, Kentucky, for Matthew
G. Bevin and Terry Manuel. William E. Sharp,
BLACKBURN DOMENE & BURCHETT, PLLC,
Louisville, Kentucky, for April Miller, et al. Roger
K. Gannam, LIBERTY COUNSEL, Orlando,
Florida, for Elwood Caudill, Jr. ON BRIEF: Palmer
G. Vance, II, William M. Lear, Jr., STOLL
KEENON OGDEN, PLLC, Lexington, Kentucky,
for Matthew G. Bevin and Terry Manuel. William
E. Sharp, BLACKBURN DOMENE & BURCHETT,
PLLC, Louisville, Kentucky, James D. Esseks, Ria
Tabacco Mar, Daniel Mach, Heather L. Weaver,
AMERICAN
CIVIL
LIBERTIES
UNION
FOUNDATION, New York, New York, Daniel J.
Canon, Laura E. Landenwich, CLAY DANIEL
WALTON & ADAMS, Louisville, Kentucky, Amy D.
Cubbage, ACLU OF KENTUCKY, Louisville,
Kentucky, for April Miller, et al. Roger K. Gannam,
Mathew D. Staver, Horatio G. Mihet, Kristina J.
Wenberg, LIBERTY COUNSEL, Orlando, Florida,
for Elwood Caudill, Jr. Jeffrey C. Mando, ADAMS,
STEPNER, WOLTERMANN & DUSING, PLLC,
Covington, Kentucky, for Rowan County.
Before: GRIFFIN, WHITE, and BUSH, Circuit
Judges.

OPINION

97a
Appendix E
GRIFFIN, Circuit Judge.
Under the “American Rule,” parties typically pay
their own attorney’s fees. Congress created an
exception, though, for plaintiffs who win cases
against government officials over civil-rights
violations. Here, plaintiffs applied for marriage
licenses only to find that Kim Davis, who oversaw
marriage licensing for Rowan County, Kentucky,
wouldn’t issue them. So they sued her for infringing
their constitutional right to marry, and the district
court ordered Davis to give them what they
wanted. Once they obtained licenses (or chose not
to seek them again), they chose not to pursue the
lawsuit any further. But they did pursue attorney’s
fees, which the *446 district court awarded and
required the Commonwealth of Kentucky to pay.
The Commonwealth, Rowan County, and the
official who replaced Davis now contend that
plaintiffs didn’t win and thus can’t recover
attorney’s fees. They also dispute who must pay the
fee award. And Davis’s successor challenges the
amount of the award. We reject all the issues the
parties raise on appeal and therefore affirm.

I.
In the summer of 2015, Kim Davis was the County
Clerk for Rowan County, Kentucky. One of her
responsibilities was to issue marriage licenses. But
same-sex marriage offended her religious beliefs, so
when
the
Supreme
Court
recognized
a
constitutional right to same-sex marriage in

98a
Appendix E
Obergefell v. Hodges, ––– U.S. ––––, 135 S. Ct.
2584, 192 L.Ed.2d 609 (2015), Davis took matters
into her own hands.
One day after the Supreme Court released
Obergefell, Davis stopped issuing marriage licenses.
She didn’t discriminate against same-sex couples,
though; she stopped issuing licenses altogether.
That meant that when plaintiffs—two same-sex
couples and two different-sex couples who lived in
Rowan County—sought marriage licenses from the
Clerk’s Office, they couldn’t get them.
With a constitutional right to marry yet no ability
to obtain marriage licenses within Rowan County,
plaintiffs sued Rowan County and Davis, in her
individual capacity and in her official capacity as
County Clerk. They sought injunctive relief, a
declaratory judgment, and damages.
Plaintiffs promptly moved for a preliminary
injunction. The district court granted the motion,
enjoining Davis from enforcing her policy against
plaintiffs. Davis asked our court and the Supreme
Court to stay the injunction, but she didn’t prevail.
Davis v. Miller, ––– U.S. ––––, 136 S. Ct. 23, 192
L.Ed.2d 994 (2015); Miller v. Davis, No. 15-5880,
2015 WL 10692640 (6th Cir. Aug. 26, 2015).
The morning after the Supreme Court rejected her
request for a stay, Davis decided to resist the
injunction, so she told her deputy clerks to continue
enforcing her no-license policy. Two of the plaintiffs
again sought a marriage license but were rebuffed.

99a
Appendix E
Plaintiffs then moved for the district court to hold
Davis in contempt of the injunction and to expand
the injunction’s scope to prevent Davis from
enforcing her policy against other couples. The
district court did both. And after Davis’s deputy
clerks told the court they would issue marriage
licenses, the court gave Davis a second chance: if
she would agree not to interfere with her deputy
clerks’ compliance with the injunction, she wouldn’t
be sent to jail. Davis chose jail.
While Davis was in custody, two plaintiffs decided
not to seek a marriage license again, six others
sought and received them, and four of those six
used them to wed. After learning of plaintiffs’
successes, the district court lifted the contempt
sanction and released Davis from custody. It also
ordered her to refrain from interfering with her
deputy clerks as they issued licenses.
In addition to fighting the case against her, Davis
brought a case of her own. She filed a third-party
complaint against the then-Governor of Kentucky,
Steven Beshear, and the then-Commissioner of
Kentucky’s Department of Libraries and Archives,
Wayne Onskt (“Kentucky Officials”). She opposed
same-sex marriage on religious grounds—the
marriage licenses she issued had her name on
them, and she felt that her name’s appearance was
the equivalent of her personal endorsement—so she
sought a preliminary injunction requiring the
Kentucky Officials *447 to exempt her from having
to issue marriage licenses.

100a
Appendix E
In response to Davis’s lawsuit, Governor Matthew
Bevin, who had succeeded Beshear, issued an
executive order establishing a revised marriage
license that didn’t contain the names of county
clerks. The Kentucky General Assembly also
amended Kentucky law so that county clerks
weren’t required to sign marriage licenses. See
2016 Kentucky Laws Ch. 132 (SB 216), General
Assembly Reg. Sess. (Ky. 2016).
Those changes appeased Davis, so she asked us to
dismiss the various appeals then pending in our
court. We granted her request and instructed the
district court to vacate its preliminary injunction.
Miller v. Davis, 667 F. App’x 537, 538 (6th Cir.
2016). On remand, the district court followed our
instructions and also dismissed plaintiffs’ damages
claims sua sponte.
Plaintiffs chose not to appeal the dismissal of their
damages claims, but they sought attorney’s fees
under 42 U.S.C. § 1988. The district court awarded
plaintiffs $222,695.00, but it imposed liability on
the Commonwealth, not the Clerk’s Office or
Rowan County. That prompted the Kentucky
Officials, who hadn’t responded to plaintiffs’ motion
for fees, to ask the district court to amend its ruling
to assess fees against the Clerk’s Office. The
district court refused.
The Kentucky Officials and Davis appealed the fee
award. After the parties submitted their briefs,
Elwood Caudill, Jr. replaced Davis as Rowan
County Clerk and thus as a defendant, appellee,

101a
Appendix E
and cross-appellant in this case. He adopted her
arguments, so we will refer to them as his.

II.
The common law contains no right to attorney’s
fees for the winning party to a lawsuit. McQueary
v. Conway, 614 F.3d 591, 596 (6th Cir. 2010).
Instead, under what is known as the “American
Rule,” each party pays his, her, or its own fees
unless a statute explicitly provides otherwise.
Buckhannon Bd. & Care Home v. W. Va. Dep’t of
Health and Human Res., 532 U.S. 598, 602, 121
S.Ct. 1835, 149 L.Ed.2d 855 (2001). Here, 42.
U.S.C. § 1988 provides otherwise:

In any action or proceeding to
enforce a provision of ... [§] 1983 ...,
the court, in its discretion, may
allow the prevailing party, other
than the United States, a
reasonable attorney’s fee ....

42 U.S.C. § 1988(b).
Whether plaintiffs may obtain attorney’s fees, then,
hinges on whether they prevailed. Caudill and the
Kentucky Officials say they didn’t; plaintiffs say
they did. And if they did, Caudill and the Kentucky
Officials also argue over who must pay the
award—Caudill points to the Commonwealth; the

102a
Appendix E
Commonwealth (by way of the Kentucky Officials)
points back. Caudill, alone, challenges the amount
of the award as well. We address each issue in turn.

A.
As an initial matter, we must resolve a split in our
caselaw over how we review a district court’s
determination of whether a party is a “prevailing
party” under § 1988. Sometimes we’ve reviewed for
clear error. See, e.g., DiLaura v. Twp. of Ann Arbor,
471 F.3d 666, 670 (6th Cir. 2006). Other times
we’ve reviewed de novo. See, e.g., Radvansky v. City
of Olmsted Falls, 496 F.3d 609, 619 (6th Cir. 2007).
And when our published opinions conflict, the
earliest opinion normally controls because one
panel can’t overturn another’s decision. Ne. Ohio
Coal. for the Homeless v. Husted, 837 F.3d 612, 630
(6th Cir. 2016). Indeed, published precedent binds
all future panels unless (1) we overrule it *448 as
an en banc court or (2) it conflicts with intervening
United States Supreme Court precedent and thus
requires modification. Id.
Our caselaw reviewing for clear error appears to
have begun with Citizens Coalition for Block Grant
Compliance, Inc. v. Euclid, 717 F.2d 964, 967 (6th
Cir. 1983), and our caselaw reviewing de novo
appears to have begun with Radvansky.1 But in
Sole v. Wyner, the Supreme Court considered
whether a party was a “prevailing” one under §
1988 and reviewed the question de novo. 551 U.S.
74, 81–86, 127 S.Ct. 2188, 167 L.Ed.2d 1069 (2007).

103a
Appendix E
Sole thus abrogated Euclid and our later decisions
following Euclid’s approach, which means
Radvansky controls. Applying Radvansky, we
therefore hold that whether plaintiffs prevailed is
an issue we review de novo.
1

In Toms v. Taft, 338 F.3d 519, 528–30 (6th
Cir. 2003), this court applied de novo review
without explicitly stating the standard of
review.

With that standard in mind, we turn to the merits.
The district court issued a preliminary injunction
(a temporary order that holds things in place until
the court or a jury decides the case) and shortly
thereafter dismissed the case as moot, so that
injunction was all plaintiffs got. In such scenarios,
we apply a case-specific inquiry, which we approach
with both hesitancy and skepticism because the “
‘preliminary’ nature of the relief ... generally
counsel[s] against fees in the context of preliminary
injunctions.” McQueary, 614 F.3d at 601. And we
look for a court-ordered, material, enduring change
in the legal relationship between the parties. Id. at
597–98.
A few aspects of this inquiry warrant further
elaboration. First, for the change to have been court
ordered, the preliminary injunction must have
caused it; it can’t stem from Davis’s voluntary
modification of her conduct. Id. at 597. Second, for
the change to have been material, it must have

104a
Appendix E
directly benefited plaintiffs by altering how Davis
treated them. Id. at 598. And third, for the change
to have been enduring, it must have been
irrevocable, meaning it must have provided
plaintiffs with everything they asked for. Id. at 597,
599.
Some examples help make the abstract concrete.
“When protesters seek an injunction to exercise
their First Amendment rights at a specific time and
place—say to demonstrate at a Saturday parade—a
preliminary injunction will give them all the
court-ordered relief they need and the end of the
parade will moot the case.” Id. at 599. “The same is
true of a government employee who seeks to
exclude an unconstitutionally obtained report from
an administrative hearing and obtains a
preliminary injunction that irrevocably excludes
the report.” Id. “So also for a plaintiff who seeks to
delay enforcement of a statute until a certain event
occurs—say a scheduled public referendum—and
the preliminary injunction brings about that
result.” Id.
Here, what happened doesn’t fit neatly into those
examples. Plaintiffs, unlike the hypothetical
protesters,
government
employee,
and
public-referendum enthusiast, didn’t seek relief
specific to a time and place. But that’s a distinction
without a difference because (1) Kentucky marriage
licenses give couples a 30-day window in which to
wed, Ky. Rev. Stat. § 402.105, (2) couples can
obtain licenses at any time, and (3) those licenses
are one-time things for all but the dilatory or

105a
Appendix E
wishy-washy. Put differently, plaintiffs needed only
the opportunity to obtain marriage licenses because
Kentucky law left the rest to their *449 discretion;
with licenses in hand, plaintiffs could choose the
time and place to wed.
The preliminary injunction, then, rendered
plaintiffs prevailing parties. Their relationship
with Davis was one of licensee and licensor. Before
the injunction, Davis refused to issue marriage
licenses, but the injunction required her to. Thus,
Davis went from an unwilling licensor to a
compulsory one, while plaintiffs went from
unsuccessful licensees to successful ones. So the
change was court ordered. Under the injunction,
plaintiffs could obtain marriage licenses—a direct
benefit if there ever was one. So the change was
material. And once plaintiffs secured the marriage
licenses Davis had denied them, Davis could no
longer control whether they tied the knot. So the
change was enduring. In short, the injunction gave
plaintiffs all the court-ordered relief they needed,
and the issuance of the marriage licenses mooted
their request for them. See McQueary, 614 F.3d at
600.
Caudill and the Kentucky Officials dispute that
conclusion, but we find their arguments
unpersuasive. They contend that plaintiffs didn’t
prevail because two of them never obtained a
marriage license and two others never wed. But a
decision not to reap the benefits of victory doesn’t
transform victory into defeat. Consider the first
McQueary example: the protestors seeking to

106a
Appendix E
demonstrate at a parade. Id. at 599. If a
preliminary
injunction
allowed
them
to
demonstrate but they opted instead for a long
brunch, would they be any less of prevailing parties
than if they had demonstrated? We think not. The
injunction would still give them all the
court-ordered relief they need, and the end of the
parade would still moot the case—regardless of
where they were when the crowds dispersed and
the streets reopened.
Another argument the Kentucky Officials advance
rests on the preliminary injunction’s fleeting
existence. After the district court vacated the
injunction, they argue, Davis could’ve reinstated
her policy, so the change plaintiffs secured wasn’t
enduring. But Davis couldn’t have applied her
policy retroactively to nullify the marriage licenses
plaintiff had already obtained (or had the
opportunity to obtain but chose not to). So she could
do nothing to alter the relief that the injunction
provided them; once they could obtain licenses, it
was game over.
Then there is the Kentucky legislature’s alteration
of the marriage-license form, which convinced
Davis to abandon her policy, and which Caudill and
the Kentucky Officials contend shows that the
relief plaintiffs received flows from a voluntary
change rather than a court-ordered one. By the
time that alteration occurred and Davis had a
change of heart, however, plaintiffs had already
obtained marriage licenses or had chosen not to
seek them. The relief plaintiffs obtained—the

107a
Appendix E
unobstructed opportunity to secure pre-alteration
marriage licenses—therefore stemmed from the
preliminary injunction, not from the legislature’s or
Davis’s later voluntary actions. Consider again the
example of the parade protestors. See McQueary,
614 F.3d at 599. An injunction gives them the relief
they need. Id. The parade’s end moots the case. Id.
And that’s true regardless of whether the enjoined
party (perhaps a local government with a
no-demonstration ordinance) later decides to allow
demonstration at future parades.
Finally, Caudill and the Kentucky Officials point to
the complaint’s broad prayer for relief, which
requested far more than the injunction plaintiffs
obtained. To be sure, plaintiffs sought other forms
of relief—including a permanent injunction, a
declaratory judgment, damages, and more. *450
But everything they sought arose from Davis’s
refusal to issue marriage licenses; they brought the
same claim in multiple forms. And, as discussed
above, they succeeded on that claim. A win is a
win—regardless of whether the winner runs up the
score. To prevail, then, plaintiffs didn’t need to
obtain duplicative relief in every form that they
originally sought it. They wanted the opportunity
to obtain marriage licenses in Rowan County, and
the preliminary injunction gave them exactly that.
As the district court put it, “[p]laintiffs did not
achieve ‘only a symbolic victory”; “[they] won the
war.” They prevailed, and because they prevailed,
they’re eligible to recover attorney’s fees under §
1988.

108a
Appendix E

B.
So plaintiffs should recover their attorney’s fees.
But who must pay them? The logical answer is the
party against whom they prevailed. The district
court enjoined Davis in her official capacity as
Rowan County Clerk (a role Caudill now plays).
Must Caudill therefore pay the fee award out of the
funds he or the Clerk’s Office controls? Not
necessarily.
In Hutto v. Finney, when determining who had to
pay an attorney’s-fees award under § 1988, the
Supreme Court adopted a binary choice: either “the
official, in his official capacity,” pays the fees “from
funds of his agency or under his control” or “the
State or local government” pays them. 437 U.S.
678, 700, 98 S.Ct. 2565, 57 L.Ed.2d 522 (1978).
That is so regardless of whether the government is
a party to the lawsuit because “suits brought
against individual officers for injunctive relief are
for all practical purposes suits against the State
itself.” Id. Thus, Hutto’s binary tells us that
liability for the fees here could fall to the Rowan
County Clerk’s Office, Rowan County, or the
Commonwealth of Kentucky. But Hutto doesn’t tell
us how to choose between those options; the Hutto
Court faced a choice between individual officers or
the government they served, so the Court never
determined when and how liability could shift
amongst three possible parties. Id.

109a
Appendix E
In the absence of guidance on when to shift liability
up the chain, the district court looked to the entity
on whose behalf Davis acted when issuing or
refusing to issue marriage licenses. And to decide
which entity that was, the court invoked the
six-factor test we developed in Crabbs v. Scott, 786
F.3d 426 (6th Cir. 2015)—a test we ordinarily use
to determine whether a defendant is a state or local
official for purposes of sovereign immunity. Id. at
429. Those six factors are: “(1) the State’s potential
liability for a judgment; (2) how state statutes and
courts refer to the officer; (3) who appoints the
officer; (4) who pays the officer; (5) the degree of
state control over the officer; and (6) whether the
functions involved fall within the traditional
purview of state or local government.” Id.
We agree with that approach and therefore adopt
it, with one modification. Because official-capacity
lawsuits seeking injunctive relief are effectively
lawsuits against the government, Hutto, 437 U.S.
at 700, 98 S.Ct. 2565, which government an official
serves determines which government a plaintiff
prevails against. And when an official serves more
than one government, the inquiry turns on which
government the official served when taking the
challenged action. But the first Crabbs factor, in
this context, is self-referential: it asks about the
State’s liability for the fee award, which is the very
question we are invoking the Crabbs test to
answer. So we adopt a modified Crabbs test—one
that doesn’t include the first factor.
*451 Here, application of the modified Crabbs test

110a
Appendix E
shows that Davis acted on Kentucky’s behalf when
she issued and refused to issue marriage licenses.
The fourth Crabbs factor is the easiest to analyze,
so we begin there. It is neutral because neither the
Commonwealth nor Rowan County pays Davis’s
salary; the Clerk’s Office pays its own
expenses—including Davis’s salary—with the fees
it collects.
The second and third Crabbs factors, to be sure,
suggest that Davis acted on the County’s behalf.
The Kentucky Constitution refers to clerks as
county officials. Ky. Const. § 99. Kentucky courts
have also generally characterized county clerks as
county officials. See, e.g., Carroll v. Reed, 425
S.W.3d 921, 924 (Ky. Ct. App. 2014); St. Matthews
Fire Prot. Dist. v. Aubrey, 304 S.W.3d 56, 60 (Ky.
Ct. App. 2009). County residents elect county
clerks. Ky. Const. § 99. And if there is a vacancy, a
county judge or executive appoints a new clerk. Ky.
Rev. Stat. § 63.220. But these factors offer little
help because they pertain to county clerks
generally, and no party contests that county clerks
mostly work on the behalf of counties—hence the
title county clerk. What we need is legal authority
specific to marriage licensing.
The fifth and sixth factors give us that authority,
and they are dispositive. Only Kentucky can
discipline county clerks. See Ky. Const. § 68; Ky.
Rev. Stat. §§ 402.990(6), 522.020–030; Lowe v.
Commonwealth, 60 Ky. 237 (Ky. 1860). And
Kentucky has “absolute jurisdiction over the
regulation of the institution of marriage.”

111a
Appendix E
Pinkhasov v. Petocz, 331 S.W.3d 285, 291 (Ky. Ct.
App. 2011). Indeed, Kentucky law governs
everything about marriage. It defines marriage and
sets eligibility requirements. Ky. Rev. Stat. §§
402.005, 402.010, 402.020. It vests courts with the
authority to declare certain marriages void. Id. at §
402.030. It describes who may solemnize a
marriage and requires a couple to obtain a
marriage license prior to marrying. Id. at §§
402.050, 402.080. It sets out the process for
licensing and recording a marriage. Id. at §§
402.100–402.240. And specific to Davis, Kentucky
law vests county clerks with the duty of issuing
marriage licenses, recording marriage certificates,
and reporting marriages. Id. at §§ 402.080,
402.220, 402.230. So Kentucky controls every
aspect of how county clerks issue marriage licenses;
Rowan County has no say whatsoever. That means
we can rule out the County as an entity the could
be liable for the fee award. Because plaintiffs
secured a preliminary injunction dictating how
Davis wielded authority that Kentucky law granted
her, they prevailed against her in her capacity as a
State official, not a county one.
But what about Caudill? The Kentucky Officials
and plaintiffs would have us impose liability on the
Clerk’s Office—in other words, on Caudill in his
official capacity—because, they claim, Davis
created a discretionary policy specific to her office.
We disagree with that characterization. Such an
argument
conflates
discretion
with
insubordination. Kentucky required Davis to issue
marriage licenses to eligible couples. See, e.g., Ky.

112a
Appendix E
Rev. Stat. § 402.100 (“Each county clerk shall make
available to the public the form prescribed by the
Department for Libraries and Archives for the
issuance of a marriage license.”) (emphasis added);
id. at § 402.110 (“In issuing the license the clerk
shall deliver it in its entirety to the licensee.”
(emphasis added)); id. at § 402.080 (2017) (“The
license shall be issued by the clerk of the county in
which the female resides at the time, unless the
female is eighteen (18) years of age or over or a
widow, and the license is issued on her application
in person or by writing signed by her, in which case
it may be issued by any county clerk.”) (emphasis
*452 added). The parties have cited no authority
suggesting that if a county official acting on the
State’s behalf fails to do a job the State requires her
to do, that failure creates and confers discretion the
State never gave her. Davis’s refusal to issue
licenses, then, doesn’t mean she acted on behalf of
the Clerk’s Office. And that means that Caudill, in
his official capacity, isn’t liable for the fee award.
The Kentucky Officials also argue that “special
circumstances”
warrant
not
holding
the
Commonwealth liable for the award because its
high-ranking officials acted in good faith and
opposed what Davis did. As we reaffirmed in
McQueary, however, acting in good faith isn’t a
special circumstance justifying a denial of fees. 614
F.3d at 604.
Thus, because Davis acted on Kentucky’s behalf
when issuing and refusing to issue marriage
licenses, the district court correctly imposed

113a
Appendix E
liability for the award on the Commonwealth.

C.
Caudill, alone, also challenges the attorney’s-fees
amount. We review that portion of the district
court’s ruling for an abuse of discretion, Imwalle v.
Reliance Med. Prods., Inc., 515 F.3d 531, 551 (6th
Cir. 2008), which occurs when the district court
relies on clearly erroneous factual findings, applies
the law improperly, or uses an erroneous legal
standard, Wikol ex rel. Wikol v. Birmingham Pub.
Schs. Bd. of Educ., 360 F.3d 604, 611 (6th Cir.
2004).
To calculate how much an award should be, courts
in our Circuit use the “lodestar” method. Geier v.
Sundquist, 372 F.3d 784, 791 (6th Cir. 2004). It has
three steps. Id. First, a court multiplies a
reasonable hourly rate for each attorney who
represented the prevailing party by the number of
hours that attorney worked on the case. Id. This
creates a total amount of fees that each attorney
generated. Id. Next, the court adds together those
total amounts to get a grand total—the lodestar
amount—of what it cost the prevailing party to
win. Id. This amount then anchors the last step by
giving the court a starting number for the award,
after which the court evaluates the case’s unique
aspects to determine whether to adjust the award.
Hensley v. Eckerhart, 461 U.S. 424, 433, 103 S.Ct.
1933, 76 L.Ed.2d 40 (1983); Adcock-Ladd v. Sec’y of
Treasury, 227 F.3d 343, 349 (6th Cir. 2000).

114a
Appendix E
A party seeking fees must justify the amount of its
request. Reed v. Rhodes, 179 F.3d 453, 472 (6th Cir.
1999). This burden requires evidence specific to the
number of hours each attorney worked and the
appropriate hourly rate for that work. Hensley, 461
U.S. at 433, 103 S.Ct. 1933. In the absence of such
evidence, a district court may reduce the award. Id.
Here, the district court correctly applied those
standards. Nobody challenged the reasonableness
of plaintiffs’ counsel’s billing rates, but the district
court analyzed it anyway. The district court also
inspected the time entries each attorney submitted
and excluded as unreasonable those for clerical
tasks or in block-billing format (where an attorney
groups together multiple tasks without specifying
how much time each task took). This produced a
lodestar amount of $222,695.00.
In response to Davis’s argument that plaintiffs’
failure to obtain more than a preliminary
injunction warranted slashing the lodestar amount
by 75%, the district court then considered whether
to reduce the award. It emphasized that a
prevailing plaintiff may recover fees for legal
services relating to unsuccessful claims. The
determining factor, said the court, was whether the
unsuccessful claims related to the successful one. If
so, plaintiffs could recover *453 the entirety of their
fees; if not, they couldn’t. Because a common core of
facts—Davis’s
refusal
to
issue
marriage
licenses—underpinned
everything
plaintiffs
originally asked for, the district court held that the

115a
Appendix E
claims were related. So the district court awarded
the full lodestar amount.
On appeal, Caudill claims as Davis did below that
plaintiffs’ failure to obtain more than a preliminary
injunction means we should cut the award by 75%.
But he never argues that the district court made
clearly erroneous factual findings, applied the law
improperly,
or
used
an
erroneous
legal
standard—the hallmarks of an abuse of discretion.
Without a showing of one of those three errors, we
will not overturn the award. When a district court
gives clear and concise reasons for its award, we
give the award substantial deference. Hensley, 461
U.S. at 437, 103 S.Ct. 1933. The district court gave
us an excellent explanation for the award amount,
so we defer to its well-reasoned decision.

III.
For these reasons, we affirm the district court’s
attorney’s-fees award.
All Citations
936 F.3d 442

116a
APPENDIX F — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY DISMISSING ERMOLD, MOORE,
SMITH, YATES CLAIMS AS MOOT, FILED
AUGUST 18, 2016
2016 WL 9455624
Only the Westlaw citation is currently available.
United States District Court, E.D. Kentucky,
Northern Division at Ashland.
IN RE: ASHLAND CIVIL ACTIONS:
April Miller, et al. v. Kim Davis, individually and
in her official capacity, et al.
David Ermold, et al. v. Kim Davis, individually
and in her official capacity, et al.
James Yates, et al. v. Kim Davis, individually and
in her official capacity, et al.
15-44-DLB, 15-46-DLB, 15-62-DLB
|
Signed 08/18/2016
Attorneys and Law Firms
Daniel J. Canon, Laura E. Landenwich, Clay
Daniel Walton & Adams, PLC, Leonard Joe
Dunman, Attorney at Law, William Ellis Sharp,
ACLU of Kentucky, Louisville, KY, Daniel I. Mach,
Heather L. Weaver, American Civil Liberties Union
Foundation, Washington, DC, James D. Esseks,
Ria Tabacco Mar, ACLU Foundation, New York,
NY, for April Miller, et al.
Anthony Charles Donahue, Donahue Law Group,

117a
Appendix F
P.S.C., Somerset, KY, Horatio G. Mihet, Roger K.
Gannam, Liberty Counsel, Orlando, FL, Cecil R.
Watkins, Rowan County Attorney, Morehead, KY,
Claire E. Parsons, Jeffrey C. Mando, Adams,
Stepner, Woltermann & Dusing, PLLC, Covington,
KY, for Kim Davis, individually and in her official
capacity, et al.
Opinion
David L. Bunning, United States District Judge
*1 In 2015, Plaintiffs filed the above-captioned
actions to contest the “no marriage licenses” policy
implemented by Defendant Kim Davis, Rowan
County Clerk. (Doc. # 1).1 After hearing oral
argument from the parties, the Court entered a
Memorandum Opinion and Order granting
Plaintiffs’ Motion for Preliminary Injunction. (Docs.
# 2 and 43). The Court later clarified that Davis
was enjoined from applying her “no marriage
licenses” policy to future marriage license requests
submitted by Plaintiffs as well as other individuals
who were legally eligible to marry in Kentucky.
(Doc. # 74). It also held Davis in contempt for her
refusal to abide by the Court’s Order. (Doc. # 75).
Davis sought review of these rulings by filing
several appeals with the United States Court of
Appeals for the Sixth Circuit. (Doc. # 44, 66, 82,
and 83).
1

All citations to the record will refer to the lead

118a
Appendix F
case, Miller v. Davis, 0:15-cv-44-DLB.

While these appeals were pending, marriage
licenses were issued without incident. (Docs. #
114-119). Matt Bevin also won the Kentucky
gubernatorial election. (Doc. # 155). Upon taking
office, Governor Bevin signed an executive order
removing the names of County Clerks from
marriage licenses. (Doc. # 157). This executive
order eventually led to the proposal of Kentucky
Senate Bill 216 (“SB 216”), which creates a new
marriage license form that does not require the
County Clerk’s signature. (Id.). On April 1, 2016,
the Kentucky Senate passed SB 216. See
Legislative Research Commission, SB 216,
http://www.lrc.ky.gov/record/16RS/SB216.htm.
Governor Bevin signed it into law less than two
weeks later. Id.
On July 13, 2015, the United States Court of
Appeals for the Sixth Circuit dismissed the
consolidated appeals for lack of jurisdiction. (Doc. #
179). The Sixth Circuit reasoned that the issues
raised on appeal were rendered moot by the
enactment of SB 216. (Id.). Accordingly, the Sixth
Circuit remanded the matter to the Court “with
instructions to vacate its August 12, 2015
preliminary injunction order and its September 3,
2015 order modifying that injunction.” (Id.). The
Mandate has now issued, and the Court has
complied with these instructions via separate
Order. (Docs. # 180 and 181).

119a
Appendix F
In light of these proceedings, and in view of the fact
that the marriage licenses continue to the issued
without incident (Docs. # 172-176), there no longer
remains a case or controversy before the Court.
Accordingly, for the reasons stated herein,
IT IS ORDERED as follows:
(1) In Miller, et al. v. Davis, et al., 0:15-cr-44,
Plaintiffs’ Motion to Certify a Class (Doc. # 31),
Defendant Kim Davis’ Motion to Dismiss (Doc. #
32), Defendant Kim Davis’ Motion for Preliminary
Injunction (Doc. # 39), Third-Party Defendant
Steven Beshear’s Motion to Dismiss (Doc. # 92),
and Third-Party Defendant Matt Bevin’s Motion to
Dismiss (Doc. # 157) be, and are, hereby DENIED
AS MOOT;
(2) The stays imposed in Ermold, et al. v. Davis, et
al., 0:15-cv-46, and Yates, et al. v. Davis, et al.,
0:15-cv-62, be, and are, hereby LIFTED;
*2 (3) In Ermold, et al. v. Davis, et al., 0:15-cv-46,
Defendant Kim Davis’ Motion to Dismiss (Doc. #
11) and Plaintiffs’ Motion to Set Briefing Schedule
(Doc. # 14) be, and are, hereby DENIED AS
MOOT;
(4) The CJA Attorneys representing the Rowan
County Deputy Clerks be, and are, hereby
DISCHARGED from further service in this
matter; and

120a
Appendix F
(5) The three above-captioned actions be, and are,
hereby DISMISSED and STRICKEN from the
Court’s active docket.
All Citations
Not Reported in Fed. Supp., 2016 WL 9455624

121a
APPENDIX G — OPINION AND ORDER OF
THE UNITED STATED DISTRICT COURT
FOR THE EASTERN DISTRICT OF
KENTUCKY GRANTING MILLER
PLAINTIFFS’ MOTION FOR PRELIMINARY
INJUNCTION, FILED AUGUST 12, 2015
123 F.Supp.3d 924
United States District Court, E.D. Kentucky,
Northern Division, at Ashland.
April MILLER, et al., Plaintiffs
v.
Kim DAVIS, individually and in her official
capacity, et al., Defendants.
Civil Action No. 15–44–DLB.
|
Signed Aug. 12, 2015.

Synopsis
Background: Two same-sex and two opposite-sex
couples who sought marriage licenses brought
action against county clerk, challenging clerk’s
refusal to issue marriage licenses as violative of
their constitutional rights. Plaintiffs moved for
preliminary injunction.

Holdings: The District Court, David L. Bunning,
J., held that:
plaintiffs were likely to succeed on the merits of
their due process challenge to clerk’s policy,

122a
Appendix G
supporting preliminary injunction;
clerk’s policy of refusing to issue any marriage
licenses likely caused irreparable harm;
rational basis review applied to clerk’s free exercise
clause challenge to Kentucky governor’s directive to
issue same-sex marriage licenses;
clerk’s refusal to issue marriage licenses was not
speech on a “matter of public concern,” and thus,
was not entitled to First Amendment protection;
governor’s directive requiring clerks to issue
same-sex marriage licenses did not violate clause of
constitution prohibiting religious tests as condition
of public employment; and
governor’s directive did not substantially burden
clerk’s free exercise rights.
Motion granted.
Procedural Posture(s): Motion for Preliminary
Injunction.
West Codenotes
Recognized as Unconstitutional
42 U.S.C.A. § 2000bb–1
Attorneys and Law Firms
*929 Daniel J. Canon, Laura E. Landenwich,

123a
Appendix G
Leonard Joe Dunman, Clay Daniel Walton Adams,
PLC, William Ellis Sharp, ACLU of Kentucky,
Louisville, KY, for Plaintiffs.
Anthony Charles Donahue, Donahue Law Group,
P.S.C., Somerset, KY, Jonathan D. Christman,
Roger K. Gannam, Liberty Counsel, Orlando, FL,
Cecil R. Watkins, Morehead, KY, Claire E. Parsons,
Jeffrey C. Mando, Adams, Stepner, Woltermann &
Dusing, PLLC, Covington, KY, for Defendant.

MEMORANDUM OPINION AND ORDER
DAVID L. BUNNING, District Judge.

I. Introduction
This matter is before the Court on Plaintiffs’
Motion for Preliminary Injunction (Doc. # 2).
Plaintiffs are two same-sex and two opposite-sex
couples seeking to enjoin Rowan County Clerk Kim
Davis from enforcing her own marriage licensing
policy. On June 26, 2015, just hours after the U.S.
Supreme Court held that states are constitutionally
required to recognize same-sex marriage, Davis
announced that the Rowan County Clerk’s Office
would no longer issue marriage licenses to any
couples. See Obergefell v. Hodges, –––U.S. ––––,
135 S.Ct. 2584, 192 L.Ed.2d 609 (2015). Davis, an
Apostolic Christian with a sincere religious
objection to same-sex marriage, specifically sought

124a
Appendix G
to avoid issuing licenses to same-sex couples
without discriminating against them. Plaintiffs
now allege that this “no marriage licenses” policy
substantially interferes with their right to marry
because it effectively forecloses them from
obtaining a license in their home county. Davis
insists that her policy poses only an incidental
burden on Plaintiffs’ right to marry, which is
justified by the need to protect her own free
exercise rights.
*930 The Court held preliminary injunction
hearings on July 13, 2015 and July 20, 2015.
Plaintiffs April Miller, Karen Roberts, Jody
Fernandez, Kevin Holloway, Barry Spartman,
Aaron Skaggs, Shantel Burke and Stephen Napier
were represented by William Sharp of the
Americans for Civil Liberties Union (“ACLU”) and
Daniel Canon. Jonathan Christman and Roger
Gannam, both of the Liberty Counsel, and A.C.
Donahue appeared on behalf of Defendant Kim
Davis. Rowan County Attorney Cecil Watkins and
Jeff Mando represented Defendant Rowan County.
Official Court Reporters Peggy Weber and Lisa
Wiesman recorded the proceedings. At the
conclusion of the second hearing, the Court
submitted the Motion pending receipt of the
parties’ response and reply briefs. The Court
having received those filings (Docs. # 28, 29 and
36), this matter is now ripe for review.
At its core, this civil action presents a conflict
between two individual liberties held sacrosanct in
American jurisprudence. One is the fundamental

125a
Appendix G
right to marry implicitly recognized in the Due
Process Clause of the Fourteenth Amendment. The
other is the right to free exercise of religion
explicitly guaranteed by the First Amendment.
Each party seeks to exercise one of these rights, but
in doing so, they threaten to infringe upon the
opposing party’s rights. The tension between these
constitutional concerns can be resolved by
answering one simple question: Does the Free
Exercise Clause likely excuse Kim Davis from
issuing marriage licenses because she has a
religious objection to same-sex marriage? For
reasons stated herein, the Court answers this
question in the negative.

II. Factual and Procedural Background
Plaintiffs April Miller and Karen Roberts have
been in a committed same-sex relationship for
eleven years. (Doc. # 21 at 25). After hearing about
the Obergefell decision, they went to the Rowan
County Clerk’s Office and requested a marriage
license 2 from one of the deputy clerks. (Id. at
25–26). The clerk immediately excused herself and
went to speak with Kim Davis. (Id. at 28). When
she returned, she informed the couple that the
Rowan County Clerk’s Office was not issuing any
marriage licenses. (Id.). Plaintiffs Kevin Holloway
and Jody Fernandez, a committed opposite-sex
couple, had a similar experience when they tried to
obtain a marriage license from the Rowan County
Clerk’s Office. (Id. at 36).

126a
Appendix G
Both couples went straight to Rowan County Judge
Executive Walter Blevins and asked him to issue
their marriage licenses. (Id. at 30–32, 36). Blevins
explained that, under Kentucky law, a county judge
executive can only issue licenses when the elected
county clerk is absent. See Ky.Rev.Stat. Ann. §
402.240. Because Davis continued to perform her
other duties as Rowan County Clerk, Blevins
concluded that she was not “absent” within the
meaning of the statute. (Id.). Therefore, he did not
believe that he had the authority to issue their
marriage licenses. (Id.).
Plaintiffs Barry Spartman and Aaron Skaggs also
planned to solemnize their long-term relationship
post-Obergefell. (Id. at 42–44). Before going to the
Rowan County Clerk’s Office, they phoned ahead
and asked for information about the marriage
licensing process. (Id.). They wanted to make sure
that they brought all necessary documentation with
them. (Id.). One of the deputy clerks told the couple
“not to bother coming down” because they would
not be issued a license. (Id.).
Seven neighboring counties (Bath, Fleming, Lewis,
Carter, Elliott, Morgan and Menifee) are currently
issuing marriage licenses. (Doc. # 26 at 53). All are
less *931 than an hour away from the Rowan
County seat of Morehead. (Id.). While Plaintiffs
have the means to travel to any one of these
counties, they have admittedly chosen not to do so.
(Doc. # 21 at 38, 48). They strongly prefer to have
their licenses issued in Rowan County because they
have significant ties to that community. (Id. at

127a
Appendix G
28–29, 47). They live, work, socialize, vote, pay
taxes and conduct other business in and around
Morehead. (Id.). Quite simply, Rowan County is
their home.
According to Kim Davis, the Rowan County Clerk’s
Office serves as a “pass through collection agency”
for the State of Kentucky. (Doc. # 26 at 24–25). She
and her six deputy clerks regularly handle
delinquent taxes, oversee elections, manage voter
registration and issue hunting and fishing licenses.
(Id.). A portion of the fees collected in exchange for
these services is used to fund the Office’s activities
throughout the year. (Id.). The remainder is
remitted to the State. (Id.).
Under Kentucky law, county clerks are also
responsible for issuing marriage licenses.1 See
Ky.Rev.Stat. Ann. § 402.080. The process is quite
simple. The couple must first go to the county
clerk’s office and provide their biographical
information to one of the clerks. See Ky.Rev.Stat.
Ann. § 402.100. The clerk then enters the
information into a computer-generated form, prints
it and signs it. Id. This form signifies that the
couple is licensed, or legally qualified, to marry.2
Id. At the appropriate time, the couple presents
this form to their officiant, who must certify that he
or she performed a valid marriage ceremony. Id.
The couple then has thirty days to return the form
to the clerk’s office for recording. See Ky.Rev.Stat.
Ann. §§ 402.220, 402.230. The State will not
recognize marriages entered into without a valid
license therefor. See Ky.Rev.Stat. Ann. § 402.080.

128a
Appendix G
1

This task requires relatively few resources, at
least in Rowan County. (Doc. # 26 at 24–30).
Davis testified that her Office issued 212
marriage licenses in 2014. Marriage licenses
cost $35.50. (Id.). Of that sum, the Office
retains $21.17, and remits the remaining
$14.33 to the State. (Id.). Thus, Rowan
County Clerk’s Office made about $4,500, or
roughly 0.1% of its annual budget, from
issuing marriage licenses in 2014. (Id.). Davis
also estimated that the task of issuing
marriage licenses occupies one hour of one
deputy clerk’s time per week. (Id.).

2

A couple is “legally qualified” to marry if both
individuals are over the age of eighteen,
mentally competent, unrelated to each other
and currently unmarried. See Ky.Rev.Stat.
Ann. §§ 402.010, 402.020(a)-(d), (f).

The Kentucky Department of Libraries and
Archives (“KDLA”) prescribes the above-mentioned
form, which must be used by all county clerks in
issuing marriage licenses.3 Ky.Rev.Stat. Ann. §§
402.100, 402.110. It is composed of three sections,
which correspond to the steps detailed above: (1) a
marriage license, to be completed by a county or
deputy clerk; (2) a marriage certificate, to be
completed by a qualified officiant; and (3) a

129a
Appendix G
recording statement, to be completed by a county or
deputy clerk. The marriage license section has the
following components:
3

Only one aspect of the form has changed since
Obergefell—whereas the marriage applicants
were once referred to as “Bride” and “Groom,”
they are now identified as “First Party” and
“Second Party.”

(a) An authorization statement of the county clerk
issuing the license for any person or religious society
authorized to perform marriage ceremonies to unite
in marriage the persons named;
(b) Vital information for each party, including the
full name, date of birth, place of birth, race,
condition (single, widowed, or divorced), number of
previous marriages, occupation, current *932
residence, relationship to the other party, and full
names of parents; and
(c) The date and place the license is issued, and the
signature of the county clerk or deputy clerk
issuing the license.
See Ky.Rev.Stat. Ann. § 402.100(1) (emphasis
added).
Davis does not want to issue marriage licenses to
same-sex couples because they will bear the
above-mentioned authorization statement. She sees
it as an endorsement of same-sex marriage, which

130a
Appendix G
runs contrary to her Apostolic Christian beliefs. (Id.
at 42). Four of Davis’ deputy clerks share her
religious objection to same-sex marriage, and
another is undecided on the subject. (Id. at 49). The
final deputy clerk is willing to issue the licenses,
but Davis will not allow it because her name and
title still appear twice on licenses that she does not
personally sign. (Doc. # 29–3 at 7).
In the wake of Obergefell, Governor Beshear issued
the following directive to all county clerks:

Effective today, Kentucky will recognize as
valid all same sex marriages performed in
other states and in Kentucky. In accordance
with my instruction, all executive branch
agencies are already working to make any
operational changes that will be necessary
to implement the Supreme Court decision.
Now that same-sex couples are entitled to
the issuance of a marriage license, the
Department of Libraries and Archives will
be sending a gender-neutral form to you
today, along with instructions for its use.

(Doc. # 29–3 at 11). He has since addressed some of
the religious concerns expressed by some county
clerks:

You can continue to have your own personal

131a
Appendix G
beliefs but, you’re also taking an oath to
fulfill the duties prescribed by law, and if
you are at that point to where your personal
convictions tell you that you simply cannot
fulfill your duties that you were elected to
do, th[e]n obviously an honorable course to
take is to resign and let someone else step in
who feels that they can fulfill those duties.

(Doc. # 29–11). Davis is well aware of these
directives. Nevertheless, she plans to implement
her “no marriage licenses” policy for the remaining
three and a half years of her term as Rowan
County Clerk. (Doc. # 26 at 67).

III. Standard of Review
A district court must consider four factors when
entertaining a motion for preliminary injunction:
(1) whether the movant has demonstrated a strong
likelihood of success on the merits;
(2) whether the movant would suffer irreparable
harm; 6
(3) whether an injunction would cause substantial
harm to others; and
(4) whether the public interest would be served by
the issuance of such an injunction.
See Suster v. Marshall, 149 F.3d 523, 528 (6th

132a
Appendix G
Cir.1998). These “are factors to be balanced, and
not prerequisites that must be met.” In re
Eagle–Picher Indus., Inc., 963 F.2d 855, 859 (6th
Cir.1992) (stating further that these factors “simply
guide the discretion of the court”).

IV. AnalysisA. Defendant Kim Davis in her
official capacity
Plaintiffs are pursuing this civil rights action
against Defendants Rowan County and Kim Davis,
in her individual and official capacities, under 42
U.S.C. § 1983:

Every person who, under color of any
statute, ordinance, regulation, custom, or
*933 usage, of any State or Territory or the
District of Columbia, subjects, or causes to
be subjected, any citizen of the United
States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for
redress ...

This statute “is not itself a source of substantive
rights, but merely provides a method for
vindicating federal rights elsewhere conferred.”
Albright v. Oliver, 510 U.S. 266, 271, 114 S.Ct. 807,

133a
Appendix G
127 L.Ed.2d
omitted).

114

(1994)

(internal

quotations

At this stage of the litigation, Plaintiffs seek to
vindicate their constitutional rights by obtaining
injunctive relief against Defendant Kim Davis, in
her official capacity as Rowan County Clerk.
Because official capacity suits “generally represent
only another way of pleading an action against an
entity of which an officer is an agent,” one might
assume that Plaintiffs are effectively pursuing
injunctive relief against Rowan County. Monell v.
New York City Dep’t of Soc. Serv., 436 U.S. 658, 690
n. 55, 98 S.Ct. 2018, 56 L.Ed.2d 611 (1978).
However, Rowan County can only be held liable
under § 1983 if its policy or custom caused the
constitutional deprivation. Id. at 694, 98 S.Ct.
2018.
A single decision made by an official with final
policymaking authority in the relevant area may
qualify as a policy attributable to the entity.
Pembaur v. City of Cincinnati, 475 U.S. 469,
482–83, 106 S.Ct. 1292, 89 L.Ed.2d 452 (1986).
Whether an official acted as a final policymaker is a
question of state or local law. Id. However, courts
must avoid categorizing an official as a state or
municipal actor “in some categorical, ‘all or nothing’
manner.” McMillian v. Monroe Cnty., Ala., 520 U.S.
781, 785, 117 S.Ct. 1734, 138 L.Ed.2d 1 (1997).
They key inquiry is whether an official is a “final
policymaker [ ] for the local government in a
particular area, or on a particular issue.” Id.
Accordingly, the Court will focus on whether Davis

134a
Appendix G
likely acted as a final policymaker for Rowan
County regarding the issuance of marriage licenses.
While Davis is the elected Rowan County Clerk,
subject to very little oversight by the Rowan
County Fiscal Court, there are no other facts in the
record to suggest that she set marriage policy for
Rowan County. After all, the State of Kentucky has
“absolute jurisdiction over the regulation of the
institution of marriage.” Pinkhasov v. Petocz, 331
S.W.3d 285, 291 (Ky.Ct.App.2011). The State not
only enacts marriage laws, it prescribes procedures
for county clerks to follow when carrying out those
laws, right down to the form they must use in
issuing marriage licenses. Id.; see also Ky.Rev.Stat.
Ann. §§ 402.080, 402.100. Thus, Davis likely acts
for the State of Kentucky, and not as a final
policymaker for Rowan County, when issuing
marriage licenses.
This preliminary finding does not necessarily
foreclose Plaintiffs from obtaining injunctive relief
against Davis. While the Eleventh Amendment
typically bars Plaintiffs from bringing suit against
a state or its officials, “official-capacity actions for
prospective relief are not treated as actions against
the state.” Kentucky v. Graham, 473 U.S. 159, 167
n. 14, 105 S.Ct. 3099, 87 L.Ed.2d 114 (1985). This
narrow exception, known as the Ex parte Young
doctrine, permits a federal court to “enjoin state
officials to conform their future conduct to the
requirements of federal law.” Quern v. Jordan, 440
U.S. 332, 337, 99 S.Ct. 1139, 59 L.Ed.2d 358 (1979)
(citing Ex parte Young, 209 U.S. 123, 28 S.Ct. 441,

135a
Appendix G
52 L.Ed. 714 (1908)). “It rests on the premise—less
delicately called a ‘fiction,’— *934 that when a
federal court commands a state official to do
nothing more than refrain from violating federal
law, he is not the State for sovereign immunity
purposes.” Va. Office for Prot. and Advocacy v.
Stewart, 563 U.S. 247, 131 S.Ct. 1632, 1638, 179
L.Ed.2d 675 (2011). Because Plaintiffs seek to
enjoin Davis from violating their federal
constitutional rights, this Court has the power to
grant relief under Ex parte Young.4
4

In their reply brief, Plaintiffs argued that the
Court need not decide whether Davis is a
state actor or municipal policymaker in order
to grant injunctive relief. The Court’s
preliminary finding on this matter does not
necessarily foreclose Plaintiffs from arguing
the “municipal policymaker” theory in the
future. The Court simply seeks to ensure that
it is indeed able to grant injunctive relief
against Kim Davis in her official capacity.

B.
Plaintiffs’
Motion
for
Preliminary
Injunction1. Plaintiffs’ likelihood of success
on the meritsa. The fundamental right to
marry
Under the Fourteenth Amendment, a state may
not “deprive any person of life, liberty, or property,
without due process of law.” U.S. Const. amend.

136a
Appendix G
XIV, § 1. This “due process” clause has both a
procedural
component
and
a
substantive
component. See EJS Prop., LLC v. City of Toledo,
698 F.3d 845, 855 (6th Cir.2012). Procedural due
process simply requires that the government
provide a fair procedure when depriving an
individual of life, liberty or property. Id. By
contrast, substantive due process “protects a
narrow class of interests, including those
enumerated in the Constitution, those so rooted in
the traditions of the people as to be ranked
fundamental, and the interest in freedom from
government actions that ‘shock the conscience.’ ”
Range v. Douglas, 763 F.3d 573, 588 (6th Cir.2014).
Although the Constitution makes no mention of
the right to marry, the U.S. Supreme Court has
identified it as a fundamental interest subject to
Fourteenth Amendment protection. Loving v.
Virginia, 388 U.S. 1, 12, 87 S.Ct. 1817, 18 L.Ed.2d
1010
(1967)
(striking
down
Virginia’s
anti-miscegenation statutes as violative of the
Equal Protection and Due Process Clauses of the
Fourteenth Amendment). After all, “[t]he freedom
to marry has long been recognized as one of the
vital personal rights essential to the orderly
pursuit of happiness by free men.” Id. This right
applies with equal force to different-sex and
same-sex couples. Obergefell v. Hodges, ––– U.S.
––––, 135 S.Ct. 2584, 2604–05, 192 L.Ed.2d 609
(2015) (“[T]he right to marry is a fundamental right
inherent in the liberty of the person, and under the
Due Process and Equal Protection Clauses of the
Fourteenth Amendment same-sex couples may not

137a
Appendix G
be deprived of that right and that liberty.”).
If a state law or policy “significantly interferes
with the exercise of a fundamental right[, it] cannot
be upheld unless it is supported by sufficiently
important state interests and is closely tailored to
effectuate only those interests.” Zablocki v.
Redhail, 434 U.S. 374, 388, 98 S.Ct. 673, 54
L.Ed.2d 618 (1978). A state substantially interferes
with the right to marry when some members of the
affected class “are absolutely prevented from
getting married” and “[m]any others, able in theory
to satisfy the statute’s requirements[,] will be
sufficiently burdened by having to do so that they
will in effect be coerced into forgoing their right to
marry.” Id. at 387, 98 S.Ct. 673 (invalidating a
Wisconsin statute that required individuals with
child support obligations to obtain a court order
before marrying).
*935 However, “not every state action, ‘which
relates in any way to the incidents of or the
prerequisites for marriage must be subjected to
rigorous scrutiny.’ ” Wright v. MetroHealth Med.
Ctr., 58 F.3d 1130, 1134 (6th Cir.1995) (quoting
Zablocki, 434 U.S. at 386, 98 S.Ct. 673). States may
impose “reasonable regulations that do not
significantly interfere with decisions to enter into
the marital relationship.” Id. at 1135. If the statute
does not create a “direct legal obstacle in the path
of persons desiring to get married” or significantly
discourage marriage, then it will be upheld so long
as it is rationally related to a legitimate
government interest. Id. (quoting Zablocki, 434

138a
Appendix G
U.S. at 387–88 n. 12, 98 S.Ct. 673); see also
Califano v. Jobst, 434 U.S. 47, 54 n. 11, 98 S.Ct. 95,
54 L.Ed.2d 228 (1977) (upholding a Social Security
provision that terminated secondary benefits
received by the disabled dependent child of a
covered wage earner if that child married an
individual who was not entitled to benefits).
The state action at issue in this case is Defendant
Davis’ refusal to issue any marriage licenses.
Plaintiffs contend that Davis’ “no marriage
licenses” policy significantly interferes with their
right to marry because they are unable to obtain a
license in their home county. Davis insists that her
policy does not significantly discourage Plaintiffs
from marrying because they have several other
options for obtaining licenses: (1) they may go to
one of the seven neighboring counties that are
issuing marriage licenses; (2) they may obtain
licenses from Rowan County Judge Executive
Walter Blevins; or (3) they may avail themselves of
other alternatives being considered post-Obergefell.
Davis is correct in stating that Plaintiffs can obtain
marriage licenses from one of the surrounding
counties; thus, they are not totally precluded from
marrying in Kentucky. However, this argument
ignores the fact that Plaintiffs have strong ties to
Rowan County. They are long-time residents who
live, work, pay taxes, vote and conduct other
business in Morehead. Under these circumstances,
it is understandable that Plaintiffs would prefer to
obtain their marriage licenses in their home
county. And for other Rowan County residents, it

139a
Appendix G
may be more than a preference. The surrounding
counties are only thirty minutes to an hour away,
but there are individuals in this rural region of the
state who simply do not have the physical, financial
or practical means to travel.5
5

The median household income in Rowan
County is $35,236 and 28.6% of the
population lives below the poverty line. See
United
States
Census
Bureau,
http://quickfacts.census.gov/qfd/states/21/2120
5.html. For the entire state of Kentucky, the
median household income is $43,036 and
18.8% of the population lives below the
poverty line. Id.

This argument also presupposes that Rowan
County will be the only Kentucky county not
issuing marriage licenses. While Davis may be the
only clerk currently turning away eligible couples,
57 of the state’s 120 elected county clerks have
asked Governor Beshear to call a special session of
the state legislature to address religious concerns
related to same-sex marriage licenses.6 (Doc. #
29–9). If this Court were to hold that Davis’ policy
did not significantly interfere with the right to
marry, what would stop the other 56 clerks *936
from following Davis’ approach? What might be
viewed as an inconvenience for residents of one or
two counties quickly becomes a substantial
interference when applicable to approximately half
of the state.

140a
Appendix G
6

See also Jack Brammer, 57 County Clerks Ask
Governor for Special Session on Same–Sex
Marriage Licenses, The Lexington Herald
Leader
(July
8,
2015),
http:
//www.kentucky.com/2015/07/08/3936545_57–
kentucky–county-clerks-ask.html?rh=1; Terry
DeMio, Boone, Ky. Clerks Want Same–Sex
License Law, Cincinnati Enquirer (July 9,
2015),
http://www.cincinnati.com/story/news/local/no
rthern-ky/2015/07/09/boone-clerk-wants-speci
al-legislative-session-address-sex-marriage-iss
ues-clerks/29919103/.

As for her assertion that Judge Blevins may issue
marriage licenses, Davis is only partially correct.
KRS § 402.240 provides that, “[i]n the absence of
the county clerk, or Case: 0:15–cv–00044–DLB Doc
# : 43 Filed: 08/12/15 Page: 13 of 28–Page ID# :
1158 during a vacancy in the office, the county
judge/executive may issue the license and, in so
doing, he shall perform the duties and incur all the
responsibilities of the clerk.” The statute does not
explicitly define “absence,” suggesting that a
traditional interpretation of the term is
appropriate.
See
Merriam–Webster
Online
Dictionary,
2015,
http://www.merriam-webster.com/,
(describing
“absence” as “a period of time when someone is not
present at a place, job, etc.”). However, Davis asks
the Court to deem her “absent,” for purposes of this

141a
Appendix G
statute, because she has a religious objection to
issuing the licenses. While this is certainly a
creative interpretation, Davis offers no legal
precedent to support it.
This proposal also has adverse consequences for
Judge Blevins. If he began issuing marriage
licenses while Davis continued to perform her other
duties as Rowan County Clerk, he would likely be
exceeding the scope of his office. After all, KRS §
402.240 only authorizes him to issue marriage
licenses when Davis is unable to do so; it does not
permit him to assume responsibility for duties that
Davis does not wish to perform. Such an
arrangement not only has the potential to create
tension between the next judge executive and
county clerk, it sets the stage for further
manipulation of statutorily defined duties.7 Under
these circumstances, the Court simply cannot count
this as a viable option for Plaintiffs to obtain their
marriage licenses.
7

Even if the Court were inclined to accept
Davis’ interpretation of the term “absence,” it
would have doubts about the practicality of
this approach. Judge Blevins is the highest
elected official in Rowan County. (Doc. # 26 at
7). He is frequently out of the office on official
business. (Id.). While Judge Blevins would not
have to process a large number of marriage
requests, he might not be regularly available
for couples seeking licenses. Thus, the Court
would be concerned about Judge Blevins’

142a
Appendix G
ability to perform this function as efficiently
as Davis and her six deputy clerks.

Davis finally suggests that Plaintiffs will have
other avenues for obtaining marriage licenses in
the future. For example, county clerks have urged
Governor Beshear to create an online marriage
licensing system, which would be managed by the
State of Kentucky. While these options may be
available someday, they are not feasible
alternatives at present. Thus, they have no impact
on the Court’s “substantial interference” analysis.
Having considered Davis’ arguments in depth, the
Court finds that Plaintiffs have one feasible avenue
for obtaining their marriage licenses—they must go
to another county. Davis makes much of the fact
that Plaintiffs are able to travel, but she fails to
address the one question that lingers in the Court’s
mind. Even if Plaintiffs are able to obtain licenses
elsewhere, why should they be required to? The
state has long entrusted county clerks with the
task of issuing marriage licenses. It does not seem
unreasonable for Plaintiffs, as Rowan County
voters, to expect their elected official to perform her
statutorily assigned duties. And yet, that is
precisely what Davis is refusing to do. Much like
the statutes at issue in Loving and Zablocki, Davis’
“no marriage licenses” policy significantly
discourages many Rowan County residents from
exercising their *937 right to marry and effectively
disqualifies others from doing so. The Court must

143a
Appendix G
subject this policy apply heightened scrutiny.

b. The absence of a compelling state interest
When pressed to articulate a compelling state
interest served by her “no marriage licenses” policy,
Davis responded that it serves the State’s interest
in protecting her religious freedom. The State
certainly has an obligation to “observe the basic
free exercise rights of its employees,” but this is not
the extent of its concerns. Marchi v. Bd. of Coop.
Educ. Serv. of Albany, 173 F.3d 469, 476 (2d.
Cir.1999). In fact, the State has some priorities that
run contrary to Davis’ proffered state interest.
Chief among these is its interest in preventing
Establishment Clause violations. See U.S. Const.
amend. I (declaring that “Congress shall make no
law respecting the establishment of religion”).
Davis has arguably committed such a violation by
openly adopting a policy that promotes her own
religious convictions at the expenses of others.8 In
such situations, “the scope of the employees’ rights
must [ ] yield to the legitimate interest of
governmental employer in avoiding litigation.”
Marchi, 173 F.3d at 476.
8

Although it is not the focus of this opinion,
Plaintiffs have already asserted such an
Establishment Clause claim against Kim
Davis in her official capacity. (Doc. # 1 at 13).

144a
Appendix G
The State also has a countervailing interest in
upholding the rule of law. See generally
Papachristou v. City of Jacksonville, 405 U.S. 156,
171, 92 S.Ct. 839, 31 L.Ed.2d 110 (1972) (“The rule
of law, evenly applied to minorities as well as
majorities, ... is the great mucilage that holds
society together.”). Our form of government will not
survive unless we, as a society, agree to respect the
U.S. Supreme Court’s decisions, regardless of our
personal opinions. Davis is certainly free to
disagree with the Court’s opinion, as many
Americans likely do, but that does not excuse her
from complying with it. To hold otherwise would set
a dangerous precedent.
For these reasons, the Court concludes that Davis’
“no marriage licenses” policy likely infringes upon
Plaintiffs’ rights without serving a compelling state
interest. Because Plaintiffs have demonstrated a
strong likelihood of success on the merits of their
claim, this first factor weighs in favor of granting
their request for relief.

2. Potential for irreparable harm to Plaintiffs
When a plaintiff demonstrates a likelihood of
success on the merits of a constitutional
deprivation claim, it follows that he or she will
suffer irreparable injury absent injunctive relief.
See Overstreet v. Lexington–Fayette Urban Cnty.
Gov’t, 305 F.3d 566, 578 (6th Cir.2002) (“Courts
have also held that a plaintiff can demonstrate that
a denial of an injunction will cause irreparable

145a
Appendix G
harm if the claim is based upon a violation of the
plaintiff’s constitutional rights.”);
see also
Connection Distrib. Co. v. Reno, 154 F.3d 281, 288
(6th Cir.1998) (finding that the loss of First
Amendment rights for a minimal period of time
results in irreparable harm); Ohio St. Conference of
NAACP v. Husted, 43 F.Supp.3d 808, 851 (S.D.Ohio
2014) (recognizing that a restriction on the
fundamental right to vote constitutes irreparable
injury).
The Court is not aware of any Sixth Circuit case
law explicitly stating that a denial of the
fundamental right to marry constitutes irreparable
harm. However, the case law cited above suggests
that the denial of constitutional rights, enumerated
or unenumerated, results in irreparable harm. It
follows that Plaintiffs will suffer irreparable harm
from Davis’ “no marriage licenses” rule, absent
*938 injunctive relief. Therefore, this second factor
also weighs in favor of granting Plaintiffs’ Motion.

3. Potential for substantial harm to Kim
Davisa. The right to free exercise of religion
The First Amendment provides that “Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof.” See
Cantwell v. Connecticut, 310 U.S. 296, 303, 60 S.Ct.
900, 84 L.Ed. 1213 (1940) (applying the First
Amendment to the states via the Fourteenth
Amendment). This Free Exercise Clause “embraces
two concepts,-freedom to believe and freedom to

146a
Appendix G
act.” Id. at 304, 60 S.Ct. 900. “The first is absolute
but, in the nature of things, the second cannot be.”
Id. Therefore, “[c]onduct remains subject to
regulation for the protection of society.” Id.
Traditionally, a free exercise challenge to a
particular law triggered strict scrutiny. See, e.g.,
Sherbert v. Verner, 374 U.S. 398, 407, 83 S.Ct.
1790, 10 L.Ed.2d 965 (1963). A statute would only
be upheld if it served a compelling government
interest and was narrowly tailored to effectuate
that interest. Id. However, the U.S. Supreme Court
has retreated slightly from this approach. See
Emp’t Div., Dep’t of Human Res. of Oregon v.
Smith, 494 U.S. 872, 110 S.Ct. 1595, 108 L.Ed.2d
876 (1990); Church of the Lukumi Babalu Aye, Inc.
v. City of Hialeah, 508 U.S. 520, 113 S.Ct. 2217,
124 L.Ed.2d 472 (1993). While laws targeting
religious conduct remain subject to strict scrutiny,
“[a] law that is neutral and of general applicability
need not be justified by a compelling governmental
interest even if the law has the incidental effect of
burdening a particular religious practice.” Babalu,
508 U.S. at 532, 113 S.Ct. 2217; see also Smith, 494
U.S. at 880, 110 S.Ct. 1595 (stating further that an
individual’s religious beliefs do not “excuse him
from compliance with an otherwise valid law
prohibiting conduct that the State is free to
regulate”).
“Neutrality and general applicability are
interrelated, and ... failure to satisfy one
requirement is a likely indication that the other
has not been satisfied.” Babalu, 508 U.S. at 532,

147a
Appendix G
113 S.Ct. 2217. A law is not neutral if its object “is
to infringe upon or restrict practices because of
their religious motivation.” Id. at 533, 113 S.Ct.
2217 (finding that a local ordinance forbidding
animal sacrifice was not neutral because it focused
on “rituals” and had built-in exemptions for most
other animal killings). The Court has not yet
“defined with precision the standard used to
evaluate whether a prohibition is of general
application.” Id. at 543, 113 S.Ct. 2217. However, it
has observed that “[t]he Free Exercise Clause
‘protect[s] religious observers against unequal
treatment,’ and inequality results when a
legislature decides that the governmental interests
it seeks to advance are worthy of being pursued
only against conduct with a religious motivation.”
Id. at 542, 113 S.Ct. 2217.
While Smith and Babalu do not explicitly mention
the term “rational basis,” lower courts have
interpreted them as imposing a similar standard of
review on neutral laws of general applicability. See,
e.g., Seger v. Ky. High Sch. Athletic Ass’n, 453
Fed.Appx. 630, 634 (2011). Under rational basis
review, laws will be upheld if they are “rationally
related to furthering a legitimate state interest.”
Id. at 635 (noting that “[a] law or regulation subject
to rational basis review is accorded a strong
presumption of validity”); see also F.C.C. v. Beach
Commc’ns, Inc., 508 U.S. 307, 313, 113 S.Ct. 2096,
124 L.Ed.2d 211 (1993) (stating generally that laws
subject to rational basis review must be upheld “if
there is any reasonably conceivable state *939 of
facts that could provide a rational basis for the

148a
Appendix G
classification”).
In response to Smith and Babalu, Congress
enacted the Religious Freedom Restoration Act
(“RFRA”). See 42 U.S.C. § 2000bb–1. It prohibits
the government from “substantially burden[ing] a
person’s exercise of religion even if the burden
results from a rule of general applicability,” except
when the government demonstrates that the
burden is in furtherance of a compelling
governmental interest and is the least restrictive
means of furthering that interest. Id. Although
Congress intended RFRA to apply to the states as
well as the federal government, the Court held that
this was an unconstitutional exercise of Congress’
powers under Section Five of the Fourteenth
Amendment. City of Boerne v. Flores, 521 U.S. 507,
512, 117 S.Ct. 2157, 138 L.Ed.2d 624 (1997). Free
exercise challenges to federal laws remain subject
to RFRA, while similar challenges to state policies
are governed by Smith. See, e.g., Burwell v. Hobby
Lobby Stores, Inc., ––– U.S. ––––, 134 S.Ct. 2751,
189 L.Ed.2d 675 (2014).
For purposes of this inquiry, the state action at
issue is Governor Beshear’s post-Obergefell
directive, which explicitly instructs county clerks to
issue marriage licenses to 18 same-sex couples.
Davis argues that the Beshear directive not only
substantially burdens her free exercise rights by
requiring her to disregard sincerely-held religious
beliefs, it does not serve a compelling state interest.
She further insists that Governor Beshear could
easily grant her a religious exemption without

149a
Appendix G
adversely affecting Kentucky’s marriage licensing
scheme, as there are readily available alternatives
for obtaining licenses in and around Rowan
County.9
9

Davis further develops this argument in her
own Motion for Preliminary Injunction (Doc. #
39) against Governor Beshear and KDLA
Librarian Wayne Onkst. That Motion is not
yet ripe for review.

This argument proceeds on the assumption that
Governor Beshear’s policy is not neutral or
generally applicable, and is therefore subject to
strict scrutiny.10 However, the text itself supports a
contrary inference. Governor Beshear first
describes the legal impact of the Court’s decision in
Obergefell, then provides guidance for all county
clerks in implementing this new law. His goal is
simply to ensure that the activities of the
Commonwealth are consistent with U.S. Supreme
Court jurisprudence.
10

In Smith, the U.S. Supreme Court indicated
that free exercise claims involving neutral
and generally applicable laws may still be
subject to heightened scrutiny if asserted
alongside another constitutional right. If the
Court concludes that the Beshear directive is
neutral and generally applicable, Davis
argues that strict scrutiny must still apply

150a
Appendix G
because her free exercise claim is coupled
with a free speech claim. (Doc. # 29 at 23).
However, this proposal fails because Davis’
free speech rights are qualified by virtue of
her public employment. See Draper v. Logan
Cnty. Pub. Library, 403 F.Supp.2d 608,
621–22 (W.D.Ky.2005) (applying the Pickering
balancing test to a combined free exercise and
free speech claim asserted by a public
employee). The Court will discuss this concept
further in the next section.

While facial neutrality is not dispositive, Davis has
done little to convince the Court that Governor
Beshear’s directive aims to suppress religious
practice. She has only one piece of anecdotal
evidence to demonstrate that Governor Beshear “is
picking and choosing the conscience-based
exemptions to marriage that he deems acceptable.”
(Doc. # 29 at 24). In 2014, Attorney General Jack
Conway declined to appeal a federal district court
decision striking down Kentucky’s constitutional
and statutory prohibitions on same-sex marriage.
(Doc. # 29–12). He openly stated that he could not,
in good conscience, *940 defend discrimination and
waste public resources on a weak case.11 (Id.).
Instead of directing Attorney General Conway to
pursue the appeal, regardless of his religious
beliefs, Governor Beshear hired private attorneys
for that purpose. (Doc. # 29–13). He has so far
refused to extend such an “exemption” to county
clerks with religious objections to same-sex

151a
Appendix G
marriage. (Doc. # 29–11).
11

Davis refers to the U.S. District Court for the
Western District of Kentucky’s decisions in
Bourke v. Beshear, 996 F.Supp.2d 542, 545
(W.D.Ky.2014), and Love v. Beshear, 989
F.Supp.2d 536, 539 (W.D.Ky.2014). Judge
John
Heyburn
held
that
Kentucky’s
constitutional and statutory prohibitions on
same-sex marriages “violate[ ] the United
States Constitution’s guarantee of equal
protection under the law, even under the most
deferential standard of review.” Bourke, 996
F.Supp.2d at 544. The Sixth Circuit Court of
Appeals consolidated these cases with several
similar matters originating from Ohio,
Michigan and Tennessee and reversed them.
DeBoer v. Snyder, 772 F.3d 388 (6th
Cir.2014). The Supreme Court of the United
States then granted certiorari on these cases,
now collectively known as Obergefell v.
Hodges, ––– U.S. ––––, 135 S.Ct. 1039, 190
L.Ed.2d 908 (2015).

However, Davis fails to establish that her current
situation is comparable to Attorney General
Conway’s position in 2014. Both are elected officials
who have voiced strong opinions about same-sex
marriage, but the comparison ends there. Governor
Beshear did not actually “exempt” Attorney
General Conway from pursuing the same-sex
marriage appeal. Attorney General Conway’s

152a
Appendix G
decision stands as an exercise of prosecutorial
discretion on an unsettled legal question. By
contrast, Davis is refusing to recognize the legal
force of U.S. Supreme Court jurisprudence in
performing her duties as Rowan County Clerk.
Because the two are not similarly situated, the
Court simply cannot conclude that Governor
Beshear treated them differently based upon their
religious convictions. There being no other evidence
in the record to suggest that the Beshear directive
is anything but neutral and generally applicable, it
will likely be upheld if it is rationally related to a
legitimate government purpose.
The Beshear directive certainly serves the State’s
interest in upholding the rule of law. However, it
also rationally relates to several narrower interests
identified in Obergefell. By issuing licenses to
same-sex couples, the State allows them to enjoy
“the right to personal choice regarding marriage
[that] is inherent in the concept of individual
autonomy” and enter into “a two-person union
unlike any other in its importance to the committed
individuals.” 135 S.Ct. at 2599–2600. It also allows
same-sex couples to take advantage of the many
societal benefits and fosters stability for their
children. Id. at 2600–01. Therefore, the Court
concludes that it likely does not infringe upon
Davis’ free exercise rights.

b. The right to free speech
The First Amendment provides that “Congress

153a
Appendix G
shall make no law ... abridging the freedom of
speech.” Under the Free Speech Clause, an
individual has the “right to utter or print, [as well
as] the right to distribute, the right to receive and
the right to read.” Griswold v. Connecticut, 381
U.S. 479, 483, 85 S.Ct. 1678, 14 L.Ed.2d 510 (1965)
(citing Martin v. City of Struthers, 319 U.S. 141,
143, 63 S.Ct. 862, 87 L.Ed. 1313 (1943)). An
individual also has the “right to refrain from
speaking at all.” Wooley v. Maynard, 430 U.S. 705,
714, 97 S.Ct. 1428, 51 L.Ed.2d 752 (1977)
(invalidating a state law that required New
Hampshire drivers to display the state motto on
their license plates). After all, “[a] system which
secures the right to proselytize religious, political,
and ideological causes must also guarantee the
concomitant right to decline to foster such
concepts.” Id.
*941
While the Free Speech Clause protects
citizens’ speech rights from government intrusion,
it does not stretch so far as to bar the government
“from determining the content of what it says.”
Walker v. Tex. Div., Sons of Confederate Veterans,
Inc., ––– U.S. ––––, 135 S.Ct. 2239, 2245–46, 192
L.Ed.2d 274 (2015). “[A]s a general matter, when
the government speaks it is entitled to promote a
program, to espouse a policy, or to take a position.
In doing so, it represents its citizens and carries out
its duties on their behalf.” Id. That being said, the
government’s ability to express itself is not
unlimited. Id. “[T]he Free Speech Clause itself may
constrain the government’s speech if, for example,
the government seeks to compel private persons to

154a
Appendix G
convey the government’s speech.” Id. (stating
further that “[c]onstitutional and statutory
provisions outside of the Free Speech Clause may
[also] limit government speech”).
This claim also implicates the Beshear directive.
Davis contends that this directive violates her free
speech rights by compelling her to express a
message she finds objectionable. Specifically, Davis
must issue marriage licenses bearing her
“imprimatur and authority” as Rowan County
Clerk to same-sex couples. (Doc. # 29 at 27). Davis
views such an act as an endorsement of same-sex
marriage, which conflicts with her sincerely-held
religious beliefs.
As a preliminary matter, the Court questions
whether the act of issuing a marriage license
constitutes speech. Davis repeatedly states that the
act of issuing these licenses requires her to
“authorize” same-sex marriage. A close inspection
of the KDLA marriage licensing form refutes this
assertion. The form does not require the county
clerk to condone or endorse same-sex marriage on
religious or moral grounds. It simply asks the
county clerk to certify that the information
provided is accurate and that the couple is qualified
to marry under Kentucky law. Davis’ religious
convictions have no bearing on this purely legal
inquiry.
The Court must also acknowledge the possibility
that any such speech is attributable to the
government, rather than Davis. See Walker, 135

155a
Appendix G
S.Ct. at 2248 (finding that 22 specialty license
plates are government speech because the
government has exercised final approval over the
designs, and thus, chosen “how to present itself and
its constituency”). The State prescribes the form
that Davis must use in issuing marriage licenses.
She plays no role in composing the form, and she
has no discretion to alter it. Moreover, county
clerks’ offices issue marriage licenses on behalf of
the State, not on behalf of a particular elected
clerk.
Assuming arguendo that the act of issuing a
marriage license is speech by Davis, the Court
must further consider whether the State is
infringing upon her free speech rights by
compelling her to convey a message she finds
disagreeable. However, the seminal “compelled
speech” cases provide little guidance because they
focus on private individuals who are forced to
communicate a particular message on behalf of the
government. See, e.g., W.Va. Bd. of Educ. v.
Barnette, 319 U.S. 624, 63 S.Ct. 1178, 87 L.Ed.
1628 (1943) (striking down a state law that
required schoolchildren to recite the Pledge of
Allegiance and salute the flag). Davis is a public
employee, and therefore, her speech rights are
different than those of a private citizen.12 *942
Garcetti v. Ceballos, 547 U.S. 410, 418, 126 S.Ct.
1951, 164 L.Ed.2d 689 (2006).
12

Most free speech cases involving public
employees center on compelled silence rather

156a
Appendix G
than compelled speech. See, e.g., Connick, 461
U.S. at 147–48, 103 S.Ct. 1684 (focusing on a
district attorney’s claim that she was fired in
retaliation for exercising her free speech
rights). “[I]n the context of protected speech,
the difference is without constitutional
significance, for the First Amendment
guarantees ‘freedom of speech,’ a term
necessarily comprising the decision of both
what to say and what not to say.” Riley v.
Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S.
781, 796–97, 108 S.Ct. 2667, 101 L.Ed.2d 669
(1988).

“[T]he government may not constitutionally
compel persons to relinquish their First
Amendment rights as a condition of public
employment,” but it does have “a freer hand in
regulating the speech of its employees than it has
in regulating the speech of the public at large.”
Connick v. Myers, 461 U.S. 138, 156, 103 S.Ct.
1684, 75 L.Ed.2d 708 (1983); Waters v. Churchill,
511 U.S. 661, 671, 114 S.Ct. 1878, 128 L.Ed.2d 686
(1994). Accordingly, “[w]hen a citizen enters
government service, the citizen by necessity must
accept certain limitations on his or her freedom.”
Garcetti, 547 U.S. at 418, 126 S.Ct. 1951; see also
U.S. Civil Serv. Comm’n v. Nat’l Ass’n of Letter
Carriers, AFL–CIO, 413 U.S. 548, 93 S.Ct. 2880, 37
L.Ed.2d 796 (1973) (stating that “neither the First
Amendment nor any other provision of the
Constitution” invalidates the Hatch Act’s bar on

157a
Appendix G
partisan political conduct by federal employees).
“[T]wo inquiries [ ] guide interpretation of the
constitutional protections accorded to public
employee speech.” Garcetti, 547 U.S. at 418, 126
S.Ct. 1951 (citing Pickering v. Bd. of Educ. of Twp.
High Sch. Dist. 205, Will Cnty., Ill., 391 U.S. 563,
563, 88 S.Ct. 1731, 20 L.Ed.2d 811 (1968)). First, a
court must determine “whether the employee spoke
as a citizen on a matter of public concern.” Id.
(explaining further that this question often depends
upon whether the employee’s speech was made
pursuant to his or her official duties). Id. at 421,
126 S.Ct. 1951. If the answer is no, then the
employee’s speech is not entitled to First
Amendment protection. Id. at 421, 126 S.Ct. 1951
(“Restricting speech that owes its existence to a
public employee’s professional responsibilities does
not infringe any liberties the employee might have
enjoyed as a private citizen.”). If the answer is yes,
a court must then consider “whether the relevant
government entity had an adequate justification for
treating the employee differently from any other
member of the general public.” Id. (stating further
that the government’s restrictions “must be
directed at speech that has some potential to affect
the entity’s operations”).
The Court must adapt this test slightly because
Davis’ claim focuses on her right not to speak. In
this context, the first inquiry is whether Davis
refused to speak (i.e. refused to issue marriage
licenses) as a citizen on a matter of public concern.
The logical answer to this question is no, as the

158a
Appendix G
average citizen has no authority to issue marriage
licenses. Davis is only able to issue these licenses,
or refuse to issue them, because she is the Rowan
County Clerk. Because her speech (in the form of
her refusal to issue marriage licenses) is a product
of her official duties, it likely is not entitled to First
Amendment protection. The Court therefore
concludes that Davis is unlikely to succeed on her
compelled speech claim.

c. The prohibition on religious tests
Article VI, § 3 of the U.S. Constitution provides as
follows:

The Senators and Representatives before
mentioned, and the Members of the several
State Legislatures, and all executive and
judicial Officers, both of the United States
and of the several States, shall be bound by
Oath or Affirmation, to support this
Constitution; but no religious Test shall
ever be required as a *943 Qualification to
any Office or public Trust under the United
States.

Under this Clause, “[t]he fact [ ] that a person is
not compelled to hold public office cannot possibly
be an excuse for barring him from office by
state-imposed
criteria
forbidden
by
the
Constitution.” Torcaso v. Watkins, 367 U.S. 488, 81

159a
Appendix G
S.Ct. 1680, 6 L.Ed.2d 982 (1961) (striking down a
state requirement that an individual declare his
belief in God in order to become a notary public);
see also McDaniel v. Paty, 435 U.S. 618, 98 S.Ct.
1322, 55 L.Ed.2d 593 (1978) (invalidating a state
law that prevented religious officials from serving
in the state legislature).
Davis contends that “[c]ompelling all individuals
who have any connection with the issuance of
marriage licenses ... to authorize, approve, and
participate in that act against their sincerely held
religious beliefs about marriage, without providing
accommodation, amounts to an improper religious
test for holding (or maintaining) public office.” (Doc.
# 29 at 20). The Court must again point out that
the act of issuing a marriage license to a same-sex
couple merely signifies that the couple has met the
legal requirements to marry. It is not a sign of
moral or religious approval. The State is not
requiring Davis to express a particular religious
belief as a condition of public employment, nor is it
forcing her to surrender her free exercise rights in
order to perform her duties. Thus, it seems unlikely
that Davis will be able to establish a violation of
the Religious Test Clause.
Although Davis focuses on the Religious Test
Clause, the Court must draw her attention to the
first half of Article VI, Clause § 3. It requires all
state officials to swear an oath to defend the U.S.
Constitution. Davis swore such an oath when she
took office on January 1, 2015. However, her
actions have not been consistent with her words.

160a
Appendix G
Davis has refused to comply with binding legal
jurisprudence, and in doing so, she has likely
violated the constitutional rights of her
constituents. When such “sincere, personal
opposition becomes enacted law and public policy,
the necessary consequence is to put the imprimatur
of the State itself on an exclusion that soon
demeans or stigmatizes those whose own liberty is
then denied.” Obergefell, 135 S.Ct. at 2602. Such
policies simply cannot endure.

d. The Kentucky Religious Freedom Act
Kentucky Constitution § 1 broadly declares that
“[a]ll men are, by nature, free and equal, and have
certain inherent and inalienable rights, among
which may be reckoned ... [t]he right of worshiping
Almighty God according to the dictates of their
consciences.” Kentucky Constitution § 5 gives
content to this guarantee:

No preference shall ever be given by law to
any religious sect, society or denomination;
nor to any particular creed, mode of worship
or system of ecclesiastical polity; nor shall
any person be compelled to attend any place
of worship, to contribute to the erection or
maintenance of any such place, or to the
salary or support of any minister of religion;
nor shall any man be compelled to send his
child to any school to which he may be
conscientiously opposed; and the civil rights,

161a
Appendix G
privileges or capacities of no person shall be
taken away, or in anywise diminished or
enlarged, on account of his belief or disbelief
of any religious tenet, dogma or teaching.
No human authority shall, in any case
whatever, control or interfere with the
rights of conscience.

Kentucky courts have held that Kentucky
Constitution § 5 does not grant more protection to
religious practice than the First Amendment.
Gingerich v. Commonwealth, *944 382 S.W.3d
835, 839–40 (Ky.2012). Such a finding would
normally permit the Court to collapse its analysis
of state and federal constitutional provisions.
However, the Kentucky Religious Freedom Act,
patterned after the federal RFRA, subjects state
free exercise challenges to heightened scrutiny:

Government shall not substantially burden
a person’s freedom of religion. The right to
act or refuse to act in a manner motivated
by a sincerely held religious belief may not
be substantially burdened unless the
government proves by clear and convincing
evidence that it has a compelling
governmental interest in infringing the
specific act or refusal to act and has used
the least restrictive means to further that
interest. A “burden” shall include indirect
burdens such as withholding benefits,

162a
Appendix G
assessing penalties, or an exclusion from
programs or access to facilities.

Ky.Rev.Stat. Ann. § 446.350.
Davis again argues that the Beshear directive
substantially burdens her religious freedom
without serving a compelling state interest. The
record in this case suggests that the burden is more
slight. As the Court has already pointed out, Davis
is simply being asked to signify that couples meet
the legal requirements to marry. The State is not
asking her to condone same-sex unions on moral or
religious grounds, nor is it restricting her from
engaging in a variety of religious activities. Davis
remains free to practice her Apostolic Christian
beliefs. She may continue to attend church twice a
week, participate in Bible Study and minister to
female inmates at the Rowan County Jail. She is
even free to believe that marriage is a union
between one man and one woman, as many
Americans do. However, her religious convictions
cannot excuse her from performing the duties that
she took an oath to perform as Rowan County
Clerk. The Court therefore concludes that Davis is
unlikely to suffer a violation of her free exercise
rights under Kentucky Constitution § 5.

4. Public interest
“[I]t is always in the public interest to prevent the
violation of a party’s constitutional rights.” G & V

163a
Appendix G
Lounge, Inc. v. Mich. Liquor Control Comm’n, 23
F.3d 1071, 1079 (6th Cir.1994). Because Davis’ “no
marriage licenses” policy likely infringes upon
Plaintiffs’ fundamental right to marry, and because
Davis herself is unlikely to suffer a violation of her
free speech or free exercise rights if an injunction is
issued, this fourth and final factor weighs in favor
of granting Plaintiffs’ Motion.

V. Conclusion
District courts are directed to balance four factors
when analyzing a motion for preliminary
injunction. In this case, all four factors weigh in
favor of granting the requested relief. Accordingly,
for the reasons set forth herein,
IT IS ORDERED that Plaintiffs’ Motion for
Preliminary Injunction (Doc. # 2) against
Defendant Kim Davis, in her official capacity as
Rowan County Clerk, is hereby granted.
IT IS FURTHER ORDERED that Defendant Kim
Davis, in her official capacity as Rowan County
Clerk, is hereby preliminarily enjoined from
applying her “no marriage licenses” policy to future
marriage license requests submitted by Plaintiffs.
All Citations
123 F.Supp.3d 924

164a
APPENDIX H — GOVERNOR BEVIN
EXECUTIVE ORDER 2015-048 RELATING TO
THE COMMONWEALTH’S MARRIAGE
LICENSE FORM, DECEMBER 22, 2015
MATTHEW G. BEVIN
GOVERNOR
EXECUTIVE ORDER
2015-048
December 22, 2015
RELATING TO THE COMMONWEALTH’S
MARRIAGE LICENSE FORM
WHEREAS, the Constitution of the
Commonwealth of Kentucky, Section 233a states:
“Only a marriage between one man and one woman
shall be valid or recognized as a marriage in
Kentucky. A legal status identical or substantially
similar to that of marriage for unmarried
individuals shall not be valid or recognized”; and
WHEREAS, on June 26, 2015, the Supreme
Court of the United States issued a decision styled
Obergefell v. Hodges, 135 S. Ct. 2584, holding that
a fundamental right to marry is guaranteed to
same-sex couples under the United States
Constitution; and
WHEREAS, the Kentucky Constitution,
Section 233a, is now in conflict with the
Constitution of the United States; and
WHEREAS, as a result of the Supreme

165a
Appendix H
Court decision in Obergefell v. Hodges, the offices of
the County Clerks of the Commonwealth are now
required to issue marriage licenses in accordance
with KRS Chapter 402 to all eligible applicants,
including those intending to enter into same-sex
marriages; and
WHEREAS, KRS 446.350 (the Kentucky
Religious Freedom Restoration Act, or “RFRA”),
states:
KRS 446.350 – Prohibition upon
government
substantially
burdening freedom of religion –
Showing
of
compelling
governmental
interest
–
Description
of
“burden.”
Government shall not substantially
burden a person’s freedom of religion.
The right to act or refuse to act in a
manner motivated by a sincerely held
religious
belief
may
not
be
substantially burdened unless the
government proves by clear and
convincing evidence that it has a
compelling governmental interest in
infringing the specific act or refusal to
act and has used the least restrictive
means to further that interest. A
“burden”
shall
include
indirect
burdens such as withholding benefits,
assessing penalties, or an exclusion
from programs or access to facilities;
and

166a
Appendix H
WHEREAS, the issuance of marriage
licenses on the form currently prescribed by the
Kentucky Department for Libraries and Archives
(“KDLA”) creates a substantial burden on the
freedom of religion of some County Clerks and
employees of their offices because the current form
bears the name of the issuing County Clerk, and
some County Clerks and their employees sincerely
believe that the presence of their name on the form
implies their personal endorsement of, and
participation in, same-sex marriage, which conflicts
with their sincerely held religious beliefs; and
WHEREAS, KRS 446.350 requires use of
the least restrictive means available to carry out
compelling governmental interests, and there are
less restrictive means available to further the
governmental interest of issuing marriage licenses
to all applicants who qualify than the form that is
currently being used; and
WHEREAS, there is no compelling
governmental interest, particularly under the
heightened “clear and convincing evidence”
standard required by KRS 446.350, necessitating
that the name and signature of County Clerks be
present on the marriage license form used in the
Commonwealth; and
WHEREAS, the KDLA can readily prescribe
a different form that reasonably accommodates the
interests protected by KRS 446.350, while at the
same time complying with the United States

167a
Appendix H
Constitution, i.e., that allows for County Clerks to
issue marriage licenses to same-sex couples,
thereby satisfying the compelling governmental
interest and complying with the decision in
Obergefell, without substantially burdening the
free exercise of religion by those County Clerks and
their employees who hold sincerely-held religious
beliefs that conflict with same-sex marriage.
NOW, THEREFORE, in consideration of
the foregoing and by virtue of the authority vested
in me by Section 69 of the Constitution of the
Commonwealth of Kentucky and KRS 446.350, I,
Matthew G. Bevin, Governor of the Commonwealth
of Kentucky, do hereby Order and Direct the
following effective immediately:
I. That the Kentucky Department for Libraries
and Archives, through its duly appointed
commissioner or other authorized officials,
shall forthwith create, prescribe and publish
to all County Clerks in the Commonwealth a
marriage license form substantially identical
to the form attached hereto, henceforth to be
used by the offices of all County Clerks in the
Commonwealth.
II. This Executive Order requires modification
only to the existing “Marriage License” form
but not to the existing “Marriage Certificate”
form and “Certificate of Marriage” form.
Received and filed in the Secretary of State’s Office
on December 22, 2015.

168a
Appendix
I
Appendix I — CNN
article,
“Kim Davis
stands ground, but same-sex couple get
marriage license,” filed June 8, 2017
Kim Davis stands ground, but same-sex
couple get marriage license
By Mariano Castillo and Kevin Conlon, CNN
Updated 4:24 PM ET, Mon September 14, 2015
(CNN) — Kim Davis, America’s highest-profile county
clerk, returned to work Monday vowing to deny marriage
licenses to same-sex couples.
But that didn’t stop Carmen and Shannon WamplerCollins from successfully walking out of the Rowan
County, Kentucky, clerk’s office with a marriage license
in hand.
Monday was Davis’ first day back in her office after
spending five days in jail for defying a court order and
refusing to give licenses to same-sex couples.
Before starting her workday, Davis appeared defiant,
saying she will not issue any marriage licenses that go
against her religious beliefs. But she left the door open
for her deputies to continue giving out marriage licenses
to same-sex couples as long as those documents do not
have Davis’ name or title on them.
The marriage license that the couple received said
“pursuant to federal court order” on it, and instead of

169a
Appendix I
listing Davis’ name and Rowan County, it says city of
Morehead, the county seat.
David said Monday that any such licenses “will not issued
or authorized by me.” Her work-around is not to sign them
but not interfere with her deputies who do give them out.
“(U.S. District Judge David Bunning) indicated last week
that he was willing to accept altered marriage licenses
even though he was not certain of their validity,” Davis
said. “I, too, have great doubts whether the license issued
under these conditions are even valid.”
Yet one person without such doubts is Kentucky’s governor.
“I’m ... confident and satisfied that the licenses that were
issued last week (and) this morning substantially comply
with the law in Kentucky,” Gov. Steve Beshear told
reporters Monday. “And they’re going to be recognized
as valid in the Commonwealth.”
CNN senior legal analyst Jeffrey Toobin said that
Kentucky law might allow for a deputy’s signature to
be valid on a marriage license, even without the clerk’s
consent. But if the documents are altered to remove Davis’
name and title, a court may have to rule on their validity.
Attorney: Clerk’s office in an impossible position
Davis’ strategy is a “good faith” attempt to comply with
the judge’s ruling while at the same time not violate her
conscience, her attorney Harry Mihet said at a news
conference Monday.

170a
Appendix I
“Today, Kim Davis remains the bravest woman in
America,” Mihet said. “She has not compromised her
conscience, she has not compromised her faith and she
has not quit serving the people of Rowan County that she
loves very much.”
He reiterated that although one of Davis’ deputy clerks
issued a license to a same-sex couple Monday, it was done
so without her authorization.
The modified marriage license that Carmen and Shannon
Wampler-Collins received as well as the licenses issued
while Davis was in jail do not have the clerk’s authority,
Mihet said.
Including the license issued Monday, the clerk’s office has
issued 11 licenses since Davis went to jail September 3.
Eight of those licenses have been for same-sex couples.
“If any of her clerks decide that they must issue licenses
to avoid going to jail, she will not take any adverse action
against them,” Mihet said, adding the clerk’s office is
caught in an impossible position.
The modified marriage licenses are effectively in limbo,
Mihet said, as it is unclear whether they are legal.
Another Davis attorney, Mat Staver, said a solution
would be to remove not just Davis’ name and office from
the marriage licenses themselves but from the process
entirely. Have the state issue them instead, he said.

171a
Appendix I
Sounds simple enough, but under current Kentucky state
law, the authority to issue marriage licenses rests solely
with each of the state’s 120 county clerks, meaning it would
take an act of the legislature to transfer that authority.
The legislature, however, doesn’t convene until January 5.
The state’s governor, though, thinks “there is just no need
to waste hundreds of thousands of dollars of taxpayers’
money” by calling a special session.
“If you want to change the way licenses are issued, ...
they’re free to do so,” Beshear said of changes that could
be made starting in January. “But I just don’t see the
urgency now.”
Since being released from jail last week, Davis has been
keeping a low profile and opening boxes of letters sent to
her while she was in jail.
“I am deeply moved by all those who prayed for me,” she
said in a statement. “All I can say is that I am amazed
and very grateful.”
CNN’s Greg Botelho and Fredricka Whitfield contributed
to this report.

